<html>
<title> - THE JANUARY 27 UNMOVIC AND IAEA REPORTS TO THE U.N. SECURITY COUNCIL ON INSPECTIONS IN IRAQ</title>
<body><pre>[Senate Hearing 108-35]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 108-35
 
  THE JANUARY 27 UNMOVIC AND IAEA REPORTS TO THE U.N. SECURITY COUNCIL 
                         ON INSPECTIONS IN IRAQ
=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                            JANUARY 30, 2003

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate









                       U. S. GOVERNMENT PRINTING OFFICE
85-796                         WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001






                     COMMITTEE ON FOREIGN RELATIONS

                  RICHARD G. LUGAR, Indiana, Chairman

CHUCK HAGEL, Nebraska                JOSEPH R. BIDEN, Jr., Delaware
LINCOLN CHAFEE, Rhode Island         PAUL S. SARBANES, Maryland
GEORGE ALLEN, Virginia               CHRISTOPHER J. DODD, Connecticut
SAM BROWNBACK, Kansas                JOHN F. KERRY, Massachusetts
MICHAEL B. ENZI, Wyoming             RUSSELL D. FEINGOLD, Wisconsin
GEORGE V. VOINOVICH, Ohio            BARBARA BOXER, California
LAMAR ALEXANDER, Tennessee           BILL NELSON, Florida
NORM COLEMAN, Minnesota              JOHN D. ROCKEFELLER IV, West 
JOHN E. SUNUNU, New Hampshire            Virginia
                                     JON S. CORZINE, New Jersey

                 Kenneth A. Myers, Jr., Staff Director
              Antony J. Blinken, Democratic Staff Director

                                  (ii)

  
?

                            C O N T E N T S

                              ----------                              
                                                                   Page

Armitage, Hon. Richard L., Deputy Secretary of State, Department 
  of State, Washington, DC.......................................    12
    Prepared statement...........................................    14
Brownback, Hon. Sam, U.S. Senator from Kansas, prepared statement    35
Dodd, Hon. Christopher J., U.S. Senator from Connecticut, 
  prepared statement.............................................    30
``European Leaders In Support Of U.S.,'' article from the Wall 
  Street Journal, Jan. 30, 2003, submitted by Senator Joseph R. 
  Biden, Jr......................................................    65
Feingold, Hon. Russell D., U.S. Senator from Wisconsin, prepared 
  statement......................................................    39
Hagel, Hon. Chuck, U.S. Senator from Nebraska, prepared statement    60
Lugar, Hon. Richard G., U.S. Senator from Indiana, opening 
  statement......................................................     4
Negroponte, Hon. John D., U.S. Permanent Representative to the 
  United Nations, New York, NY...................................    16
Sununu, Hon. John E., U.S. Senator from New Hampshire, prepared 
  statement......................................................    73
``The Security Council, 27 January 2003: An Update on 
  Inspection,'' a report delivered by Dr. Hans Blix, Executive 
  Chairman, United Nations Monitoring, Verification and 
  Inspection Commission, UNMOVIC, to the U.N. Security Council...    76
``U.S. Had Key Role in Iraq Buildup,'' article from The 
  Washington Post, Dec. 30, 2002, by Michael Dobbs, submitted by 
  Senator Barbara Boxer..........................................    43
Voinovich, Hon. George V., U.S. Senator from Ohio, prepared 
  statement......................................................    53

                                 (iii)

  


THE JANUARY 27 UNMOVIC AND IAEA REPORTS TO THE U.N. SECURITY COUNCIL ON 
                          INSPECTIONS IN IRAQ

                              ----------                              


                       THURSDAY, JANUARY 30, 2003

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10 a.m. in room 
SD-419, Dirksen Senate Office Building, HON. Richard G. Lugar 
(chairman of the committee), presiding.
    Present: Senators Lugar, Hagel, Chafee, Allen, Brownback, 
Enzi, Voinovich, Alexander, Coleman, Sununu, Biden, Sarbanes, 
Dodd, Feingold, Boxer, Bill Nelson, and Corzine.
    The Chairman. This hearing is called to order.
    Today, the Senate Foreign Relations Committee meets to hear 
testimony from Deputy Secretary of State, Richard Armitage, and 
the United States Ambassador to the United Nations, John 
Negroponte. Both are principal actors in the formulation and 
implementation of U.S. policy toward Iraq, and they will 
provide comments on U.S. reaction to the 60-day progress report 
on Iraq's compliance with the United Nations Security Council 
Resolution 1441.
    On Monday, January 27, Mohammed ElBaradei, Director General 
of the International Atomic Energy Agency, and Hans Blix, 
Executive Chairman of the United Nations Monitoring, 
Verification and Inspection Commission, UNMOVIC, delivered an 
update to the United Nations Security Council on their efforts 
to verify disarmament in Iraq.\1\ In Mr. Blix' assessment, and 
I quote, ``Iraq appears not to have come to a genuine 
acceptance, not even today, of the disarmament which was 
demanded of it.''
---------------------------------------------------------------------------
    \1\ A copy of this update entitled ``The Security Council, 27 
January 2003: An Update on Inspection,'' can be found on page 76.
---------------------------------------------------------------------------
    It should not come as a surprise to this committee and 
those who have watched the process unfold over the last 12 
years. Iraq continues to resist the United Nations' efforts to 
verify its compliance with a host of Security Council 
resolutions.
    On November 8, 2002, the United Nations Security Council 
passed Resolution 1441 requiring Iraq's immediate, 
unconditional, and active cooperation in verifying the 
dismantlement of the weapons of mass destruction and the 
programs that support them.
    In my opinion, Iraq has failed to comply with these 
requirements and is in material breach of these obligations. 
Iraq continues to deny U-2 overflights, requested 
documentation, and unfettered access to weapons scientists. 
Furthermore, the recent discovery of chemical warheads in Iraq, 
and Iraq's failure to provide proof as to the final disposition 
of tons of chemical and biological agents, are clear instances 
of noncompliance.
    It is Iraq's responsibility to prove compliance with the 
resolutions passed since the end of the Persian Gulf War. To 
date, Iraq has failed to do so.
    Simply stated, previous United Nations inspection reports 
have listed weapons, materials, and programs of mass 
destruction in Iraq. Resolution 1441 gives Iraq one final 
chance to destroy the weapons and materials and stop the 
programs by showing evidence of that destruction or inviting 
UNMOVIC inspectors to view items previously listed and to 
destroy all of them with worldwide observation.
    To date, Iraq has shown no required evidence, nor directed 
the inspectors to the weapons and materials, even though the 
Security Council voted 15 to 0 that such a monumental defiance 
of the United Nations would result in grave consequences.
    Now, demands are heard in our country and in other 
countries that the U.N. inspectors produce, ``smoking guns,'' 
or dramatic pictures. The U.N. has listed the smoking guns in 
past reports. Iraqis apparently persist in the notion that all 
these past reports are illusion; that nothing ever happened; 
that nothing, therefore, can be reported; and that any 
consequences of such wholesale evasion are unwarranted, are the 
subject of our hearing today.
    The report Iraq submitted in early December on the current 
state of its weapons of mass destruction programs contains no 
new information and is largely a reprint of earlier documents. 
And still Iraqi leaders claim they have given the United 
Nations full cooperation.
    As Hans Blix reported to the Security Council, there are 
glaring omissions and apparent violations that Iraq has failed 
to explain, and he went on to point these out. Iraq has tested 
missiles that exceed the permitted range. Iraq has failed to 
prove that it destroyed all of its anthrax stockpile. Iraq has 
illegally imported rocket engines and fuel. Iraq has failed to 
account for 6,500 chemical weapons. Iraq has failed to declare 
650 kilograms of bacterial growth medium that could be used in 
the development of biological weapons. Iraq has rebuilt missile 
production facilities that were destroyed by previous 
inspectors. And UNMOVIC inspectors have discovered the 
precursors to mustard gas.
    Now, furthermore, Iraqi scientists continue to refuse to 
meet with the United Nations inspectors in private. And to 
date, those who have agreed to interviews have demanded that 
representatives of Iraq's monitoring directorate to be present. 
It is apparent that Baghdad is working to discourage private 
meetings.
    On numerous occasions, I have asked UNMOVIC and the IAEA to 
utilize the authority that has been given to hold interviews 
outside of Iraq. Scientists who agree to be interviewed should 
be given the opportunity to emigrate with their families. Our 
experience has shown that these scientists are the best source 
of information on weapons programs.
    As Iraqi intransigence has become more deliberate, 
President Bush and Prime Minister Tony Blair of Great Britain 
have ordered military forces into the region in increasing 
numbers. And the presence of these military forces in the 
region and the insistence of President Bush and Prime Minister 
Blair and others on complete disarmament have been the catalyst 
behind what little cooperation the United Nations has received 
to date from Iraq.
    All Americans--all Americans--are hopeful that military 
action against Iraq can be avoided. Iraqi actions are providing 
little encouragement to date. The list of outstanding Iraqi 
obligations and requirements is the same today as it was when 
the United Nations inspectors left in 1998, and there is little 
evidence that Saddam Hussein has decided to comply or to 
cooperate.
    Our nation will and must act when our national security 
interests are threatened. Iraq, armed with weapons of mass 
destruction and the possibility of their transfer to terrorist 
organizations, is unacceptable. Saddam Hussein has launched 
chemical and biological weapons against his neighbors, as well 
as his own people, and we cannot permit him to maintain these 
weapons of mass destruction.
    On November 8, the United Nations made a strong statement 
requiring full Iraqi compliance. Those days of hope and 
consensus have waned as narrower interests have begun to peel 
back the Security Council's unanimous support for Resolution 
1441. This is unfortunate. The administration should continue 
to work to build support at the United Nations for full 
implementation of Resolution 1441, including the need for 
action in the absence of complete Iraqi compliance.
    As President Bush noted in September in his speech before 
the General Assembly, ``The United Nations faces a difficult 
and defining moment. Are Security Council resolutions to be 
honored and enforced, or cast aside without consequences? Will 
the United Nations serve the purpose of its founding, or will 
it be irrelevant,'' end of quote by the President.
    In recent days, the administration has begun to consider 
the release of highly sensitive intelligence on Iraq's weapons 
ambitions. I am encouraged that Secretary Powell will visit 
with the Security Council and share some of our intelligence 
community's assessments of Iraq's behavior.
    I appreciate the importance, as we all do on this 
committee, of safeguarding sources and methods in sharing 
highly classified information, but I believe those risks are 
now outweighed by both the need to point the United Nations 
inspectors in the direction of suspect sites, and by the need 
to demonstrate to the Security Council and allied governments 
the seriousness of our purpose.
    If, after continued discussions, United Nations support is 
not forthcoming, the United States must consider a different 
course. We must work with like-minded nations to form what 
President Bush has called the ``coalition of the willing'' 
committed to the disarmament of Iraq.
    Now, before I recognize our distinguished witnesses, which 
we welcome, I want to call upon the distinguished chairman of 
this committee, who has graciously relinquished the gavel, at 
least for a period of time in the topsy-turvy politics of our 
country. I am grateful for his friendship, for his leadership, 
and I call upon him now for his statement.
    [The opening statement of Senator Lugar follows:]

             Opening Statement of Senator Richard G. Lugar

    Today the committee meets to hear testimony from Deputy Secretary 
of State Richard Armitage and U.S. Ambassador to the United Nations 
John Negroponte. Both are principal actors in the formulation and 
implementation of U.S. policy toward Iraq. They will provide comments 
on the U.S. reaction to the 60-day progress report on Iraq's compliance 
with United Nations Security Council Resolution 1441.
    On Monday, January 27, Mohammed El Baradei, Director General of the 
International Atomic Energy Agency, and Hans Blix, Executive Chairman 
of the United Nations Monitoring, Verification, and Inspection 
Commission (UNMOVIC) delivered an update to the United Nations Security 
Council on their efforts to verify disarmament in Iraq. Mr. Blix's 
assessment that, ``Iraq appears not to have come to a genuine 
acceptance, not even today, of the disarmament which was demanded of 
it'' should not come as a surprise to those who have watched this 
process unfold over the last twelve years. Iraq continues to resist 
United Nations efforts to verify its compliance with a host of Security 
Council resolutions.
    On November 8, 2002, the United Nations Security Council passed 
Resolution 1441 requiring Iraq's immediate, unconditional, and active 
cooperation in verifying the dismantlement of its weapons of mass 
destruction and the programs that support them. ``In my opinion, Iraq 
has failed to comply with these requirements and is in material breach 
of these obligations. Iraq continues to deny U-2 overflights, requested 
documentation, and unfettered access to weapons scientists. 
Furthermore, the recent discovery of chemical warheads in Iraq and 
Iraq's failure to provide proof as to the final disposition of tons of 
chemical and biological agent are clear instances of noncompliance.''
    It is Iraq's responsibility to prove compliance with the 
resolutions passed since the end of the Persian Gulf War. To date, 
Baghdad has failed to do so. Simply stated, previous United Nations 
inspection reports have listed weapons, materials, and programs of 
weapons of mass destruction in Iraq. Resolution 1441 gives Iraq one 
final chance to destroy the weapons and materials and stop the programs 
by showing evidence of that destruction or inviting the UNMOVIC 
inspectors to view items previous listed and to destroy all of this 
with worldwide observation. To date, Iraq has shown no required 
evidence nor directed the inspectors to the weapons and materials even 
though the Security Council voted 15-0 that such a monumental defiance 
of the United Nations would result in grave consequences.
    Demands are heard in our country and in other countries that the 
U.N. inspectors produce ``smoking guns'' or dramatic pictures. The U.N. 
has listed the ``smoking guns'' in past reports. Iraqi's apparently 
persist in the notion that all past reports are an illusion, that 
nothing ever happened, nothing can be reported, and that any 
consequences of such wholesale evasion be unwarranted.
    The report Iraq submitted to the United Nations in early December 
on the current state of its weapons of mass destruction programs 
contains no new information and is largely a reprint of earlier 
documents. Still Iraqi leaders claim they have given the United Nations 
full cooperation. As Hans Blix reported to the Security Council, there 
are glaring omissions and apparent violations that Iraq has failed to 
explain. Among these omissions and violations are the following:

  <bullet> Iraq has tested missiles that exceed the permitted range;

  <bullet> Iraq has failed to prove that it has destroyed all of its 
        anthrax stockpile;

  <bullet> Iraq has illegally imported rocket engines and fuel;

  <bullet> Iraq has failed to account for 6,500 chemical weapons;

  <bullet> Iraq has failed to declare 650 kilograms of bacterial growth 
        medium that could be used in the development of biological 
        weapons;

  <bullet> Iraq has rebuilt missile production facilities that were 
        destroyed by inspectors; and

  <bullet> UNMOVIC inspectors have discovered precursors to mustard 
        gas.

    Furthermore, Iraqi scientists continue to refuse to meet with 
United Nations inspectors in private. To date, those who have agreed to 
interviews have demanded that representatives of Iraq's Monitoring 
Directorate be present. It is apparent that Baghdad is working to 
discourage private meetings.
    On numerous occasions, I have urged UNMOVIC and the IAEA to utilize 
the authority it has been given to hold interviews outside of Iraq. 
Scientists who agree to be interviewed should be given the opportunity 
to emigrate with their families. Our experience has shown that these 
scientists are the best source of information on weapons programs.
    As Iraqi intransigence has become more deliberate, President Bush 
and British Prime Minister Tony Blair have ordered military forces into 
the region in increasing numbers. The presence of these military forces 
in the region and the insistence of President Bush and Prime Minister 
Blair on complete disarmament have been the catalyst behind what little 
cooperation the United Nations has received to date from Iraq.
    All Americans are hopeful that military action against Iraq can be 
avoided. Iraqi actions are providing little encouragement. The list of 
outstanding Iraqi obligations and requirements is the same today as it 
was when United Nations inspectors left in 1998. There is little 
evidence that Saddam Hussein has decided to comply or cooperate.
    Our nation will and must act when our national security interests 
are threatened. Iraq armed with weapons of mass destruction and the 
possibility of their transfer to terrorist organizations is 
unacceptable. Saddam Hussein has launched chemical and biological 
weapons attacks against his neighbors as well as his own people. We 
cannot permit him to maintain weapons of mass destruction.
    On November 8 the United Nations made a strong statement requiring 
full Iraqi compliance with the terms of the Resolution 1441. Those days 
of hope and consensus have waned as narrower interests have begun to 
peel back the Security Council's unanimous support for Resolution 1441. 
This is unfortunate but not unexpected. The Administration should 
continue to work to build support at the United Nations for full 
implementation of Resolution 1441 including the need for action in the 
absence of complete Iraqi compliance. As President Bush noted in 
September in his speech before the General Assembly: ``the United 
Nations [faces] a difficult and defining moment. Are Security Council 
resolutions to be honored and enforced, or cast aside without 
consequence? Will the United Nations serve the purpose of its founding, 
or will it be irrelevant?''
    In recent days the Administration has begun to consider the release 
of highly sensitive intelligence on Iraq's weapons ambitions. I am 
encouraged that Secretary of State Powell will visit with the Security 
Council and share some of our Intelligence Community's assessments of 
Iraq's behavior. I appreciate the importance of safeguarding sources 
and methods in sharing highly classified information, but I believe 
those risks are now outweighed both by the need to point United Nations 
inspectors in the direction of suspect sites and by the need to 
demonstrate to the Security Council and allied governments the 
seriousness of our purpose.
    If, after continued discussions, United Nations support is not 
forthcoming, the United States must consider a different course. We 
must work with like-minded nations to form a ``coalition of the 
willing'' committed to the disarmament of Iraq.

    Senator Biden. Thank you, Mr. Chairman.
    I would like to think I would have relinquished it 
voluntarily, but I doubt whether I would have. But if it is 
going to be relinquished, there is no single person, in my 
view, in the Congress more qualified to have that seat than 
you.
    And I want to thank you for getting us right underway, not 
wasting any time. This is--as everyone has been saying in 
various fora, this is a momentous moment for the United States 
of America, and a great deal is at stake.
    And I say to my two friends, our witnesses, that I never 
thought we would get to the point where I would have trouble 
seeing you, Secretary Armitage, but I will tell you, this dais 
keeps getting extended. I have been here a long time. At first, 
I walked in and thought maybe my eyes were going bad, and then 
I realized we have extended by about ten feet; the table is 
moved back. So either I have been here too long, or I am going 
to have to get binoculars if we keep expanding this.
    And I do want the record to note that I have been calling, 
for 12 years, for a new microphone system in this place, and it 
was not until we had a Republican chairman that it arrived.
    My only regret, Mr. Chairman, is that I wish that this had 
happened on my watch.
    Now, technically we did not organize in the middle of 
January. These were put in in January, so I am going to claim 
credit for the mikes. It is my one contribution to American 
foreign policy. That is, the witnesses can hear us now, which I 
am not sure is a good thing.
    But anyway, let me be serious for a few moments.
    As we speak, the Judiciary Committee, of which I am a 
member, is meeting, and we are about to pass a bill that I have 
introduced out of committee providing for the ability for 500 
visas for Iraqi scientists and all their families. I would urge 
you, Rich, to make the point to the administration that it 
would be helpful to get this out and moving. I cannot imagine 
it is not helpful to you, although it is not dispositive of 
what they may do, the idea that now there is a limit of 100, we 
move it to 500, and the entire families of these scientists, if 
they so choose, to come to the United States.
    Secretary Armitage, Mr. Ambassador--Ambassador Negroponte, 
I want to add my welcome to both of you. We are eager to hear 
your testimony. And I cannot think of a more critical 
assignment for the future standing of our country in the world 
than the one facing you in the immediate weeks ahead.
    You have been charged with making America's case to the 
world and building a coalition to confront and, if necessary, 
to forcibly disarm Saddam Hussein. I want to commend you for 
your achievements to date. In absentia, your boss, Secretary 
Armitage, but not the Ambassador's boss, I want to commend, in 
absentia, Colin Powell. I think he is the best thing since 
sliced bread, and I think he is doing an incredible job right 
now with both of you.
    By taking the issue of Iraq's disarmament to the Security 
Council and challenging the U.N. to enforce its own 
resolutions, as the President did in a brilliant speech that he 
made--I think the most significant speech, in my view, that he 
has made since he has been President--you have made Iraq the 
world's problem, not just our own. And I cannot emphasize 
enough how much I agree with you that it must remain the 
world's problem, not just our own.
    You have achieved an outcome that your detractors thought 
impossible, but, as I am going to be frank to say, I predicted 
you would be able to do, and that is, you got the Security 
Council to vote unanimously last fall for demanding Iraq's 
disarmament. And I predict you will be able to do it, if not 
unanimously, with a German abstention, in all probability, you 
will be able to do that again for a second resolution--at least 
I hope that is going to be the outcome. And I know you are 
going to attempt to pursue that, although you are not committed 
to that position that you must get a U.N. resolution. But 
clearly, clearly, clearly, it would be in our overwhelming 
interest if that were able to be done.
    I look forward to your analysis of the reports issued this 
week by the United Nations weapons inspectors. To me, they 
clearly show, they clearly show that Saddam continues to thumb 
his nose at the world and is in material breach of the 1441, 
the most recent U.N. resolution. They bolster the case that the 
United States has made that Iraq is violating the terms of 
surrender. And I want to term it in terms of ``surrender.''
    I am so frustrated by some other parts of this 
administration of injecting into this debate a notion relating 
to preemption that has not a damn thing to do with whether or 
not we move against Saddam Hussein. I would hope the President 
and everyone else would stop talking about a doctrine you 
cannot even explain--you cannot even explain to the American 
public, you cannot explain to us--because it is confusing the 
rest of the world.
    We are not acting, if we act, preemptively. We are 
enforcing a surrender document. Saddam Hussein invaded another 
country. The world responded. If this were 1930, he would have 
signed a peace agreement. It is not. We have a United Nations. 
He signed on to--in return for his ability to stay in power, he 
made a commitment to the world, several commitments. Enforcing 
that, if necessary, is not preemption--is not preemption--
whatever the hell that doctrine is supposed to mean.
    And so I really think you--I would respectfully suggest 
that when you talk about this, you not further confuse the 
devil out of the rest of the world and make us sound like a 
bunch of cowboys, that we are going to be out there 
preemptively imposing our view. This is an enforcement of a 
binding international legal commitment that a man made to save 
his skin and stay in power.
    In the legal sense, it is clear that Iraq is in material 
breach, but the court of international opinion is not a court 
of law. You have to meet a higher standard of proof--not 
legally have to meet it, but practically--to enhance our 
greater interest. We have to meet a higher standard of proof in 
order to convince the Security Council and the thousands and 
thousands of people out there, or millions, who do not 
understand and are not ready to believe.
    I am going to say something that is mildly controversial, 
but since--I said it in front of 500 world leaders in the last 
3 days in Davos, every world leader in Europe and the Middle 
East knows he is in material breach. They know it. Why are they 
not responding? We have no--with the possible exception of 
England--significant powerful leader in Europe today. That is 
not a criticism; it is an observation. And they are unwilling, 
in my view, to stand up in the face of public opinion in their 
communities that run from 95 percent to 70 percent against this 
war based upon him being in material breach, as defined. So we 
have got to help them. We have got to help them. Because they 
know--they know--he is in material breach.
    And I sincerely hope, and I join Senator Lugar in the--the 
best news I heard in the President's speech was on the 5th, the 
Secretary of State is going to go lay out this case.
    This is about further strengthening--there is the concern 
that I hear, and I know you have to respond to--and you hear 
it, you will not--I am not suggesting you should acknowledge 
it, but I am going to say it--that people who are our friends, 
countries who are our friends and our allies, they are talking 
about, ``Well, you can't move based upon a doctrine of 
preemption.'' They are asking about, ``Is this about oil? Is it 
about further strengthening the United States' already 
predominant position as a world power?'' Much of this 
skepticism is undeserved; but none of it is unfamiliar to 
either of you, given you daily contact with foreign 
governments.
    Some may ask why it matters what other countries think. I 
am sure I will get phone calls and letters saying, ``What the--
Biden, what are you talking about, caring what these other 
countries think? We're America. What does it matter what they 
think?'' Well, it matters a great deal. It matters because, 
while we can do this alone, while we are fully capable of doing 
this alone, we are so much better off--so much better off--if 
we do it with others.
    Having others with us increases our chance of success. And 
by success, I mean not just taking down Saddam. That is not the 
measure of success. The measure of success is, if we take him 
down, if need be, we gather up and destroy the weapons of mass 
destruction, and we are assured that there is a government in 
place that is not likely to reconstitute the menace and threat. 
That is a gigantic undertaking that exceeds merely the military 
operation.
    And it also, if we have others with us, decreases the risk 
and lowers the cost, and it invests others in the complicated 
matter of the day after, or, more appropriately, in my view, 
the decade after. And it does not make us a target of every 
terrorist and malcontent in the world if we are not doing this 
alone. It matters. It matters, in terms of our naked self-
interest.
    In my view, to gain international support, the 
administration is going to have to have a more consistent 
message, that this is about enforcing the terms of surrender 
between Saddam and the Security Council. I believe--it is 
presumptuous of me to say--well, it is not presumptuous; I have 
been here longer than most of you--it is--I believe it is 
important to marshal the best evidence available to our 
government to demonstrate irrefutably that Iraq is not only 
failing to account, but is in violation, and continues to 
demonstrate--and we have evidence that it demonstrates--an 
ability to thwart the efforts of the inspectors.
    There is a policy of deception that is underway, and the 
world has to be told it. This is important to do, not only for 
a skeptical international community, but, I would respectfully 
suggest, for all our constituents where we live.
    The best way--and I think--to do this is--I believe there 
is a compelling case to make. I hope that it leads the U.N. 
Security Council to pass a second resolution to disarm Iraq. 
And if Iraq refuses to disarm itself, I believe--otherwise, 
Secretary Powell and President Bush, as they have said, the 
Security Council risks undermining its credibility, in a 
permanent sense. And I am one of those who believes that there 
is great promise. The more powerful we are, the more 
predominant our power, the more we need the United Nations, in 
my view. Not the less we need it; the more we need it. Because 
our motives, as--Mr. Ambassador, I have never, in all my years 
of attending international meetings with heads of state and 
Foreign Ministers, ever heard our motives questioned as much as 
they are today. Not merely our judgment. We are used to that. 
But they are questioning our motives. And that is corrosive.
    And that is why I believe, if we are smart--and you are, 
clearly, and you are doing a great job--if we are smart, we 
will be able to strengthen the United Nations in the process 
here so our motives are not always the thing in question.
    I would hope that the resolution would make clear that 
Saddam, once and for all, must choose between giving up his 
weapons of mass destruction and giving up power. And I hope it 
would make it clear to the world that the choice between war 
and peace is Saddam's choice, not our choice. I think this is 
the single best way to avoid war.
    My unsolicited advice--well, solicited advice--to some of 
the heads of state that attended this meeting, and Foreign 
Ministers was, ``If you really don't want us to go to war, join 
us. Join us.'' Join us in making it clear to Saddam that we are 
united. We are united in the resolve that he must give up these 
weapons. Absent that, I think there is no chance we will be 
able to avoid war.
    Mr. Chairman, last summer you and I held a series of in-
depth hearings on Iraq, and our goal was to begin a national 
dialog so the American people would be better informed about 
the threat Iraq poses, the options available to us, the 
regional considerations, and, finally, what was going to be 
asked of them, the American people. Those hearings and today's 
hearings and subsequent hearings you have planned, in my view, 
are critical, because I believe that no foreign policy, no 
matter how well conceived, can be sustained without the 
informed consent of the American people. And unfortunately--and 
it is not a criticism; again, it is an observation--it may not 
be the time, but, unfortunately, there has been not much 
informed consent, thus far.
    In my view, the American people have a very distorted, but 
understandable, view of what lies ahead. The vast majority of 
people in my State assume that if we go to war, Johnny's going 
to come marching home after a 3-week encounter, and it is going 
to be like the first one, and that we are not going to be tied 
down and engaged to the tune of billions of dollars--which I 
support, by the way. I am not arguing--this is not a reason not 
to go, if we have to, but is a reason to explain to all of our 
constituents so we are not sitting here 2 years from now, when 
we are trying to pass an authorization for an additional $20 
billion to maintain forces and maintain our effort in--to 
maintain a stable government in Iraq to keep that area from 
imploding, and we are not told on the floor, ``No, you guys, 
that's a foreign policy thing.'' We really have to go out there 
and take care of the Delaware River dredging, or we have to 
take care of a problem in Tennessee, or we have to take care of 
some other economic and pressing need, whether it relates to 
education or healthcare.
    The American people have to know upfront what we are about 
to sign them on to. The American people have yet to have a 
clear explanation of why war may be the only remaining 
alternative and what authority we are using to go to war and 
what will be expected of them, not only winning the war, but in 
securing the peace.
    In last summer's hearings, we were told that we would have 
to stay in Iraq in large numbers for a long time at high cost. 
Now, initially the administration--the White House, not denied, 
but suggested it would not mean that kind of commitment. There 
are reports now--we were told then it would take 75,000 forces 
in place for at least 3 to 5 years, some suggested as long as 
10 years, and we would be engaged in a thing that no one in 
this administration, understandably, or any administration, 
wants to utter, a phrase, ``nation building.''
    Gentlemen and ladies of this committee, understand we are 
about to embark in a commitment of ``nation building.'' Our 
warriors will not only win and fight wars; they will be 
required to build a nation, or at least reconstruct a 
government. And the American people do not understand that. I 
am confident they are willing to bear this burden if it is 
explained to them. They should not be surprised when, 2 years 
after this war is over, they see tens of thousands, or 
thousands of American forces, American troops in Iraq, some of 
whom being shot at guarding oil wells, some of whom are going 
to be on a border and going to end up being killed trying to 
secure that border so Iranians do not think they can have part 
of northern Iraq and the Kurds do not think they can move into 
Kirkuk, and so on and so forth.
    It is a big-deal job coming up. They should not be 
sandbagged by the sudden choice down the road that requires 
them to choose between supporting the continued presence in 
Iraq and other vital needs our country has.
    It will be incumbent upon the administration in the coming 
days to level with the American people about the commitment 
they will be asked to make. The President has made that 
commitment personally to me and to many of us in the Cabinet 
room, and I believe he will do it at the appropriate time if 
there is nothing left--no alternative left but war. They should 
know what the risks are, what is coming to them, what will be 
the cost, how long it will take, to the best of our knowledge, 
and can we afford to remove Saddam Hussein and rebuild Iraq and 
pay for homeland security and all the other things we have to 
deal with? Raising these questions and others should not, in my 
view, be an excuse for inaction. But we owe it to the American 
people to be straight-up with them.
    I will conclude by saying to you, although it is a very 
different circumstance--that is, the preparation to go in and 
respond as we had to in World War II and what we know we are 
about to do now--we are still talking about a couple of 
hundred-thousand forces. And I am looking forward to the 
President and the administration doing what I think all 
Presidents must do in such circumstances, is stand up, as 
Franklin Roosevelt did, and forthrightly say, There will be 
pain. There will be cost. There will be loss of life. And there 
will be--we'll be asking of you for your treasure--the 
treasure, our money--in order to be able to finish a very 
important job.
    I strongly recommend and sincerely hope and look forward 
to, if the diplomatic route is, in fact, exhausted--if it is 
exhausted--that we will have that frank assessment, because the 
American people will do whatever is asked of them, but they 
will resent keenly the implication that we are doing this for a 
reason that is not real--and I would argue al-Qaeda is one of 
those reasons--and, further, implying to them that this will be 
essentially a costless, bloodless undertaking. They will do 
what is asked of them.
    I know the two men before us cannot speak, in that sense, 
for the administration, but I know them to be men of integrity, 
intellectual and personal, and I know that they will give us 
straight answers to the questions we have today. I look forward 
to it. I believe you can count on the support of the vast 
majority of this committee in your effort to try to 
diplomatically solve this. And I would suggest that you will 
get the support of the Congress, overwhelmingly, if all 
alternatives are exhausted, if, in fact, there is a leveling 
with the American people and the world community what is at 
stake here and what we are committing to.
    I thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Biden.
    Let me mention three things before we greet our witnesses. 
As Senator Biden has noted, the table is longer. Ideally, there 
is more elbow room for members and for staff.
    And second, the microphones, mercifully, do work, and 
members can be heard. The problem is that members will need to 
press the button in front of them to make sure the microphone 
works, and then, preferably, to press the button again when the 
statement has been completed.
    Now, third, we will have other meetings of the committee 
shortly. I appreciate the attendance today. Fifteen out of our 
19 members are here despite conflicts. Senators have gone back 
and forth to make quorums on other committees. But this is 
important business.
    And next--yes?
    Senator Boxer. Mr. Chairman, is there a message here that 
this is broken already? I mean, it happened to me. I was just 
curious.
    The Chairman. You cannot be heard.
    Senator Biden. There is no circumstance under which Senator 
Boxer will not be able to be heard, I assure you.
    The Chairman. It will be remedied, yes. Relief will come.
    Let me mention that we are mindful of other policy issues, 
and next Tuesday we will be discussing North Korea. On 
Wednesday, we will have a business meeting, and hopefully a 
markup of legislation on HIV/AIDS. That bill involves a very 
ambitious program that the President has mentioned that members 
around this committee have helped formulate--Senator Kerry, 
Senator Frist, in particular, and many others. And then on 
Thursday, we will have Secretary Powell. He will make his 
initial appearance, and that will be a highlight, as it always 
is.
    And then we will be back to Iraq to discuss, as Senator 
Biden has suggested, what happens in the months and years to 
follow. What are our obligations? What sort of planning is our 
administration doing? I know our administration will be eager 
to share with us their thoughts and how other nations and other 
factors may come into this.
    I will not go beyond that, except to say that a hearing on 
Afghanistan comes very shortly thereafter. We will see what all 
is going on there now and how we may be helpful in our work.
    And then, finally, in the course of this month, we will 
discuss the State Department authorization bill, really one of 
the essential responsibilities of this committee. And I have 
asked all members to be creative. This is their opportunity.
    This is an opportunity, likewise, for Secretary Powell and 
for you, Mr. Armitage, and for the Department, to think about 
robust diplomacy for our country, all of the various forms of 
assistance--economic, strategic, human rights, and so forth--
that we want to do, and to work with our President and with the 
Budget Committee and with all the powers that be so that we are 
able to fulfill these aims.
    Senator Biden. And you thought I was aggressive.
    The Chairman. Now let me call upon the distinguished 
Deputy, Mr. Armitage, a good friend of the committee. He has 
been testifying here for over a generation. But this is a very 
important day, and we welcome you.

  STATEMENT OF HON. RICHARD L. ARMITAGE, DEPUTY SECRETARY OF 
           STATE, DEPARTMENT OF STATE, WASHINGTON, DC

    Mr. Armitage. Thank you very much, Mr. Chairman and 
Chairman Biden.
    I was contemplating, coming up here, Senator Lugar, that 
you and I have been doing this for 23 years--at least I have 
had the honor of being in front of you for 23 years, with a 
short break. But even in the time out of government, I was able 
to come up, at the request of the committee, from time to time, 
and always found myself much better off for it.
    I think, speaking for John and for myself, we are delighted 
to be at your first meeting as you hold the gavel of 
chairmanship. And I am sure the attendance here reflects the 
enthusiasm that Senator Biden engendered in this committee and 
which you have carried on.
    Chairman Biden, I am not going to take the bait on the 
question of the microphone being the only accomplishment. The 
fact of the matter is, we could spend all the time allotted for 
this hearing talking about your accomplishments, but I would 
like to single one. Last year, during your chairmanship, you 
held a series of public discussions and hearings on Iraq which 
really broadened, opened up the discussion to the public, as 
well as helped the administration to sharpen their thinking. 
So, look, we know the truth and are very grateful for it.
    I would just ask you, Mr. Chairman, if you will be kind 
enough to put our statements, or at least my statement, in the 
record. I am not going to read it. I just want to make a few 
comments, which I have jotted down here.
    The Chairman. With unanimous consent, that will be done.
    Mr. Armitage. Thank you, Mr. Chairman.
    Senator Allen. You want to capitalize ``Mack'' in Mack 
truck.
    Mr. Armitage. Right, got it. Thank you.
    In October of 2001, less than a teaspoon of anthrax in an 
envelope brought chaos to this body. Several hundred of your 
employees had to undergo emergency medical treatment, the 
building next door was closed, and ultimately two members of 
the postal service died, and the building in which they worked 
has yet to reopen.
    Saddam Hussein, according to UNSCOM, the special 
commission, has 25,000 liters of anthrax. That is over 5 
million teaspoons of anthrax. And he has yet to account for a 
single grain. That is why we are so alert, to take your 
invitation up, Mr. Chairman, and get up here, because we feel a 
sense of urgency. And from our point of view, that is evidence 
of it.
    Now, you are absolutely correct, we have had quite a week. 
Monday, Mr. Blix and Dr. ElBaradei made their comments to the 
Security Council. On Tuesday, the Government of Great Britain 
announced that, in their view, what they heard constituted a 
further material breach, something that we heartily concur in. 
Tuesday night, the President made his, what I thought, a 
compelling State of the Union Address, in which he announced 
that Secretary Powell would, indeed, on the 5th of February, go 
to New York and present some of this evidence to the Security 
Council.
    But let me be clear. This is more than simply an appearance 
before the Security Council. This will be open. We are going to 
try to lay this out for the world. There are some leaders, as 
you suggest, Chairman Biden, that do not want to lead. So we 
will try, as you suggest, to make it a little easier.
    Now, 12 years have gone by in which Saddam Hussein, to use 
your phrase, sir, has ``thumbed his nose'' at the international 
community. He has thought that he could do just what he 
pleased, he could have it both ways and not pay any personal 
price. Those days are over. He felt that because he faced a 
series of resolutions that had no teeth.
    Well, in September, President Bush went to New York and 
made a very strong case that we would try to get a resolution, 
and we did. We got a resolution with teeth, a resolution that 
was backed by a very strong vote by the House and the Senate, 
House Joint Resolution 114, which authorized the use of force 
under certain conditions, which are laid out in the 
legislation.
    And these--this 1441 had two simple tests. The first was a 
declaration that was to be full, currently accurate, and 
complete. Saddam Hussein failed that test. And it had a second 
simple test, and that was to cooperate, to cooperate actively, 
immediately, and unconditionally with the inspection regime. He 
failed that test.
    Now, there are many in the international community who call 
out that we need to give the so-called ``inspectors'' more 
time. And my view is, that is the wrong question. The question 
to ask is--or to contemplate--is, ``How much time has Iraq 
already been given?'' From my view, 12 years and 2 months and 
several days now. Inspections continue. But inspectors, as 
Secretary Powell noted the other day, can grope around in the 
dark. This is not a scavenger hunt. This is not hide-and-seek. 
They are there to verify. And to verify, they count on 
cooperation.
    Now, the question is not how long should be given for 
inspectors to grope in the dark, but when Saddam Hussein is 
going to turn on the light. And I think it is quite clear, from 
the President's comments in the State of the Union, that if 
Saddam Hussein does not turn on the light, the lights will be 
turned on, peacefully or forcibly. And you are exactly correct, 
it is his choice. But one thing I am going to make clear: He 
has got to make that choice in a hurry. And I think that was 
equally clear from the comments from the President at the State 
of the Union and yesterday on his travels.
    In our view, the lack of cooperation, simple cooperation, 
of Saddam Hussein indicates that he is intent on holding onto 
these weapons for three simple reasons. He wants them to either 
dominate, or to intimidate, or to attack. The President said 
the other evening in the State of the Union that to trust in 
the sanity and restraint of Saddam Hussein is not a strategy; 
neither is it an option.
    So I welcome the opportunity to be here, Mr. Chairman, and 
look forward to a very vigorous give-and-take with the members 
of this excellent committee. Thank you.
    [The prepared statement of Mr. Armitage follows:]

  Prepared Statement of Hon. Richard L. Armitage, Deputy Secretary of 
                                 State

    Mr. Chairman, Members of the Committee.
    In October 2001, a single letter containing one teaspoon of anthrax 
threw this body into chaos. The offices next door were closed down for 
three months. Hundreds of your staff were subjected to emergency 
medical treatment. And two postal service employees died--the building 
they worked in is still not open for business.
    According to the United Nations Special Commission [UNSCOM], which 
carried out inspections in Iraq for the better part of a decade, Iraq 
possesses some 25,000 liters of anthrax. That is, for the record, more 
than 5 million teaspoons of anthrax. And we have no idea where any of 
it is. Saddam Hussein has never accounted for one grain of it.
    This is a matter of terrible urgency. I welcome the opportunity to 
discuss with you and this Committee the latest developments in the 
inspection process and what those developments mean for our commitment, 
as a country and as part of the world community, to see that Iraq is 
disarmed fully, finally and right now of all weapons of mass 
destruction and terror.
    This has been a dramatic week. On Monday, Dr. Blix and Dr. 
ElBaradei presented their reports to the U.N. Security Council. On 
Tuesday afternoon, the government of the United Kingdom stated that, 
based on that report, Iraq was in further material breach. On Tuesday 
evening, President Bush was unequivocal. ``We will consult,'' he said, 
``But let there be no misunderstanding. If Saddam Hussein does not 
fully disarm for the safety of our people, and for the peace of the 
world, we will lead a coalition to disarm him.''
    This situation has just about reached a boiling point, and the 
entire world is watching. Rightfully so. This is what Monday's report 
told us: since the passage of U.N. Security Council Resolution 1441, 
Iraq's last chance to disarm, Iraq has refused to hand over or destroy 
its chemical and biological weapons; Iraq has refused to identify the 
location and fate of its considerable stocks of anthrax, botulinum 
toxin, VX, sarin, and mustard gas; Iraq has refused to surrender its 
mobile biological capabilities, which are essentially germ laboratories 
tucked into the back of a Mack truck; and Iraq has refused to account 
for tens of thousands of empty--and full--chemical and biological 
warheads. And, mind you, these are just the materials and the weapons 
we know about, just some of what UNSCOM catalogued in 1999 after 
inspectors were kicked out of Iraq in 1998. We do not know what Saddam 
Hussein may have amassed in the years since.
    This is not some abstract concern. This is a concrete and 
significant military capability--one that Saddam Hussein has shown a 
willingness to use. And consider that the amount of biological agent 
that U.N. inspectors believe Iraq produced--the 25,000 liters of 
anthrax and 38,000 liters of botulinum toxin--is enough to kill tens of 
thousands of people. Perhaps far more, depending on how, when and where 
it is released. And consider that UNSCOM found more than just the 
evidence of bulk biological agents. The inspectors also found that Iraq 
had developed effective and efficient means for dispersing these 
materials: unmanned aerial vehicles, spray devices, special munitions. 
We don't know where any of it is. And the last 60 days of new 
inspections have turned up no additional information that could allay 
any concerns about this military capability.
    On Monday, Dr. Blix came to the conclusion that ``Iraq appears not 
to have come to a genuine acceptance--not even today--of the 
disarmament, which was demanded of it and which it needs to carry out 
to win the confidence of the world and to live in peace.'' The 
Department of State shares this conclusion. Iraq has failed to 
cooperate actively, and without active cooperation, the peaceful 
disarmament of Iraq is not going to be possible. As you have heard us 
say, time is running out for the Iraqi regime to remedy this situation.
    The implications are stark. For 12 years, the international 
community has demanded that Iraq disarm. And for 12 years, we have 
tried to limit the damage that Saddam Hussein could inflict on his 
neighbors and on his own people. But throughout this time, Saddam 
Hussein has constantly tested and correctly assessed that none of these 
measures has any real teeth. That he personally need not pay the price 
for any of it. That he need not change any of his behaviors or give up 
any of his ambitions. And so despite the international community's 
effort, and the inspectors' Herculean effort, Saddam Hussein remains a 
threat.
    In effect, the United Nations has tolerated defiance and allowed 
the Iraqi regime to retain its devastating military capability for far 
too long. Last fall, this situation compelled President Bush to 
challenge the international community to take a stand. And the U.N. 
Security Council responded by unanimously passing Resolution 1441, a 
resolution that dramatically broke with the past. It included tests 
that have to be passed and it had teeth.
    With this resolution, the world put the burden of proof back where 
it belongs--squarely on the shoulders of Saddam Hussein. Resolution 
1441 found that Iraq has been and remains in material breach for its 
refusal to disarm, but the resolution offered the Iraqi regime one last 
chance for a peaceful solution. The Security Council demanded 
immediate, full and verifiable disarmament of Iraq, the original terms 
of 1991 cease-fire (UNSCR 687). The first test of compliance was set as 
a full, currently accurate and complete accounting of Iraq's deadly 
programs. The second test was cooperation with the inspectors, 
``actively, immediately, and unconditionally.'' And both tests rested 
on an ironclad bottom line: Resolution 1441 warned that serious 
consequences would result from continued Iraqi noncompliance.
    On Monday, after 60 days of inspections, the inspectors delivered 
bad news. Iraq has failed each test. My colleague, Ambassador 
Negroponte, will speak to this in more detail, but essentially, Iraq's 
declaration was a scurrilous 12,000-page waste of time. Not one member 
of the Council rose to defend it. The three-foot tall stack of papers 
is--at best--recycled information with a dash of new obfuscation. As 
for Iraqi cooperation, it has been neither active, immediate nor 
unconditional. In fact, it has been lacking altogether. Take, for 
example, aerial surveillance. Because of Iraq's interference, the 
inspectors are not supported by any fixed-wing aerial surveillance at 
this time, which is in direct defiance of the detailed terms of 
Resolution 1441. Let me tell you why that is important. We know from 
past experience that at times, Iraq has been tipped off as to where the 
inspectors are going, allowing Iraqi officials to remove or hide 
documents and materials, sometimes literally going out the back door 
while inspectors are knocking on the front door. Overhead surveillance 
would help ensure that these tactics and tricks of the past could not 
confound today's inspections.
    There is no sign, not one sign, that the Iraqi regime has any 
intent to comply fully with the terms of Resolution 1441, just as it 
has failed to comply with previous U.N. Security Council resolutions. 
The international community gave Iraq one final opportunity to disarm 
peacefully, and that opportunity has just about run its course. Dr. 
Blix told us on Monday that there has been no progress toward credible, 
verifiable disarmament.
    There are those who say we still need to build our case, and that 
Secretary Powell will have to present convincing evidence when he 
appears before the Security Council on February 5th. But this is not 
about the United States, and what we can prove. This is about Saddam 
Hussein, and what he must prove. He is the one who owes us evidence. On 
Monday, Hans Blix gave us a vivid snapshot of how the situation stands 
right now. Next week, Secretary Powell will give us the bigger picture, 
the past record and the present realities. His presentation will 
include some intelligence and information the public has never heard 
before, but all of it will reinforce the message Dr. Blix conveyed.
    There are those who say we need more time for inspections to 
``work.'' To this I respond that it is not a matter of how much time to 
give inspectors but of how much time we have already given Iraq. And in 
these 12 long years, the regime has yet to even accept disarmament in 
principle, according to Dr. Blix. At this point, giving Iraq more time 
may well be wishful thinking. Arguing for more time is essentially 
telling Saddam Hussein that the threat of ``serious consequences'' is 
hollow, just like every other threat made over the past 12 years. It 
does none of us any good to let Saddam Hussein think he can wear us 
down into his version of business as usual. As President Bush said on 
Tuesday, ``if this threat is permitted to fully and suddenly emerge, 
all actions, all words and all recriminations would come too late. 
Trusting in the sanity and restraint of Saddam Hussein is not a 
strategy and it is not an option.''
    Resolution 1441 was clear. One final chance to disarm peacefully. 
No second chance. That is not to say that it is too late for the Iraqi 
regime. I think we can all still hope for a peaceful solution in the 
next days and weeks. To that end, the United States will continue to 
offer the inspectors a variety of material and intelligence support. 
But for Iraq, the time for a peaceful outcome, an outcome where 
inspectors are able to verify Iraq's decision to disarm. That time is 
fast coming to a close.
    The president was clear on Tuesday. He has not yet made a decision 
to resort to military action. But he has reached a decision that the 
international community has an obligation to see that Iraq is disarmed. 
Peacefully--or forcibly, if necessary. When all 15 members of the 
Security Council voted to pass U.N. Security Council Resolution 1441, 
they agreed to this. They reaffirmed the authorities given in 1991 and 
they assumed the responsibility for putting their will behind their 
words. Moreover, Saddam Hussein's defiance is not just a clear and 
present threat to our mutual security and vital interests; it also 
challenges the relevance and credibility of the Security Council and 
the world community. President Bush, Secretary Powell, other 
administration officials and I have begun consultations with other 
Security Council members, friends and allies to discuss the 
implications of Iraq's choice and to consider how to best protect our 
interests and the interests of the international community. All states 
with an investment in the rule of law and international stability will 
have to consider some difficult questions. Will the world acquiesce and 
stand down if Iraq refuses to disarm? Will we allow our fear and 
reluctance to fight drive us into confusion and inaction, even in the 
face of such a threat? And what will this mean for the future, 
particularly in a world where Iraq is not the only nation with 
ambitions for such an arsenal? We expect to have a full and frank 
exchange of views in the coming weeks.
    No one in this country or the international community wants war. 
For war is horrible. But no one wants a regime with no regard for the 
welfare of its own people or the borders of its neighbors and no regard 
for the will of the international community to possess weapons of mass 
destruction. We have to face the fact that if Iraq does not disarm 
peacefully, we will have to make a choice. We cannot have it both ways. 
If Saddam Hussein refuses to give up his lethal capabilities we can 
only conclude, as the president said, that Saddam Hussein is keeping 
these weapons in order to ``dominate, intimidate, or attack.'' It is 
our hope that the world community will choose to stand behind 
Resolution 1441 and as a great coalition act with clarity of purpose 
and strength of resolve to disarm Iraq and protect our peace and 
security.

    The Chairman. Thank you very much, Secretary Armitage.
    It is a privilege to have our Ambassador to the United 
Nations, John Negroponte, a veteran diplomat, Ambassador, and, 
likewise, a good friend of the committee, who has testified 
frequently. But it is very important testimony today. It is 
great to have you, sir, and we appreciate your being here.

     STATEMENT OF HON. JOHN D. NEGROPONTE, U.S. PERMANENT 
       REPRESENTATIVE TO THE UNITED NATIONS, NEW YORK, NY

    Ambassador Negroponte. Thank you very much, Mr. Chairman, 
and it is a pleasure to be before the committee once again.
    As the Deputy Secretary has said, Resolution 1441 presented 
Iraq with the requirement to disarm and two tests, one that 
Iraq would submit, and I quote, ``a currently accurate, full, 
and complete,'' unquote, declaration of all aspects of its WMD 
programs and delivery systems; and, two, would Iraq cooperate 
immediately, unconditionally, and actively with UNMOVIC and the 
IAEA?
    The presentations we heard on Monday in the Security 
Council confirmed that, in spite of the urgency introduced into 
Resolution 1441, Iraq did not meet either test. The declaration 
was a fundamental test of cooperation and intent, and Iraq 
failed it resoundingly.
    On January 27, Dr. Blix, himself, again said, ``The 
declaration does not''--and I am quoting here--``clarify and 
submit supporting evidence regarding the many open disarmament 
issues.'' ``Regrettably''--and I am continuing to quote here--
``the 12,000-page declaration, most of which is a reprint of 
earlier documents, does not seem to contain any new evidence 
that would eliminate the questions or reduce their numbers,'' 
end of quote.
    And then the inspectors' reports go on to raise a number of 
key issues that are still unanswered and to which you referred 
to in your statement, Mr. Chairman, and so has Secretary 
Armitage also, so I will not repeat them in detail, but they 
relate to the VX, to the Iraqi Air Force document that 
indicates that there are at least 6,500 chemical bombs, weapons 
bombs, unaccounted for, unanswered questions about 122-
millimeter chemical rocket warheads, 12 of which were just 
found by UNMOVIC in a bunker that was constructed since 1998--
that is to say, since the weapons inspections ended under 
UNSCOM. So this is evidence of continued activity on their part 
after the inspectors were no longer able to operate in Iraq at 
the end of 1998.
    Dr. Blix also said that there, of course, is particularly 
troublesome--that Iraq produced more than the 8,500 liters of 
anthrax it admitted to and claims to have unilaterally 
destroyed in the summer of 1991. ``Iraq has provided, again''--
and these are Dr. Blix' words--``no additional or convincing 
evidence on anthrax production and destruction.'' They also did 
not declare some 650 kilograms of bacterial growth media, and 
deliberately deleted information about the importation of this 
media that Iraq had previously provided in 1999.
    There remain some significant questions about Scud 
missiles, and Iraq is developing two missiles, the liquid-fuel 
Al Samud and the solid-fueled Al Fatah, which UNMOVIC knows, 
knows for a fact--were tested at ranges greater than 150 
kilometers, the range limit established in Resolution 687, 
which was the resolution that closely followed the end of the 
war. Dr. Blix said--and, again, I quote--``The missiles''--I 
think this is a very important quote--``The missiles might very 
well represent a prima facie case of proscribed systems,'' end 
of quote. And in reply to a question that I put to Dr. Blix in 
the Security Council yesterday afternoon, he said he expected 
to make a determination in this regard quite soon.
    Iraq has casting chambers for solid-fuel missiles capable 
of ranges significantly greater than 150 kilometers, and has 
imported other equipment, including 380 rocket engines. Dr. 
Blix said, again, quote, ``These items may well be for 
proscribed purposes,'' end of quote, and we definitely believe 
that they are.
    Based on a tip, UNMOVIC discovered an intelligence tip. 
UNMOVIC discovered some 3,000 official documents in a private 
home that deal with such subjects as laser enrichment of 
uranium. And Dr. Blix again remarked that he, and I quote, 
``could not help but think,'' unquote, that other private 
residences may contain troves of such documents.
    The declaration is also silent on any steps since 1998 with 
regard to Iraq's nuclear program, to mobile biological weapons 
labs, or, indeed, any new activities since the inspections 
ended. So they would have us believe that since the inspections 
ended in 1998, they had engaged in none of these proscribed 
activities, which is laughable, on its face.
    The inspectors acknowledge that there has been Iraqi 
cooperation on process, but that is not the substantive and the 
active cooperation that the Council requires. The resolution 
determined that--and, again, I quote--``Iraq shall provide 
UNMOVIC and the IAEA immediate, unimpeded, unconditional, and 
unrestricted access,'' end of quote, and unimpeded movement. 
Instead, we see attempts to intimidate UNMOVIC by large numbers 
of ``minders''--at times, as many as five minders for each 
inspector--as well as so-called ``spontaneous'' demonstrations 
and restrictions masked by concerns for safety.
    Dr. Blix, himself, has told us that the presence of 
minders, and I quote, ``bordered on harassment,'' end of quote, 
and described some recent disturbing incidents, including 
official allegations that the inspectors are spying. This is 
hardly the attitude of a government that wishes to cooperate 
with the inspection process. The Iraqi Government now claims it 
cannot ensure that its citizens will allow inspectors entrance 
to private property.
    And Iraq has refused to allow the free and unrestricted use 
of U-2s on missions, a clear violation of 1441. Inspectors must 
also have immediate, unimpeded, unrestricted, and private 
access to all officials and other persons whom UNMOVIC and the 
IAEA wish to interview in the mode or location of UNMOVIC's or 
the IAEA's choice.
    But UNMOVIC and IAEA have not been able to obtain private 
interviews. Not a single one. Even after belated assurances 2 
weeks ago that the government would encourage its citizens to 
accept private meetings. Inspectors have noted that they had 
not been provided with all the names of personnel in Iraq's 
former and current WMD programs, as required.
    On the question of nuclear proliferation, the IAEA 
Director, General ElBaradei, informed the Council that, to 
date, the IAEA, and I quote, ``found no evidence that Iraq has 
revived its nuclear weapons program since the elimination of 
the program in the 1990s,'' end of quote. That said, Dr. 
ElBaradei was also clear that, to date, Iraq had only provided 
passive support, not proactive support, to use his words. It is 
well to recall, however, that, in 1991, the IAEA was on the 
verge of declaring Iraq nuclear-weapons-free, when subsequent 
based on defector information revealed an extensive secret 
nuclear weapons program, a reminder that we can never be 
complacent when it comes to Iraqi voracity.
    The IAEA also has outstanding questions that Iraq's 
declaration failed to address. And according to Dr. ElBaradei, 
these include weapons design and centrifuge development. And 
the IAEA has not yet completed its evaluation of aluminum 
tubes.
    In short, Mr. Chairman, we believe that Iraq is not 
disarming. The Council's unanimity in support of Resolution 
1441 was the result of enormous diplomatic energy. There was 
substantial give-and-take over weeks of negotiation, because we 
all understood that President Bush had transformed the debate 
and the importance of the undertaking. Iraq has failed the 
tests set out by 1441 and is close to squandering its final 
opportunity.
    And I might just add, as a closing note, as the Deputy 
Secretary mentioned, Council members, of course, are looking 
forward with great interest to the meeting that we will be 
having next week when Secretary Powell will be addressing the 
Council with respect to information and intelligence we have 
with respect to Iraq's noncompliance with Resolution 1441 and 
the programs of denial and deception in which they are engaged 
in order to totally frustrate the inspection process.
    Thank you very much, Mr. Chairman.
    The Chairman. Thank you very much, Ambassador Negroponte.
    Parenthetically, let me just comment, because I think it is 
relevant. Last Wednesday I was privileged to witness a 
conversation between the President of the United States and the 
Secretary General, Kofi Annan in which our President affirmed 
our strong support for the United Nations. Our prayer, really, 
is that the United Nations will be more and more successful, 
not only in the Iraqi endeavor, but in several others that we 
have ahead of us on the trail. The Secretary General 
understands the gravity of this situation, in terms of the 
future of the United Nations and its credibility. So that is a 
firm understanding, face-to-face, between two very important 
individuals in this world.
    I would say to the committee, the Secretary General has 
asked that I work with the ranking member to find a day in 
which the committee might go to the United Nations. He would 
like to be our host and provide a remarkable opportunity for 
learning and participation. I take that offer seriously, and I 
mention it so that we can all think about an appropriate time.
    Senator Biden. Would you yield on one--very, very, very 
briefly.
    Ambassador, you thought when you left the role of being out 
in other hinterlands that you would never hear the words again, 
``Here comes a CODEL,'' but----
    The Chairman. With that welcome intervention----
    Now, let me say that we have consulted briefly on the fact 
that we have many members here today. The ranking member agrees 
that our procedure should be that we will move the chairman's 
question, the ranking member's question, then Senator Hagel and 
then Senator Dodd--in other words, in seniority, by both 
parties, with a 7-minute limit. And with the veteran, Bertie 
Bowman, on the clock.
    The Chairman. For those who have not experienced Mr. 
Bowman, he has outlasted all of us on this committee----
    The Chairman. And is a rigorous timekeeper.
    And the green light will go on at the beginning of the 7-
minutes; with 1 minute to go, the yellow light, the caution 
signal; and the red, the final termination, hopefully, of both 
the answer as well as the question, but we will try to be 
liberal in interpretation.
    Let me just say I have already had an opportunity to give 
my views on the subject, and I will pass at this point and turn 
to the distinguished ranking member for his questions.
    Senator Biden. I have several questions, but I will just 
ask one, if I may.
    The administration officials, including the President on 
Tuesday night, have repeatedly asserted that the Iraqi 
Government maintains ties with members of the al-Qaeda network. 
Are you able to tell us what evidence you have to support that 
claim?
    And as a follow-on to that, why is it that we spend, it 
seems, so much time on making the assertions that are the 
least--or the most difficult to prove, including the aluminum 
tubes, when we have such overwhelming evidence of the failure 
of Iraq to comply with the existence--or with 1441? It seems to 
undercut our case. We lead with the two things that may be 
true, but are the most difficult to prove, and we seem not do 
what you guys did here today, very compellingly talk about VX, 
anthrax, things we know.
    So it is a two-part question. One, what evidence, if you 
are able to share with us, is there about direct connection 
between Saddam and al-Qaeda? And two, what is the rationale for 
how we have been leading thus far, and will it change with the 
evidence we are presenting?
    Mr. Armitage. Thank you, sir. On the question of al-Qaeda, 
in this forum, I will say that it is clear that al-Qaeda is 
harbored to some extent in Iraq, that there is a presence in 
Iraq. There are other indications of some--a recent 
assassination of our diplomat in Amman, Mr. Foley, that was 
apparently orchestrated by an al-Qaeda member who is resident 
in Baghdad.
    Having said that, I am not making the case here that this 
is a 9/11 connection, but I will make the case that the 
President has made consistently, sir, and that is that it is 
the thirst for the weapons of mass destruction and our belief 
that if Saddam Hussein can pass them to people who will do us 
ill without being caught, he will do it. That gives us so much 
concern. And this will be part of the information that 
Secretary Powell is going to impart in some more detail. They 
are busy back home right now trying to declassify as much as 
possible to give him a pretty full case.
    On the question of why we spend so much time on things that 
are difficult to prove, I do not know. Perhaps, particularly on 
the aluminum tubes, we miscalculated. Clearly, there is a 
difference of opinion in the intelligence community, which we 
came up and briefed forthrightly and, indeed, deliberately.
    Senator Biden. I agree, you did.
    Mr. Armitage. Well, the reason we did it deliberately was 
to show you we are not playing hide-the-bacon here. I believe 
that, as I indicated to Senator Hagel the other day in a 
conversation, that the view is shifting on this more to the 
side that this has a relationship to nuclear activities, rather 
than rocket motors. But perhaps we miscalculated. And I take 
your comments as a sign to, as we used to say in the Navy, 
``KISS''--``Keep it simple, sailor''--go with your--go with 
your----
    Senator Biden. Strongest case.
    Mr. Armitage. Yes, your strong points.
    Senator Biden. I yield back the rest of my time, Mr. 
Chairman.
    The Chairman. I thank you.
    Senator Hagel.
    Senator Hagel. Mr. Chairman, thank you.
    Welcome, Mr. Secretary and Ambassador Negroponte. I add my 
appreciation to what has already been stated here this morning 
from our distinguished chairman and ranking member, for your 
leadership, Secretary Powell's historic, dangerous, difficult, 
challenging times. And we, I believe, are all grateful that the 
two of you, Secretary Powell, and his team are in the positions 
you are in. So we appreciate your good work. Thank you.
    There has been some discussion here this morning about the 
possibility of a second U.N. Security resolution. Mr. 
Secretary, in consultation with our U.N. Ambassador, what is 
the position of the U.S. Government on a second resolution, and 
what would be the prospects, in your enlightened opinion, of a 
second resolution? Not is it required, but what is the position 
of the United States? Are we opposed to it? And what are the 
prospects for the French or someone moving, in the Security 
Council, on a second resolution?
    Mr. Armitage. Senator, thank you for your comments about 
Secretary Powell and his leadership. We appreciate it greatly.
    I will start, and I think John will finish. We find a 
second resolution desirable, but, as you suggest, not 
absolutely necessary, for all the reasons that Chairman Biden 
laid out, particularly the Resolution 678, which does already 
authorize all necessary means.
    Having said that, Secretary Powell will make his 
presentation on the 5th, and after that we will kind of assess 
the tone and tenor of the discussions. We will let this 
germinate a bit with Ambassador Negroponte talking with his 
colleagues, and then we will make a judgment.
    Now, a second resolution could run the gamut from a 
resolution that simply finds that Iraq has not complied, to the 
far end, authorizing all necessary means. So when we talk about 
a second resolution, there are any number of subsets of it.
    Ambassador Negroponte. As Senator Biden, I think, correctly 
said earlier, 1441 does not require, nor does 687 require, a 
second resolution, and the Secretary said it also. There is--I 
think there is going to be a lot of diplomatic activity, both 
now--we have got Prime Minister Blair coming to meet with the 
President, then Secretary Powell's briefing to the Council, and 
then I think we are going to enter into sort of a dynamic phase 
of our diplomacy and are going to have to be taking the 
temperature of how our colleagues on the Council about this, 
faced with both the determined position of the United States on 
this question and a dynamic situation.
    One thing I would caution against is trying to prejudge the 
outcome or divisions within the Council. I think we have faced, 
and we have some interesting examples, during the past year or 
so of situations that we have faced where the Council appeared 
to be divided initially, but, through the hard work and effort 
and the diplomacy of our President and our Secretary of State, 
we ultimately were able to reach consensus.
    Senator Hagel. So the position of the U.S. Government 
today, if I understand it, is not necessarily opposed to a 
second resolution. We would evaluate it, based on the 
substance, and possibly support a second resolution. Is that 
right?
    Ambassador Negroponte. I believe that--yes, it would be 
possible.
    Senator Hagel. Do you think it is----
    Ambassador Negroponte [continuing]. Yes, desirable to 
achieve if that were possible.
    Senator Hagel. Do you think it is likely that we will see a 
second resolution proposed?
    Ambassador Negroponte. I would not want to make that 
prediction at this point in time. But as the Deputy Secretary 
said, I think it would be desirable, and it more desirable--the 
more friends one can mobilize in an enterprise of this kind, 
the better off you are.
    Senator Hagel. Thank you.
    Mr. Ambassador, you have just recited a rather bleak 
assessment of the inspections up to this point in the 
inspectors' report. Although, as we know, Drs. ElBaradei and 
Blix have both suggested that those inspections continue. Now, 
with that very bleak assessment, which I read into it, the U.S. 
Government thinks essentially they are worthless and they have 
not produced anything except buying time for Saddam, then why, 
or are we, supporting continued resolution--continued 
inspections?
    Ambassador Negroponte. I do not think, Senator, that we 
have written off the inspections, themselves. It is--the 
problem is not the inspections; it is the attitude of Iraq.
    Senator Hagel. Are we supporting continued time for 
inspections?
    Ambassador Negroponte. Well, at the present time, we have 
not taken any position to discontinue our support--or 
inspections.
    Senator Hagel. So essentially, the government's position 
is, we continue to support inspections.
    Ambassador Negroponte. At the moment, we do, yes. But if I 
could just complete the thought.
    Senator Hagel. Sure.
    Ambassador Negroponte. I think that the onus is on Iraq to 
cooperate. And if nothing else, the process thus far has 
demonstrated an unwillingness on the part of Iraq to be fully 
and unconditionally and immediately----
    Senator Hagel. But we are supporting continued----
    Ambassador Negroponte [continuing]. And proactively 
cooperative.
    Senator Hagel [continuing]. We are supporting continued 
inspections.
    Ambassador Negroponte. At the moment, we are.
    Senator Hagel. Mr. Secretary, you mentioned--I think your 
quote was, ``Saddam Hussein must make that choice in a hurry.'' 
To your point, Mr. Ambassador, what, then, would be our 
thinking about if inspections go forward, which I assume they 
will, which you have just said that we are not opposed to that 
for the moment--you also said that we will have consultations 
next week based on a number of things that will be happening--
but what, then, is the timeframe? Are we going to lay down--the 
United States, lay down to the Security Council a timeframe, 
``All right, 2 weeks, 3 weeks, we go to war''? Where are we?
    Mr. Armitage. As the President said, Senator, no decision 
has been made. However, he has instructed us to engage, for the 
next few weeks, in intensive diplomacy to try to resolve this 
peacefully. So I think the best timeframe I can give you is, 
this is a matter of weeks and not months, sir.
    Senator Hagel. In consultation with the Security Council 
based on facts and intelligence reports that the Secretary will 
lay out.
    One last question before a very conservative evaluation of 
our timeframe here and Bertie gavels me down. Intelligence 
sharing with the inspectors, as we sharing enough, not enough, 
too much? Are they getting what they need? What is important 
for them?
    Mr. Armitage. We have 108 inspectors in the field right 
now--256 total, but many of them are support people. We have 
increased, as they have gone forward, the amount of 
intelligence. I am given to understand that they have got just 
about what they can handle. They are about to graduate another 
57 inspectors. So we will have more in the field, and that 
would indicate to me that we ought to be pushing more 
intelligence ahead.
    The Secretary of State has used the phrase, ``We want to 
flood the zone.'' As much as they can take, feed them, sir.
    Senator Hagel. Thank you.
    Mr. Chairman, thank you.
    The Chairman. Thank you very much.
    Senator Sarbanes.
    Senator Sarbanes. Thank you very much, Mr. Chairman.
    It is the intention to increase significantly the number of 
inspectors? Is that what I am to draw from your last response?
    Mr. Armitage. It is to increase the number. I would not 
characterize it--we are graduating--or there is graduating 
another class of 57, the majority of which would available to 
go into the field to add to the 108 that are already in the 
field inspecting. There are another hundred-plus who are 
involved in support and flying, et cetera, Senator.
    Senator Sarbanes. What is the difficulty that you perceive 
with allowing the inspectors to continue to do their work in an 
intensified manner over a period of time?
    Mr. Armitage. I think that we agree that there ought to be 
intensified inspections over a period of time. Perhaps the 
disagreement we would have, sir, is over the amount of time. 
And from our point of view, 12 years, 2 months, and several 
days is about enough time. But we have not quite given up yet.
    Senator Sarbanes. Well, is this regime a more rigorous 
regime that they are operating under now than when they went in 
before?
    Mr. Armitage. I am getting my brains behind me on this, 
Senator.
    Senator Sarbanes. Well, I think Ambassador Negroponte could 
answer that question.
    Ambassador Negroponte. Well, I was just going to add an 
element to it, which is they are already, in our judgment, in 
material--in further material breach.
    Senator Sarbanes. Well, I understand that. I mean, the 
President keeps saying he has not made up his mind, but it 
seems to me he has defined the problem in such a way that he 
has to go to war, because he, in effect, has said, If the 
inspectors don't find any hidden weapons, Saddam is being 
extremely good at hiding them. And if they do find them, then 
it just shows that he was in violation and, therefore, has to 
be punished. So the problem has been defined in such a way that 
it seems to me a war is the only conclusion you can draw, other 
than the very remote possibility that he will leave the 
country. I do not know how much weight to give to that. But 
other than that, the issue has been defined in such a way that 
there is no alternative but to go to war.
    And yet the President keeps saying, ``Well, I haven't made 
up my mind about going to war.'' And yet we are positioning 
large numbers of troops and logistics and so forth in the area. 
It is all geared to go to war--presumably, at some point here, 
he is going to turn and say, well, now I've decided to go to 
war. But it seems to me that decision, in effect, was made when 
the problem was defined in such a way that there was no 
alternative.
    Mr. Armitage. Senator, I will answer the previous question, 
but let me try to take this first. The problem was defined by 
Resolution 1441, which required Saddam Hussein to cooperate. He 
is the one who is not cooperating. Had he made the disclosure, 
it was quite clear we would be having a different debate. And 
if he makes full disclosure tomorrow, we will be having a 
different debate.
    On the question of moving forces, there is no question. I 
think, in most people's mind--I will defer to John's analysis 
of the Council--that we would not even have UNMOVIC inspectors 
in Iraq without the threat of the use of force. And I think 
that is generally accepted.
    Senator Sarbanes. Well, I accept that proposition. But once 
you succeeded in doing that, in getting the inspectors in with 
what I understand is a more rigorous regime than when they were 
previously in Iraq, it is not quite clear to me why we then do 
not play out that path.
    Now, if the inspectors--first of all, does the presence of 
the inspectors, in your view, inhibit Saddam's activities with 
respect to weapons of mass destruction?
    Mr. Armitage. It occurs to me, in a State the size of 
California, with 23 million people, that several hundred, if it 
gets to that, inspectors probably, in the most minimal way, 
inhibits them, as he, I would think, has to play some hide-and-
seek with us. But when you look at the size of the problem, if 
we have to depend on inspectors to ferret out the information, 
we cannot get there from here, Senator.
    Senator Sarbanes. What about several thousand inspectors?
    Mr. Armitage. Well, I do not know. Would I say several 
thousand is better than 200 or 300? At some point in time, if 
you are not going to cooperate, you are not going to cooperate. 
And more inspectors are not going to force the cooperation, 
just force more obfuscation.
    Senator Sarbanes. What is your definition of 
``cooperation''?
    Mr. Armitage. The definition is not my definition, sir; it 
is the definition of Dr. Blix and Dr. ElBaradei.
    Senator Sarbanes. But apparently their view is that they 
need and should have significant more time for their inspectors 
to carry out their tasks. Is that not their view, as I 
understand it?
    Mr. Armitage. I have certainly heard Dr. ElBaradei say 
that, sir, and that is his opinion. The decision rests with the 
Security Council.
    And John, you have talked to Hans----
    Ambassador Negroponte. Well, I think also the definition of 
``cooperation'' is in the resolution, and it is quite 
elaborate--allowing U-2 flights, allowing unrestricted access, 
and cooperating proactively. And all of these things are things 
that Iraq is not doing at the moment.
    I think the fundamental difficulty is that as far as Iraq 
is concerned, this seems to be business as usual. It is the way 
they dealt with inspections in the past.
    Senator Sarbanes. Do you think these inspectors are not 
getting greater access than they had in the past?
    Ambassador Negroponte. They are getting--in process--they 
are getting some procedural cooperation. They are getting 
access to the sites that they have asked to go to. They have 
gone to, I think, some 300 sites, or 250, and most of them are 
sites that had previously been identified, had previously been 
inspected. Those, they are getting access to. But we consider 
this to be just procedural.
    As far as whether they have--moving materials, continuing 
to hide materials that they had, giving access to--for example, 
to private interviews for scientists, the U-2 issue that we 
mentioned earlier.
    Senator Sarbanes. I understand.
    Ambassador Negroponte. As far as we are concerned, the 
substantive cooperation----
    Senator Sarbanes. How much of the information which the 
administration has, in terms of its suspicions about sites and 
what ought to be inspected and where the inspectors ought to go 
and so forth, is being provided to the inspectors? It is my 
understanding that there is a very large amount of information 
of that sort, but that only a small portion of it has been 
given to the inspectors, in terms of leading them to places 
that we think should be looked at. Is that correct?
    Ambassador Negroponte. Well, as the Deputy Secretary said, 
the Secretary's instructions were to flood the zone. We have 
been providing packages of intelligence information. I think it 
is important that it be actionable by the inspectors, but, yes, 
we have been providing substantial information to them, and so 
have other friendly countries.
    Senator Sarbanes. Mr. Chairman, could I just get an answer 
to that question? In the total picture of what you have, how 
much are you giving to the inspectors?
    Mr. Armitage. I will have to supply it for the record. I do 
not know the answer in percentage terms, Senator, so if you 
will allow, we will supply it. I do not know it.
    The Chairman. Thank you for supplying it for the record.
    [A classified response was subsequently supplied.]
    Senator Sarbanes. Thanks, Mr. Chairman.
    The Chairman. Senator Chafee.
    Senator Chafee. Thank you very much, Mr. Chairman.
    I will just followup on Senator Sarbanes' line of 
questioning. It seems as though we are arguing over how much 
cooperation and obstruction is taking place in Iraq. But Hans 
Blix did say in his report to the United Nations that the 
prompt access, open-door policy pursued so far by the Iraqis, 
vis-a-vis the inspectors, is an indispensable element of 
transparency in a process that aims at securing disarmament by 
peaceful means.
    How do you react to him saying that?
    Those are his words. He is saying he is getting prompt 
access and an open-door policy.
    Ambassador Negroponte. Senator, but he also said--and here 
is a quote, which I think is perhaps the most telling, ``Iraq 
appears not to have come to a genuine acceptance, not even 
today''--and that is when he was speaking on Monday--``of the 
disarmament that was demanded of it.'' And he has also said on 
repeated occasions, ``If Iraq had cooperated fully and 
unconditionally in 1991, we would not be here discussing these 
issues today.''
    So while I think he acknowledges a certain amount of 
cooperation with respect to process, I believe he considers 
substantive cooperation to be sorely lacking.
    Senator Chafee. Well, the decision to go to war, then, is 
splitting a hair here, it seems, over cooperation or lack of 
it.
    You do mention the U-2 flights. A question I have is: What 
prevents us from overflying Iraq with our U-2s? Is he going to 
shoot them down?
    Mr. Armitage. As I understand it, the U-2 flights are 
something that Mr. Blix has put forward as a matter of 
cooperation, and they have not--he has not received 
satisfaction from the Iraqi authorities.
    Could the United States fly that? Yes, we could fly that, 
sir. The question is, I think Dr. Blix is using this to try to 
engender cooperation from the Iraqis. And yet again, he has 
been thwarted.
    And with your permission, Senator, I would like to insert 
into the record several of the comments that Hans Blix made in 
his report. He said a lot, and a lot of it is quite negative 
about the question of cooperation and access, et cetera.
    [At the time of publication the material had not been 
received.]
    Senator Chafee. Yes. Secretary Armitage, you started off 
your testimony with the incident of anthrax here in the 
building next door. And would you not--I think it is generally 
accepted that that anthrax came domestically, within our 
borders--that many countries could have this so-called ``weapon 
of mass destruction.'' Do we have a consistent policy toward 
dealing with countries that have weapons of mass destruction?
    Mr. Armitage. First of all, to be clear, I did not make the 
allegation that Iraq had planted that letter----
    Senator Chafee. No, I did not----
    Mr. Armitage [continuing]. In the building.
    Senator Chafee [continuing]. I did not suggest that.
    Mr. Armitage. I was just using it to indicate, sort of, the 
danger of unaccounted-for anthrax, in this case.
    The question of nonproliferation policy, which I think 
generally you are getting at, is one that we have been accused 
of having a certain lack of consistency with. And I think, 
though, it is hard to have a one-size-fits-all policy. Some of 
the people who are engaged in--that manufacture some of these 
weapons are, in other cases, friends of ours, and we have to 
use a different process to try to jawbone them or persuade them 
to get out of it.
    So I would say that if you are looking for kind of a 
statement--and I do not mean to trivialize it, but almost a 
bumper-sticker statement, I am incapable of giving it to you.
    Senator Chafee. Great. Thank you very much. It seems as 
though the American people believe that with the inspectors in 
Iraq, there is no immediate threat. I have the feeling from my 
constituents that we are back to regime change. First it was 
regime change, then it was disarmament, and now we are back to, 
``Never mind disarmament; it's all about regime change.'' Not 
allowing the inspectors to continue has, I think, the American 
people very perplexed. Can you comment?
    Mr. Armitage. Simply that I think that some of the facts on 
the ground are changing. We had put a lot of effort, as John 
indicates, into the diplomacy. We are very disappointed that 
the report of Dr. Blix and Dr. ElBaradei did not give more room 
for optimism and hope.
    And as regards the amount of time, I must say, just from 
past experience--as I indicated, I have been coming up in front 
of Senator Lugar for 23 years--the one thing I do not want to 
have is a hearing that is full of recriminations because we did 
not do something, we were waiting for a little more time or 
another inspector. And that is a real thought in my mind. And I 
would rather suffer tough rigorous questioning or even hostile 
questioning any number of times than have the one hearing that 
might be full of recriminations.
    Senator Chafee. I do not think that is----
    Mr. Armitage. Generally.
    Senator Chafee [continuing]. I do not think it is 
appropriate to mentioned anthrax. We could have an incident at 
any time.
    But I think that as we look at letting the inspectors 
continue to do their work, the American people are asking, 
``Why aren't we allowing them additional time?'' We understand 
that, with the warm weather coming in the summer, the soldiers 
have to wear their protective gear. There is some kind of time 
table. But why not wait a year? I think the American people are 
feeling, with the inspectors in there, that there is a sense of 
security.
    Mr. Armitage. Well, clearly, Senator, we have got a 
difference of opinion on this. My point of view is that the 
American people have waited 12 years and several months. And if 
you are not going to get the cooperation, then another year 
only increases the danger for us and the possibility that we 
might have that hearing that I fear and will do anything to 
avoid.
    But it is a difference of opinion that we have, sir.
    Senator Chafee. All right, fair enough. Thank you.
    The Chairman. Thank you very much, Senator Chafee.
    Senator Dodd.
    Senator Dodd. Thank you very much, Mr. Chairman. And let 
me, first of all, just begin by congratulating you on your 
chairmanship, and I am looking forward to working with you. It 
has been a long time since you have been in that chair, and I 
remember with great fondness your service as chairman of this 
committee back a decade-and-a-half ago.
    The Chairman. I remember. It will not be that long we have 
to wait again.
    Senator Dodd. The committee did a lot of good work under 
your leadership.
    And let me welcome the new members, as well, to the 
committee.
    Senator Sarbanes. You did not have any gray hair in those 
days.
    Senator Dodd. No, I did not, Mr. Chairman. Neither of us 
did in those days.
    But let me welcome our new members, as well, both on the 
Democratic and Republican side. I think you are going to enjoy 
this work for the committee.
    And let me thank our witnesses. I have enjoyed the 
relationship with both of you over the years on a variety of 
different matters.
    And let me also join in the comments of commending 
Secretary Powell. There are a lot of us up there who are very 
pleased, indeed, that he is in the position he is in and have a 
lot of confidence in him.
    Mr. Chairman, I would, just to begin--I think it is 
important maybe to establish some--where we are, some common 
ground. We can spend a lot of time here, and the news is, of 
course, where the differences are. But I think there are, at 
least to some degree--I am not speaking about unanimity here 
among everyone, but there are some important points and common 
ground.
    I think all of us, without exception, agree that Saddam 
Hussein is a tyrant, that his presence on the world stage poses 
threats to the world. I would argue, others may, that there are 
more significant threats that I would place at a higher 
priority: The threat of terrorism. I would even place the issue 
of North Korea as a more significant immediate threat. But 
nonetheless, this is a threat. And to suggest otherwise, I 
think, would be wrong.
    He has acquired biological, chemical weapons of mass 
destruction, and he has tried to accumulate nuclear weapons, as 
well. That is a given. We accept that and understand that.
    Most, I think, of the members of this body would also agree 
with the passage of H. Res. 114, that the President has the 
authority--whether they voted for it or against it, I think 
most would agree he has the authority. He needs to act, 
multilaterally or unilaterally. At least I accept that that is 
the case. Now, we might want to come back and deal with it 
another day, but the passage of that resolution gave him that 
authority.
    And I think most people in the country, as well as members 
of this body, applaud the President's decision to go to the 
U.N. One of the reasons that many of us supported that 
resolution was, in fact, to encourage the administration to do 
exactly what you did in September and exactly what you achieved 
in October, that it made a great deal of sense for us to build 
that kind of international support to deal with this threat--
well, not this threat alone, but other threats, as well--and to 
how we proceeded with that was going to make good sense.
    Now, those are pretty profound points of common agreement, 
it seems to me. What concerns us, I think, is the lack of 
information, other than, sort of, the rhetorical suggestions of 
where we are, to suggest somehow--I know you talk about 12 
years, but we are talking on a framework here over the last 60 
days or so, 70 days, since the passage of certain resolutions.
    We have known that Saddam Hussein was a tyrant for a long 
time. He was a tyrant 12 years ago. He was a tyrant 80 days 
ago, 60 days ago, 50 days ago, 40 days ago. There is not 
anything that has really changed in all of that, at least in 
most of our views. And yet we are hearing these sort of vague 
suggestions about materials and so forth. And I am not even 
arguing that that may be the case. I have been sort of 
accepting of the notion that it exists. But the decision to go 
to war is based on the conclusion that that, in fact, is the 
case. And for many of us up here, we have not yet seen the kind 
of data, I think, that is necessary.
    And Mr. Chairman, I would like to make a suggestion to the 
committee. I am glad the Secretary is going to go to the U.N. 
on Thursday, I think, of next week. But I do not think it is an 
outrageous suggestion that he might come and talk to us in a 
closed-door session here. I presume he is going to be 
constrained in a public forum at the United Nations that will 
be aired globally about what facts and data we have.
    I would certainly think it is all right for us to know 
since we are going to bear the burden of this if we go to war, 
financially and otherwise, that the elected representatives of 
the United States people might have that information before the 
U.N. does, with all due respect. And I wonder if it would not 
be a--how welcome the suggestion would be that he might appear 
before us on Wednesday, before he goes up on Thursday, in a 
closed-door session, if necessary.
    The Chairman. Let me respond just briefly to the Senator. I 
visited last evening with Senator Frist on that issue and have 
conveyed the thought that this would be very helpful for this 
committee or perhaps of all Senators. This is a judgment of the 
leadership, but I hope that that will come to pass, and I will 
forward the suggestion again.
    Senator Dodd. Well, I thank you, and it would be 
tremendously helpful to us to have that. You may want to 
comment on that if----
    Mr. Armitage. Well, beyond the obvious, that I am not going 
to take charge of my boss' schedule, but I want to say that he 
would endorse exactly what you say, as a general matter. We owe 
the body, the Senate and the House, an appearance to lay out 
this. I might suggest that Secretary Powell is basically 24-7 
now getting ready for this thing next Wednesday. But the 
sharing of the information is something that, of course, you 
have every right to demand. And I would just suggest it might 
be the intelligence officers--or the intelligence community who 
might better provide that. Secretary Powell is going to put it 
in context to support the comments that----
    Senator Dodd. Well, I do not care how it gets done. I do 
not care how it gets done. I am just tired of having to hear, 
sort of, these speeches being given about this. And I am one 
who supported this resolution. I am not your opponent. But my 
people want to know why we are going to do this, other than, 
sort of, speeches given that are sort of pep-rally stuff. I 
want to know specifically and factually what we know. And I 
think my constituents do, and I know my colleagues do. And 
before you go and tell the whole world about it, I think we 
have a right to know what is going on here.
    And that is really what the bottom of a lot of these 
questions are. We want to know. And that is not a partisan 
comment. You would hear that from--quietly, maybe, from the 
other side more than I am saying it publicly, but we want to 
know.
    So I appreciate, Mr. Chairman, however you can do this, but 
let us do it before you go up there.
    Mr. Armitage. We are in violent agreement with you. I was 
just trying to protect the calendar of my boss----
    Senator Dodd. I understand.
    Mr. Armitage [continuing]. For the obvious reason.
    Senator Dodd. Let me go back, if I can, just--I do not know 
how much time I have here left, but let me go back to this 
question that Senator Sarbanes raised and--about the 
inspectors. I--and Senator Hagel raised it as well.
    I am sort of wondering why we supported, even, the 
resolution in October if you feel as though the inspection 
process is such a failure or just is not producing results at 
all. That was only 60 days ago we did this. This was not a 
year-and-a-half or 12 years ago, this is just a few hours ago. 
We voted, along with 14 other members, or whatever it is, of 
the Security Council of the United Nations, endorsed this 
resolution, a major part of which includes the inspections 
process. Sixty days later, we are denouncing it. And by 
anyone's estimation--in fact, Resolution 1441 requires that 
every country share information with the inspectors. Not true? 
Is that true? That there is a requirement you step up?
    Mr. Armitage. That's right.
    Senator Dodd. Now, by public admission--and I am 
constrained, I guess, here, but I am told if there is--if there 
are this many inspection sites and so forth, we have provided 
about this much information, without getting into the specific 
details, as a government, in terms of our obligation of meeting 
the requirements of 1441 to assist the inspection process, a 
very small fraction of the sites that were available--we know 
are available, we have actually provided information about. Why 
are we not doing a better job of that? And if that is the case, 
why are we denouncing the inspection process before it has had 
a chance to work?
    Mr. Armitage. I would take some exception, Senator Dodd, 
with the characterization that we are denouncing the inspection 
process.
    Senator Dodd. Well, ``denouncing'' may be strong----
    Mr. Armitage. John has already indicated it is going to go 
ahead.
    But I do want to make one thing clear. Nowhere in 1441 or 
as far as I know in the discussion about the inspections was it 
ever the case that the inspectors were going to do more than to 
verify disarmament. That is what they are there for. And they 
are not playing cat-and-mouse and hide-and-seek.
    Senator Dodd. I do not disagree with that.
    Mr. Armitage. That is the first thing. The second thing is, 
I would note that Mr. Blix said, even in his report to the 
Council the other day, that even with the inspectors there, 
illegal procurement activity is continuing today.
    So we are not denouncing it. We will just take Dr. Blix at 
his word.
    Senator Dodd. Well, my time is up. We will come back to 
this. But I appreciate it.
    [The prepared statement of Senator Dodd follows:]

           Prepared Statement of Senator Christopher J. Dodd

    Today, the Senate Foreign Relations Committee has convened to 
discuss United States policy toward Iraq. Within the next few weeks 
critical decisions by President Bush, other members of the UN Security 
Council, and yes by Saddam Hussein will profoundly shape the course of 
history.
    Clearly that means that the issue of Iraq's disarmament is at the 
center of the world stage. There is an intense domestic and 
international debate ongoing over whether we should have any confidence 
that Iraq has fully and finally dismantled its weapons of mass 
destruction and will cease all efforts henceforth to acquire additional 
weapons, especially nuclear weapons.
    The answer with respect to our confidence levels rests in large 
part on the judgments we make about the effectiveness of the 
inspections process which was reinstituted and strengthened by United 
Nations Security Resolution 1441 which was adopted unanimously by the 
UN Security Council on November 8.
    This morning's hearing will give our administration's witnesses an 
opportunity to present to this committee and the American people an 
assessment of the inspections effort and of the likelihood that the 
inspections can achieve Iraq's disarmament. We heard on Tuesday evening 
in the course of the annual State of the Union address that President 
Bush has concluded that ``the dictator of Iraq is not disarming'' and 
that if Saddam Hussein ``does not fully disarm for the safety of our 
people, and for the peace of the world, we will lead a coalition to 
disarm him.''
    I want to commend the Chairman of the Committee for moving so 
quickly to organize this morning's hearing on the most pressing foreign 
policy and national security matter confronting not only our nation but 
also the world community.
    We are all fully aware that just three days ago United Nations (UN) 
weapons inspectors reported to the UN Security Council regarding Iraqi 
compliance or non-compliance with UN Resolution 1441. Those reports 
were a mixed bag--with Iraq getting passing marks on the process of 
disarmament and lesser marks on proactive cooperation with weapons 
inspectors. I think it is fair to say that both Mr. Blix and Mr. 
ElBaradei seemed to have concluded that sufficient progress had been 
made to warrant their continued inspections efforts, as did UN 
Secretary General Kofi Annan and other members of the Security Council. 
The American public is clearly in favor of giving the inspections 
process more time as well. As are a fair number of members of Congress.
    Some of the unease that we are all feeling with the administration 
seeming rush to judgment on the ineffectiveness of the inspections 
process is rooted in its handling in the past of some key international 
issues. Its rooted as well in the intemperate language used by some in 
the administration when referring to our long time allies. I will tell 
you that I have been deeply troubled by some of administration's 
isolationist attitudes and unilateral actions. Our strength as a nation 
partly rests on the strength of our friendships with nations around the 
world.
    The dismissive refusals by the Administration to participate in 
international agreements like the ABM Treaty, the Kyoto Protocol, and 
the International Criminal Court were, in my view, harmful to relations 
with our friends and damaging to our overall status in the 
international community. Although no foreign power should dictate our 
policy, the strong foundations of cooperation, friendship, and respect 
that we have with our friends must be maintained.
    Mr. Chairman, none of us in this room have any illusions about what 
we are dealing with when it comes to Saddam Hussein. Throughout his 
despotic reign, Saddam Hussein has played perfectly the role of a 
ruthless and cold-hearted dictator. To further his own menacing goals, 
and while enjoying a luxurious existence in his palaces, he has allowed 
Iraq to stagnate economically and the Iraqi people to suffer. Time and 
time again, Saddam Hussein has demonstrated his utter disregard for 
human life--the most poignant example occurring when he ordered the use 
of chemical weapons against his own people.
    But, I would say respectfully that is not new. Two years ago when 
President Bush took office Saddam Hussein was the same vile individual. 
Three months ago when the United States and the other fourteen members 
of the Security Council voted to undertake inspections, Saddam Hussein 
was the same vile person.
    A little more than two weeks ago Secretary Powell referred to the 
inspections as being in a state of infancy and said that they were just 
``starting to gain momentum.'' In addition, as Secretary Powell also 
stated, and as Mr. Blix continues to assert, the United States only 
recently started providing substantial intelligence information to the 
UN inspectors. So why now--two weeks later is the United States so 
convinced that military force is the only course of action left to 
address the threat posed by Iraq?
    The urgent task for the Administration is to publicly layout its 
case for why, notwithstanding Secretary Powell's remarks of two weeks 
ago, officials seem on the brink of concluding that the inspections 
process holds no hope of achieving, in a reasonable time, the 
disarmament of Iraq, or alternatively why the risk is so great or so 
imminent that we dare not wait any longer to act.
    If the administration can make that case, then I believe the 
Congress, the American people and all of our allies will support 
military action against Iraq.
    I am not one who would argue that the President, today, does not 
have the authority to act, and act unilaterally if he so decides. But I 
would argue that this would be a terrible mistake and potentially 
costly to America's prestige and long term national interests without 
first going the extra mile to demonstrate that our cause is just. That 
is why it is so important that Administration representatives use this 
opportunity today, and next week's presentation by Secretary Powell 
before the UN Security Council to make the strongest case possible.
    I would respectfully say to our witnesses that the Administration 
has not yet made a convincing case for why we should dispense with the 
inspections efforts after only sixty days--arguably less than that as 
the inspections teams have only recently gotten near full strength.
    For example, evidence publicly cited by the Administration as proof 
of Saddam's continuing efforts to develop a nuclear weapons program has 
been called into question by the UN weapons inspectors.
    I am speaking of reports last week that inspectors had tentatively 
concluded that aluminum casings found in Iraq that the U.S. had alleged 
were a type used in the uranium enrichment process, were not of 
sufficient quality for the production of nuclear weapons-grade 
material. This development strongly emphasizes the importance of 
thorough research, and moreover, the necessity of providing inspectors 
with sufficient time to analyze their findings.
    Secondly, helicopters were only recently provided to the 
inspectors. These helicopters are essential to the inspectors' ability 
to conduct surprise investigations of Iraqi installations--a method 
that significantly reduces the likelihood that Saddam Hussein will be 
able to remove or conceal evidence at a given facility.
    By our own admission, the United States has not done all we are 
called upon to do under UN Security Resolution 1441 to provide 
intelligence to the inspection efforts. This opens the United States up 
to criticism by other members of the Council as to whether we were ever 
committed to the strategy of inspections as set forth in UN Security 
Resolution 1441--a resolution which the U.S. did in fact vote for.
    As you know, Mr. Chairman I supported and continue to support all 
efforts by the UN to dismantle Iraq's weapons of mass destruction, 
including the use of military force if that proves necessary. In 
October 2002, I supported the resolution passed by Congress and signed 
into law by the President, authorizing the use of such force against 
Iraq. It was my hope that the Senate resolution would help strengthen 
the resolve of the UN to take action and would focus Saddam Husseins 
attention on the fact that we, the international community and the 
American people are united in our resolve to see that Iraq disarms.
    If the United States can make the case that the inspections process 
isn't working--that it won't work in a timely manner--that the threat 
of inaction is endangering U.S. security--then I believe that our 
resolve as a nation to take the next step in disarming of Iraq, by 
whatever means necessary, including by the use of force will be 
strengthened. And we will weather whatever comes next.
    If on the other hand the case cannot be made and the administration 
chooses to act simply because it can do so by virtue of the fact that 
the U.S. is the world's only remaining superpower, then I believe we 
will pay a heavy price as a nation. I do not think that we need to come 
to that point. I urge the President to proceed as a great nation 
should--with resolve but with wisdom and patience as time permits.

    Senator Sarbanes. Mr. Chairman, could he clarify that? When 
you say ``illegal procurement,'' you mean they actually are 
obtaining materials? And if so, what is being done about those 
that are selling the materials?
    Mr. Armitage. John Wolf informs me it is not a matter of 
selling. They are still buying and importing. Is that right, 
John?
    Senator Sarbanes. Well, someone is selling it, then.
    Mr. Armitage. Well, yes.
    Senator Sarbanes. Yes, well, is there not a regime to 
control that?
    Mr. Armitage. Yes, sir. John is just making the point that, 
of course, we try to stop it; it is an illegal procurement. 
They smuggle it in, and we are trying to stop it where we can. 
We have had sanctions where we can, you know, identify 
countries, but the smuggling of it continues, even now.
    The Chairman. Yes, Senator Biden.
    Senator Biden. Mr. Chairman, just a very brief 
intervention. I appreciate your going to Senator Frist and 
suggesting that the Secretary be up here, and I appreciate what 
Senator Dodd said about wanting to know the information, and it 
does not matter what source.
    I think it does matter that it be the Secretary, and I 
think it matters for purposes of the show of unity here, that 
there is the sense of--I think it is very much in the interest 
of the administration to maintain--and I know the Secretary 
believes this, as well--to maintain the vast majority of us on 
both sides of the aisle being in lockstep with the Secretary. 
And I, quite frankly, think it is just--as a matter of 
appearance, if nothing else--it is somewhat inappropriate not 
to come and speak with us first.
    It will engender a great deal of good will. And we can get 
from the intelligence community maybe even more than we can get 
from the Secretary, theoretically, but it is important that the 
Secretary, himself, showing the world that this--we are 
together.
    Anyway, I just think it would be a very useful thing across 
the board, beyond the information we will learn specifically, 
and specifically so we are aware of the nature of the 
``pitch,'' if you will, not just the specifics of the 
assertions made relative to the material.
    I just hope that you all will consider that.
    The Chairman. I thank the Senator for his comment. 
Obviously, we are in agreement, and hopefully Secretary Powell 
will be, too. And so we will work carefully together.
    Senator Brownback.
    Senator Brownback. Thank you, Mr. Chairman. Welcome, 
gentlemen.
    And I want to endorse the thought of having Secretary 
Powell up here. But I also want to say, on top of that, I 
appreciate how much you have worked with us to date. A number 
of us put forward the idea that there should be a resolution 
passed by Congress to the administration. The administration--I 
think a number of people actually argued in the administration, 
``We don't have to do that,'' but you did, and I think that was 
a wise move. A number of us argued that you should go to the 
United Nations for resolution. The administration, I think--
probably a number of people within--argued, ``We don't have to 
do that,'' but you did. Last week, Thursday, there was a 
briefing of Secretary Powell and Secretary Rumsfeld with 
Members here of the Senate that I thought was pretty candid. 
Thank you for doing that. I think this would be another 
positive step.
    And I think there has been a good--frankly, I think there 
has been a very good movement back and forth, and communication 
back and forth. We are getting down to the real tough point 
now, whether you actually engage U.S. military force and other 
military force, and I think that is obviously where we all get 
antsy and hard-pressed.
    I want to make one point about the weapons inspection, 
because I have chaired the subcommittee that has dealt with 
this for some period of time, and we have had a lot of hearings 
on Iraq over the period since I have been in the Senate, in 
1996. They have not complied at any point in time in the past. 
We have models of compliance of weapons inspections that the 
U.N. has done, like South Africa and Kazakhstan, where these 
were two countries that did cooperate with the U.N. And they 
did not--there was not any hide-and-seek. They said, ``Come in. 
We don't want these things anymore. Here is where they are. 
Come and get them.'' And I think that is the nature of the 
resolution we have. Now, if I am wrong on that, correct me, but 
that is the nature--and we actually have a model of that in the 
past.
    I want to followup, Secretary Armitage, on your point about 
the hearing that we do not want to have about terrorists 
distributing weapons of mass destruction and using them in the 
United States. There is an article in the New York Times today 
talking about large convoys moving out of Iraq into Syria. And 
I guess--I am just going to read you this instance--or report. 
``For instance, the Administration today was still debating the 
credibility of intelligence about a Christmas time Iraqi truck 
convoy that some Americans analysts say could have been 
transporting weapons of mass destruction or scientists to Syria 
where they would be safely out of the United Nations 
inspectors' view.''
    Do you have any either further illumination you could give 
us about what we know about movement of weapons of mass 
destruction out of Iraq, if you can identify it?
    Mr. Armitage. I would--Senator Brownback, I would say that 
there has been a debate in the administration, as I know it, in 
the intelligence communities, about how much we know about 
other countries perhaps receiving such things as missiles. I do 
not think--particularly, I do not think we know the definitive. 
I saw the report that you referred to, and I have seen other 
reports, and I cannot give you a level of credibility on other 
reports as to whether missiles are in other countries. Those 
countries to whom--who we have approached on this with our 
suspicions have vehemently denied, but--that is what they have 
done. So I cannot comment further.
    Senator Brownback. You cannot confirm or deny this report 
in the New York Times today? OK.
    Let me ask you about the presence of terrorists on Iraqi 
soil. You identified--or you spoke some about some al-Qaeda. 
Again, another New York Times article, just today, talked about 
the presence of other terrorist groups in Iraq, Ansar al Islam, 
an extremist group. Can you identify for this group other 
terrorists that are currently operating on Iraqi soil?
    Mr. Armitage. I can verify that, and I can provide you 
that. I do not think I want to do that publicly. I think it is 
part of what the Secretary will be saying. There are other 
groups who have apparently either been driven or have found 
some ability to be harbored in Iraq. Some are around the 
northern part of Iraq, close to Iran, but not associated with 
Iran, the group you just mentioned and others. But with your 
permission, I would provide it for the record and in a 
classified way.
    [A classified response was subsequently received.]
    Senator Brownback. OK. But you can confirm this in the New 
York Times today, that this group is operating on Iraqi soil?
    Mr. Armitage. Yes.
    Senator Brownback. Thank you.
    And I--and others, you will provide to us in a--can you 
provide that in a secure setting? Other terrorist groups that 
are operating on Iraqi soil.
    Mr. Armitage. I will do so, sir.
    Senator Brownback. Can you provide to us, either here or in 
private--do we know of any distribution of weapons of mass 
destruction to terrorists? I know that would be a very 
difficult thing to find, but do we know or can you provide 
that, either here or in a private setting?
    Mr. Armitage. Yes, I can. And I am not an expert in these 
matters, but there have been some real speculations about 
certain poisons and other things that were associated with some 
of these groups who are in, particularly, northern Iraq. But 
with your permission, I will content myself with those comments 
only.
    Senator Brownback. OK. And you can provide that to us in a 
private distribution? Because that, to me, has been the real 
issue about Iraq. There are a lot of bad players in the world. 
There is no question about that. North Korea is clearly up 
there, and we have got others. But the mix here of a guy with 
weapons of mass destruction, Saddam Hussein, who has used them 
in the past, and terrorists on his soil that are willing to use 
them against us and on our soil, is the potent mixture that I 
think is so poisonous and so hard for us to even contemplate, 
that you have got to go at that on an early, early basis.
    And I just want to conclude by asking you about other 
countries that will be supporting us, whether or not there is 
another U.N. resolution, which--I would question the need for 
another resolution on top of it, but I note that you have eight 
European leaders who have voiced their support for U.S. on Iraq 
that just was out again today. This is a Wall Street Journal 
article. I note today that Jordan has now said--they are even 
going further than they did in the gulf war I, of allowing some 
positioning of U.S. forces, wherein they had maintained a 
neutral position in the invasion of Kuwait. Congratulations on 
those. Do you have others that you can announce to us that have 
joined in our coalition?
    Mr. Armitage. I am going to give you a numerical idea. I do 
not desire to announce the names publicly, sir. But for 
instance, those who have committed to full access, 21 countries 
are fully committed to grant us access on routes should a 
military activity be required. There are others that are under 
discussion. But we have got 20 countries that are fully 
committed and three that are partially committed to allow 
basing. Overflight, 22 countries. We have got a total of nine 
countries who have either fully committed or partially 
committed some troops. So should a military activity be 
required, there is more going on than one suggests.
    And I have got a list that I do not want to disclose in 
open session. I can provide it securely. But I deliberately had 
it done that way for this hearing.
    [A classified response was subsequently received.]
    Senator Brownback. And I think it is particularly 
significant about the Jordanians, who are right there in the 
area, and have taken an even more aggressive stance this time 
than last.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Brownback follows:]

              Prepared Statement of Senator Sam Brownback

    Once again, the United States is facing a difficult dilemma: do we 
enforce what is right knowing there will likely be a price to pay for 
taking action in Iraq; or do we allow those who make excuses for Saddam 
to prevail and wait for an actual attack? Unfortunately, that is the 
stark reality we face.
    I am pleased we are holding this important hearing today to focus 
on the most recent U.N. report on Iraq's compliance with Resolution 
1441. As we heard from Hans Blix himself before the U.N., it is clear 
that Saddam has not yet accepted the world's demand to disarm. Yet, 
yesterday, Senators Kennedy and Byrd put forward a resolution calling 
for more time.
    Providing more time with no assurance of any different outcome only 
rewards the hide-and-seek game Saddam has played for the last 12 years. 
The objective of 1441 was not to require inspectors to turn over every 
rock in Iraq, but rather that Saddam would declare all activities and 
proactively facilitate disarmament.
    No one wants war. It is not an aim that anyone should pursue or 
support lightly. However, failing to act in the face of evil is wrong, 
and usually leads to even worse consequences down the road. Why do we 
refuse to learn from history which shows us time and again the path 
that tyrants bent on expanding their power will take?
    Despite his record of cheating, pursuing weapons of mass 
destruction and torturing his own people; the world community gave 
Saddam Hussein one last chance to come clean with its most recent 
resolution--1441. And what has Saddam's response been? Contempt, 
secrecy, intimidation and evasion.
    There comes a time when we must face reality--and the difficult 
reality is that Saddam Hussein has a demonstrated pattern of lying, 
developing and using weapons of mass destruction. It is not surprising 
that he has failed yet again to take advantage of the last chance 
offered by the most recent U.N. resolution.

    The Chairman. I thank the Senator from Kansas.
    Let me just say parenthetically, his travels in the Near 
East, the Middle East, and now the Far East have been 
extensive, and his report to members of the committee is really 
very helpful, even with regard to the North Korean border, and 
I congratulate you on that achievement.
    Senator Feingold.
    Senator Feingold. Mr. Chairman, thank you very much. First, 
let me congratulate you in----
    The Chairman. Thank you.
    Senator Feingold [continuing]. Your role as chairman. I 
certainly enjoyed very much Senator Biden's tenure. And I have 
greatly enjoyed working with both of you and admire your work.
    Mr. Armitage, you began very dramatically with your 
testimony with regard to the anthrax, and it, sort of, follows 
what Senator Brownback was talking about. To both of you, is it 
your contention that Iraq is the single most likely source of 
WMD transfers to international terrorist organizations to date? 
And specifically, would it be more likely than Iran, more 
likely than actors in Pakistan, more likely than a cash-
strapped North Korea? I wonder if both of you would respond to 
that.
    Mr. Armitage. That is an interesting question. I think in 
terms of the full-up capability chemical-bio, that I would 
endorse the statement that Iraq is the most likely. There are 
subsets. I am unaware, for instance, that Pakistan has had 
chemical and biological developments. North Korea, I do not 
know that we have much insight into their chem and bio 
capability. We have got more into their nuclear things that I 
have been able to discuss with you and others in private 
settings. And our fear with North Korea is with possible 
proliferation. We have no information about nuclear 
proliferation, and I have none on other WMD.
    Senator Feingold. But your answer seems to relate to 
whether they have these things. My question is, Who is the most 
likely to be involved in a trade of them, or a sale of them or 
distribution of them? Is it your belief that Iraq is more 
likely to engage in that kind of transaction with terrorists, 
or would it be fair to say that there is a question here----
    Mr. Armitage. OK----
    Senator Feingold [continuing]. That Iran, Pakistan, and 
perhaps North Korea may be more likely.
    Mr. Armitage. Of those four, I would say that Iraq is the 
most likely, sir.
    Senator Feingold. For others----
    Mr. Armitage. But I do not want to leave you with the 
impression or the implication that I am not concerned with the 
nuclear proliferation possibility of North Korea.
    Senator Feingold. What about other countries? Are there 
other countries that would be, in your view, more likely than 
Iraq to do this, or is Iraq the No. 1 most likely country to 
engage in this kind of transaction with a terrorist 
organization?
    Mr. Armitage. I am trying to run over in my mind the 
varsity and junior-varsity of those who are engaged in these 
activities, and I think it is a governmental matter that my 
fear would be greatest on Iraq. There are other concerns we 
have had. Historically, in the Russian Federation, et cetera, 
of them not having full control over their inventories. But as 
a governmental matter, we think the government is trying to 
control them, but I cannot discount the possibility of others 
having a rogue or off-the-books operation.
    Senator Feingold. I would just note this is not an academic 
question or something for my own interest. The reason I ask is 
because we are talking about invading one of these countries on 
this premise, on the basis that they are the greatest risk and 
have the greatest likelihood of this connection.
    Mr. Negroponte.
    Ambassador Negroponte. Without getting into the question of 
assessing the risk, I would point out, from a U.N. context, the 
difference between Iraq and the other countries you have 
mentioned is that Iraq is under 17 different United Nations 
resolutions, many of which are demanding, and have been 
demanding, since 1991--April 3, 1991. Resolution 687 was passed 
demanding that Iraq declare its WMD holdings within 15 days. 
And here we are 12 years later discussing this same subject. So 
they are under many more U.N. resolutions than any of these 
other countries are, with respect to its WDM.
    Senator Feingold. Well, I do not question that. What I am 
getting at here, and I think Senator Dodd and others were, is, 
Is this the entity that is most likely to help out an al-Qaeda-
type operation to try to harm Americans?
    And so let me follow with, What is Iraq's proliferation 
track record so far? To what extent have they proliferated?
    Mr. Armitage. May I ask Assistant Secretary Wolf to answer, 
sir, I think--and get it once?
    Senator Feingold. I would be pleased.
    Mr. Armitage. John.
    Mr. Wolf. Thank you, Senator.
    I think their record as a proliferator is less than as 
largely a buyer. They are buying, in all of the aspects--
chemical, biological, nuclear. They are developing long-range 
missiles. And as a country under a restrictive U.N. regime, 
they are not only acquiring, but they are in direct violation 
of a series of obligations. They harbor--they do harbor 
terrorist groups, so it is not an academic matter, and we do 
not know--as Secretary's Rumsfeld says, ``We don't know what we 
don't know.''
    But here is a country in the middle of a vital region which 
is acquiring all of the capabilities which threaten the region 
and pose a threat beyond the region. And that is why the U.N. 
has been so assertive over the last 12 years.
    Senator Feingold. I understand, but it sounds like you are 
saying that they are--if I could continue with you--that they 
are less of a proliferator than others. Is that not what you 
just said?
    Mr. Wolf. I would say we define the threat of Iraq in a 
different way. It is their ability to use those weapons against 
their own people, to use it against their neighbors, and 
potentially to use it far beyond.
    Senator Feingold. I understand that, and that is terribly 
important, but I would like you to answer my question. Are 
there other nations that are greater proliferators than Iraq of 
these types of substances and weapons?
    Mr. Wolf. There are other countries which proliferate.
    Senator Feingold. More than Iraq?
    Mr. Wolf. But nobody has used these substances Senator, I 
would like to say that, in Iraq's case, they are acquiring 
dangerous weapons----
    Senator Feingold. I understand that.
    Mr. Wolf [continuing]. Which they have used against 
thousands of their own people, which they have used against 
their neighbors, which they have the capability to use far 
away. That is the threat that we are addressing. That is the 
threat the U.N. has put in--that is why the U.N. demanded its 
disarmament.
    Senator Feingold. I recognize that, and it is----
    Mr. Wolf. That disarmament, they have not achieved.
    Senator Feingold [continuing]. Terribly important and has 
to be dealt with, but an awful lot of the information today, an 
awful lot of the argument today, and the President's argument, 
is not simply based on what Iraq will do. It is premised on 
what Iraq will do in conjunction with terrorist organizations, 
and that appears to require proliferation, and that is why this 
question is so important.
    Mr. Armitage. But I do not gainsay the importance of the 
question at all, Senator, but I think that a good deal of what 
has to be given to what everyone, I think, would acknowledge 
has been the bloody-mindedness of Saddam Hussein. And that does 
weigh somewhat in this equation.
    Senator Sarbanes. Would the Senator yield for just one 
quick question? I wanted to clarify one thing, Senator.
    Secretary Armitage, you said that there were al-Qaeda 
terrorists in northern Iraq, I think, earlier in response to a 
question. Are they in the territory in northern Iraq that is 
under Saddam's control, or are they in the territory in 
northern Iraq that is not under Saddam's control?
    Mr. Armitage. The ones that I referred to in northern Iraq 
are not under his direct control. There are al-Qaeda in 
Baghdad, as we move forward, be explaining.
    Senator Feingold. Mr. Chairman, could I ask one more 
question?
    In the State of the Union, the President seemed to suggest 
that the lesson to be learned from the recent history of the 
Korean Peninsula is that we must stop potential proliferators 
before they have the means to blackmail others. And obviously 
we all agree on that. But I worry that there are, in effect, 
some nuances being lost here and that our message to the rest 
of the world is starting to sound like, ``Acquire weapons and 
then be free from the threat of military action, or do not 
acquire weapons and then perhaps be subject to invasion.'' The 
incentives are for proliferation and the pursuit of WMD as 
quickly as possible under this message. How can that possibly 
be in the interest of global stability and in the interest of 
the security of the United States of America?
    Mr. Armitage. It seems to me that a nonproliferation 
policy, Senator, has to have several aspects to it. Part of it 
is a good deal of self-restraint. We stop people where we can. 
We try to persuade them not to have weapons. We sanction them 
where we can. But a good bit of the nonproliferation policy 
depends on enlightenment in terms of countries--South Africa, 
Taiwan, others who have voluntarily given up these programs.
    I do not agree, and I think the enlightened countries have 
come to the conclusion that weapons of mass destruction are 
more trouble than they are worth. The countries who acquire 
these weapons are ones who are generally basket cases, and they 
do it for one of three reasons that I have tried to already 
illuminate--to dominate, to intimidate, or perhaps, in the 
extreme, to attack.
    Senator Feingold. But if they have already got them, we are 
not going to go in there and deal with it.
    Mr. Armitage. No, not so, sir. The attempt by the previous 
administration in the framework agreement in the North Korean 
situation was an attempt to deal with it. We attempted to deal 
with it until we ran into the acknowledgment of the HEU program 
in North Korea, and now we are going to have to take a 
different tack.
    Senator Feingold. Well, what I meant by ``deal with it,'' 
obviously, is to deal with it the way we are about to deal with 
Iraq.
    Mr. Armitage. Well, I cannot sit here, and will not try to 
sit here, and tell you that I know that. As I said earlier, I 
do not think the ``one size fits all'' approach in these 
things.
    Senator Feingold. Thank you, Mr. Chairman.
    [The prepared statement of Senator Feingold follows:]

           Prepared Statement of Senator Russell D. Feingold

    I want to thank Chairman Lugar for convening this important 
hearing, and to thank both of the witnesses for being here today.
    This exercise is especially important because, in the wake of 
Congress's vote to authorize the President to use force in Iraq last 
year, our oversight role, our role as a conduit of our constituent 
concerns, and the degree to which we are willing to shoulder our 
fundamental constitutional responsibilities have, all been in doubt. 
Over the recess, in my home State of Wisconsin, I have heard from many, 
many Americans from different walks of life with different political 
views who all share a sense of deep unease regarding this country's 
policy toward Iraq. I think that we all have a responsibility to listen 
to the American people, and to place their voices, their questions, and 
their cautions at the center of Washington's discussions about Iraq. 
The stakes are too high, and the potential consequences for our 
constituents are too great, for Congress to sit back and watch events 
unfold as they may.
    I continue to believe that insisting on unilateral military action 
now makes sense only if there is an imminent threat to the United 
States. If that is the case, then of course the President is right--we 
do not have the luxury of building consensus that is not immediately 
forthcoming and we must accept the costs of unilateral action. But no 
one has suggested that a threat is imminent. I cannot understand why we 
would not devote our efforts to building and maintaining a strong 
international coalition to actively pursue our shared goal of disarming 
Iraq. Certainly it will not serve America's security interests to 
alienate key partners in the fight against terrorism and to fuel the 
misperception that we are aggressive and hostile toward the Muslim 
world. These are risks we should only take when we absolutely must.
    Hans Blix was right to be straightforward in his report to the 
Security Council acknowledging that Iraq has failed to take substantive 
steps to prove that it has disarmed or is prepared to disarm now. But 
the fact that Iraq's cooperation with inspectors is only passive does 
not mean that the inspections themselves are useless. In fact, I 
believe that the more effective the inspections are, the more likely it 
is that international consensus can be achieved regarding how to 
proceed in Iraq.
    I am not calling for anyone to have patience with Saddam Hussein, 
to give the Iraqi government the benefit of the doubt. No one disagrees 
with the President on that point. But I am suggesting that allowing the 
inspectors to continue their work, is in the interest of peace and 
security.
    I know that the brave men and women of our Armed Forces will be 
successful if they are called to action in Iraq. Asking questions about 
the wisdom of this course reflects no lack of confidence or faith in 
them. But it does reflect my taking my obligation to them seriously. 
They trust the democratically elected government that they serve to use 
their might wisely and well. We must not ignore the threat of Iraq's 
pursuit of weapons of mass destruction. But we must not take action--
risking American lives--that will make us less secure in the end.
    I look forward to today's testimony and discussion.

    The Chairman. Let me mention we will have another 
opportunity to ask Mr. Armitage about North Korea next Tuesday. 
He will be back and we will be worrying about that.
    Senator Sarbanes. Well, we certainly hope so, yes.
    Mr. Armitage. Think I don't, Senator?
    The Chairman. Senator Allen.
    Senator Allen. If I may, I had to be at another meeting. 
Senator Enzi is next in line over here, I will yield to Senator 
Enzi.
    The Chairman. Thank you. I will come back to you, Senator 
Allen.
    Senator Allen. Thank you, Mr. Chairman.
    The Chairman. Senator Enzi.
    Senator Enzi. I thank the Senator from Virginia, and I 
congratulate the chairman on the chairmanship. I do think that 
we have a tremendous team, between you and Senator Biden, 
providing direction for this committee.
    And I do want to reiterate what Senator Biden said in his 
opening comment, that we are not talking about preemption here, 
and we should get rid of that notion. This is enforcement of a 
surrender agreement. I think that is a very significant 
comment.
    I thank the people who are testifying today. When we are 
discussing such an important issue, it is very comforting to 
have people of your capability and involvement to be here to 
answer some questions for us.
    This year, I have been serving, along with Senator 
Sarbanes, under appointment of the President as a delegate to 
the United Nations for the 57th General Assembly. And I have 
got to tell you, I have been highly impressed with Ambassador 
Negroponte and the rest of the team at the U.S. mission in New 
York. The people of the United States should be extremely proud 
of the work that they are doing in an extremely critical time.
    I have been briefed by Ambassador Negroponte and the team. 
I had arrangements made by them. I have been accompanied by 
them, and I have gotten, particularly, to see Ambassador 
Negroponte in action. And it is really reassuring to me.
    I had one meeting in New York with the Geneva group, which 
is the 14 countries that pay 83 percent of the dues of the 
United Nations. It was after the President gave his speech in 
New York on September 12, 2002. It was really enlightening and 
somewhat reassuring to me to hear their opinions on what is 
happening in the United Nations and the need for the United 
Nations to show its relevance, as the President had asked.
    It was interesting to be at the President's speech. I had 
read the papers the day before that had everybody in the 
General Assembly, pretty well primed to think that he was going 
to storm in and tell them what was going to happen. You could 
see the nervousness of the delegates as we waited for the 
speech. When the President was introduced, it was very 
noticeable that there was not any applause. Of course, I 
remembered back to the previous speaker and realized that there 
was no applause at the beginning of his speech or the end of 
his speech, so I was not sure whether it was a United Nations 
tradition or not.
    But as the President spoke, it was helpful to be there and 
watch the body language of the delegates, because they kind of 
loosened up and said, ``Gee, what we've been reading in the 
papers maybe isn't what this guy is about.'' And you could 
almost see them remembering back to the patience that he had 
after September 11 as he formed a coalition before we went into 
Afghanistan. At the end of his speech, there was even applause.
    Then we had an opportunity to visit with a number of those 
delegates. And that is kind of a theme that keeps being 
reiterated about the patience of the President, about the 
competence of his team, and a lot of good comments about 
Ambassador Negroponte.
    The speeches that happened following the President's speech 
had a same theme as the President's speech, ``We have to be 
useful, or we have to quit.'' And that is a message that the 
United Nations really needed to have. And it is helpful, if we 
get the opportunity, to be up there and watch these things as 
they are happening. So I hope as others have the opportunity, 
that they will do that, as well.
    Now, in the way of a question, since I have not been up 
there since the 16 shell casings were discovered, I am kind of 
curious as to what the reaction was among other delegates 
regarding that, and knowing that, although we found 16, there 
were still 29,984, roughly, of those shell casings that had the 
capability of either being loaded or were still loaded. Has 
there been a reaction to that one very specific finding of the 
inspection team?
    Ambassador Negroponte. I think, generally, there was 
concern about it, Senator. I think Dr. Blix has told us that 
they are still doing some tests on whether any of those casings 
had any evidence of those particular items having been 
weaponized.
    But I think, more generally speaking, I would only add that 
whatever else delegates at the Security Council might feel, I 
think there is almost unanimous agreement, with the possible 
exception of Syria, that Iraq needs to do more to proactively 
cooperate with the inspectors. I think, on that, there is 
virtually unanimous agreement.
    Senator Enzi. I know, to the people in Wyoming and other 
people I have talked to in the country, that the finding of 
those 16 shell casings, whether they had anything in them or 
not, was a realization that Iraq did not declare that they 
still had those items and then have not shown us yet where the 
remains are if they did destroy the items. I am hoping that had 
the same kind of a reaction at the U.N.
    Ambassador Negroponte. Well, correct, and also in light of 
the fact that this is one of, I believe, 30,000 such munitions 
that are unaccounted for. So I think another question that 
arises is if they are going to be dribbled out, as Secretary 
Powell said a few days ago--12, I think, were the first, and 
then 4 more that were found--how long is this going to take?
    Senator Enzi. And it has been helpful to realize this is 
the size of California, and we have 108 inspectors. I think you 
said 57 more are coming.
    Thank you. I would yield back my time.
    The Chairman. Thank you very much, Senator Enzi.
    Senator Boxer.
    Senator Boxer. Mr. Chairman, everybody keeps saying ``the 
size of California.'' Now you know how hard it is to run for 
the Senate from there, and I hope that word goes out to all 
opposition.
    Senator Biden. I might add, you have more people.
    Senator Boxer. Yes, 35 million at the moment, and counting.
    I want to say, Senator Lugar and Senator Biden, you make a 
great team, and we look forward to working with you.
    Secretary Armitage, I really respect you and I really think 
you are particularly effective. And Ambassador, you are working 
so hard every day to build the kind of coalition that we all 
want.
    I have some disagreements, and I want to lay those out. In 
making the case against going to war against Iraq, the 
President was very eloquent in pointing out the horrific 
chemicals and the various weapons that Saddam could employ. And 
you, Secretary Armitage, have made the same point, I think very 
eloquently. And you have brought it home to us, because I was 
one of those offices that shared the--shall we say, the 
``breathing apparatus'' with Senator Daschle. So we all know 
the fear that these weapons of mass destruction can bring.
    I think the case is made. Saddam must disarm. Must disarm. 
There is no disagreement in our country. And as I go around my 
State, absolutely no disagreement. He must disarm. The question 
is, What's the best way to do it for the world and for our 
people and for our young men and women in uniform and the rest? 
And some of us believe, because we know it is a fact, that 
since more weapons of mass destruction were destroyed by the 
inspectors in the 1990's than by our bombs--and this was put 
into the record here--that this is an approach that ought to be 
given every opportunity to work.
    Now, I want to put into the record something very 
unpleasant about our policies in the past. The fact is, we all 
know that Saddam Hussein has been committing human rights 
abuses since he formally took control of Iraq in 1979. I am 
sure you agree with that. Am I correct? And even before that. 
He effectively took control of the country in the 1960s. This 
man has been around. He has shown how ruthless he is.
    And here is the point. During the 1980s, we knew human 
rights abuses were being carried out. We knew that Saddam was 
using weapons against his own people. And I think it is very 
important to face that fact and let the American people know 
because it is important to understand how he got these weapons, 
why he is such a threat. And it is important, not only as we 
make our policy here, but also as a signal to all of us. That 
``the enemy of my enemy is my friend'' sounds real good. But in 
practice, it can come back and bite us pretty hard.
    Today, we are concerned, Mr. Chairman, that we can have a 
commercial airliner--in the United States of America, a 
commercial airline shot down by a stinger missile, a shoulder-
fired missile. We introduced those, and it got in the hands of 
the Taliban, into the hands of al-Qaeda. What a tragedy.
    So I ask unanimous consent to place into the record an 
article called ``U.S. Had Key Role in Iraq Buildup--Trade in 
Chemical Arms Allowed Despite Their Use on Iranians and 
Kurds,'' and it was in the Washington Post December 30, 2002. 
May I place that in the record?
    The Chairman. Yes, without objection, so ordered.
    [The article referred to follows:]

               [From the Washington Post, Dec. 30, 2002]

                   U.S. Had Key Role in Iraq Buildup

  trade in chemical arms allowed despite their use on iranians, kurds

                           (By Michael Dobbs)

    High on the Bush administration's list of justifications for war 
against Iraq are President Saddam Hussein's use of chemical weapons, 
nuclear and biological programs, and his contacts with international 
terrorists. What U.S. officials rarely acknowledge is that these 
offenses date back to a period when Hussein was seen in Washington as a 
valued ally.
    Among the people instrumental in tilting U.S. policy toward Baghdad 
during the 1980-88 Iran-Iraq war was Donald H. Rumsfeld, now defense 
secretary, whose December 1983 meeting with Hussein as a special 
presidential envoy paved the way for normalization of U.S.-Iraqi 
relations. Declassified documents show that Rumsfeld traveled to 
Baghdad at a time when Iraq was using chemical weapons on an ``almost 
daily'' basis in defiance of international conventions.
    The story of U.S. involvement with Saddam Hussein in the years 
before his 1990 attack on Kuwait--which included large-scale 
intelligence sharing, supply of cluster bombs through a Chilean front 
company, and facilitating Iraq's acquisition of chemical and biological 
precursors--is a topical example of the underside of U.S. foreign 
policy. It is a world in which deals can be struck with dictators, 
human rights violations sometimes overlooked, and accommodations made 
with arms proliferators, all on the principle that the ``enemy of my 
enemy is my friend.''
    Throughout the 1980s, Hussein's Iraq was the sworn enemy of Iran, 
then still in the throes of an Islamic revolution. U.S. officials saw 
Baghdad as a bulwark against militant Shi'ite extremism and the fall of 
pro-American states such as Kuwait, Saudi Arabia, and even Jordan--a 
Middle East version of the ``domino theory'' in Southeast Asia. That 
was enough to turn Hussein into a strategic partner and for U.S. 
diplomats in Baghdad to routinely refer to Iraqi forces as ``the good 
guys,'' in contrast to the Iranians, who were depicted as ``the bad 
guys.''
    A review of thousands of declassified government documents and 
interviews with former policymakers shows that U.S. intelligence and 
logistical support played a crucial role in shoring up Iraqi defenses 
against the ``human wave'' attacks by suicidal Iranian troops. The 
administrations of Ronald Reagan and George H.W. Bush authorized the 
sale to Iraq of numerous items that had both military and civilian 
applications, including poisonous chemicals and deadly biological 
viruses, such as anthrax and bubonic plague.
    Opinions differ among Middle East experts and former government 
officials about the pre-Iraqi tilt, and whether Washington could have 
done more to stop the flow to Baghdad of technology for building 
weapons of mass destruction.
    ``It was a horrible mistake then, but we have got it right now,'' 
says Kenneth M. Pollack, a former CIA military analyst and author of 
``The Threatening Storm,'' which makes the case for war with Iraq. ``My 
fellow [CIA] analysts and I were warning at the time that Hussein was a 
very nasty character. We were constantly fighting the State 
Department.''
    ``Fundamentally, the policy was justified,'' argues David Newton, a 
former U.S. ambassador to Baghdad, who runs an anti-Hussein radio 
station in Prague. ``We were concerned that Iraq should not lose the 
war with Iran, because that would have threatened Saudi Arabia and the 
Gulf Our long-term hope was that Hussein's government would become less 
repressive and more responsible.''
    What makes present-day Hussein different from the Hussein of the 
1980s, say Middle East experts, is the mellowing of the Iranian 
revolution and the August 1990 invasion of Kuwait that transformed the 
Iraqi dictator, almost overnight, from awkward ally into mortal enemy. 
In addition, the United States itself has changed. As a result of the 
Sept. 11, 2001, terrorist attacks on New York and Washington, U.S. 
policymakers take a much more alarmist view of the threat posed by the 
proliferation of weapons of mass destruction.
U.S. Shifts in Iran-Iraq War
    When the Iran-Iraq war began in September 1980, with an Iraqi 
attack across the Shatt al Arab waterway that leads to the Persian 
Gulf, the United States was a bystander. The United States did not have 
diplomatic relations with either Baghdad or Tehran. U.S. officials had 
almost as little sympathy for Hussein's dictatorial brand of Arab 
nationalism as for the Islamic fundamentalism espoused by Iran's 
Ayatollah Ruhollah Khomeini. As long as the two countries fought their 
way to a stalemate, nobody in Washington was disposed to intervene.
    By the summer of 1982, however, the strategic picture had changed 
dramatically. After its initial gains, Iraq was on the defensive, and 
Iranian troops had advanced to within a few miles of Basra, Iraq's 
second largest city. U.S. intelligence information suggested the 
Iranians might achieve a breakthrough on the Basra front, destabilizing 
Kuwait, the Gulf states, and even Saudi Arabia, thereby threatening 
U.S. oil supplies.
    ``You have to understand the geostrategic context, which was very 
different from where we are now,'' said Howard Teicher, a former 
National Security Council official, who worked on Iraqi policy during 
the Reagan administration. ``Realpolitik dictated that we act to 
prevent the situation from getting worse.''
    To prevent an Iraqi collapse, the Reagan administration supplied 
battlefield intelligence on Iranian troop buildups to the Iraqis, 
sometimes through third parties such as Saudi Arabia. The U.S. tilt 
toward Iraq was enshrined in National Security Decision Directive 114 
of Nov. 26, 1983, one of the few important Reagan era foreign policy 
decisions that still remains classified. According to former U.S. 
officials, the directive stated that the United States would do 
``whatever was necessary and legal'' to prevent Iraq from losing the 
war with fran.
    The presidential directive was issued amid a flurry of reports that 
Iraqi forces were using chemical weapons in their attempts to hold back 
the Iranians. In principle, Washington was strongly opposed to chemical 
warfare, a practice outlawed by the 1925 Geneva Protocol. In practice, 
U.S. condemnation of fraqi use of chemical weapons ranked relatively 
low on the scale of administration priorities, particularly compared 
with the all-important goal of preventing an Iranian victory.
    Thus, on Nov. 1, 1983, a senior State Department official, Jonathan 
T. Howe, told Secretary of State George P. Shultz that intelligence 
reports showed that Iraqi troops were resorting to ``almost daily use 
of CW'' against the Iranians. But the Reagan administration had already 
committed itself to a large-scale diplomatic and political overture to 
Baghdad, culminating in several visits by the president's recently 
appointed special envoy to the Middle East, Donald H. Rumsfeld.
    Secret talking points prepared for the first Rumsfeld visit to 
Baghdad enshrined some of the language from NSDD 114, including the 
statement that the United States would regard ``any major reversal of 
Iraq's fortunes as a strategic defeat for the West.'' When Rumsfeld 
finally met with Hussein on Dec. 20, he told the Iraqi leader that 
Washington was ready for a resumption of full diplomatic relations, 
according to a State Department report of the conversation. Iraqi 
leaders later described themselves as ``extremely pleased'' with the 
Rumsfeld visit, which had ``elevated U.S.-Iraqi relations to a new 
level.''
    In a September interview with CNN, Rumsfeld said he ``cautioned'' 
Hussein about the use of chemical weapons, a claim at odds with 
declassified State Department notes of his 90-minute meeting with the 
Iraqi leader. A Pentagon spokesman, Brian Whitman, now says that 
Rumsfeld raised the issue not with Hussein, but with Iraqi foreign 
minister Tariq Aziz. The State Department notes show that he mentioned 
it largely in passing as one of several matters that ``inhibited'' U.S. 
efforts to assist Iraq.
    Rumsfeld has also said he had ``nothing to do'' with helping Iraq 
in its war against Iran. Although former U.S. officials agree that 
Rumsfeld was not one of the architects of the Reagan administration's 
tilt toward Iraq--he was a private citizen when he was appointed Middle 
East envoy--the documents show that his visits to Baghdad led to closer 
U.S.-Iraqi cooperation on a wide variety of fronts. Washington was 
willing to resume diplomatic relations immediately, but Hussein 
insisted on delaying such a step until the following year.
    As part of its opening to Baghdad, the Reagan administration 
removed Iraq from the State Department terrorism list in February 1982, 
despite heated objections from Congress. Without such a move, Teicher 
says, it would have been ``impossible to take even the modest steps we 
were contemplating'' to channel assistance to Baghdad. Iraq--along with 
Syria, Libya and South Yemen--was one of four original countries on the 
list, which was first drawn up in 1979.
    Some former U.S. officials say that removing Iraq from the 
terrorism list provided an incentive to Hussein to expel the 
Palestinian guerrilla leader Abu Nidal from Baghdad in 1983. On the 
other hand, Iraq continued to play host to alleged terrorists 
throughout the 1980s. The most notable was Abu Abbas, leader of the 
Palestine Liberation Front, who found refuge in Baghdad after being 
expelled from Tunis for masterminding the 1985 hijacking of the cruise 
ship Achille Lauro, which resulted in the killing of an elderly 
American tourist.
Iraq Lobbies for Arms
    While Rumsfeld was talking to Hussein and Aziz in Baghdad, Iraqi 
diplomats and weapons merchants were fanning out across Western 
capitals for a diplomatic charm offensive-cum-arms buying spree. In 
Washington, the key figure was the Iraqi charge d'affaires, Nizar 
Hamdoon, a fluent English speaker who impressed Reagan administration 
officials as one of the most skillful lobbyists in town.
    ``He arrived with a blue shirt and a white tie, straight out of the 
mafia,'' recalled Geoffrey Kemp, a Middle East specialist in the Reagan 
White House. ``Within six months, he was hosting suave dinner parties 
at his residence, which he parlayed into a formidable lobbying effort. 
He was particularly effective with the American Jewish community.''
    One of Hamdoon's favorite props, says Kemp, was a green Islamic 
scarf allegedly found on the body of an Iranian soldier. The scarf was 
decorated with a map of the Middle East showing a series of arrows 
pointing toward Jerusalem. Hamdoon used to ``parade the scarf'' to 
conferences and congressional hearings as proof that an Iranian victory 
over Iraq would result in ``Israel becoming a victim along with the 
Arabs.''
    According to a sworn court affidavit prepared by Teicher in 1995, 
the United States ``actively supported the Iraqi war effort by 
supplying the Iraqis with billions of dollars of credits, by providing 
military intelligence and advice to the Iraqis, and by closely 
monitoring third country arms sales to Iraq to make sure Iraq had the 
military weaponry required.'' Teicher said in the affidavit that former 
CIA director William Casey used a Chilean company, Cardoen, to supply 
Iraq with cluster bombs that could be used to disrupt the Iranian human 
wave attacks. Teicher refuses to discuss the affidavit.
    At the same time the Reagan administration was facilitating the 
supply of weapons and military components to Baghdad, it was attempting 
to cut off supplies to Iran under ``Operation Staunch.'' Those efforts 
were largely successful, despite the glaring anomaly of the 1986 Iran-
contra scandal when the White House publicly admitted trading arms for 
hostages, in violation of the policy that the United States was trying 
to impose on the rest of the world.
    Although U.S. arms manufacturers were not as deeply involved as 
German or British companies in selling weaponry to Iraq, the Reagan 
administration effectively turned a blind eye to the export of ``dual 
use'' items such as chemical precursors and steel tubes that can have 
military and civilian applications. According to several former 
officials, the State and Commerce departments promoted trade in such 
items as a way to boost U.S. exports and acquire political leverage 
over Hussein.
    When United Nations weapons inspectors were allowed into Iraq after 
the 1991 Gulf War, they compiled long lists of chemicals, missile 
components, and computers from American suppliers, including such 
household names as Union Carbide and Honeywell, which were being used 
for military purposes.
    A 1994 investigation by the Senate Banking Committee turned up 
dozens of biological agents shipped to Iraq during the mid-1980s under 
license from the Commerce Department, including various strains of 
anthrax, subsequently identified by the Pentagon as a key component of 
the Iraqi biological warfare program. The Commerce Department also 
approved the export of insecticides to Iraq, despite widespread 
suspicions that they were being used for chemical warfare.
    The fact that Iraq was using chemical weapons was hardly a secret. 
In February 1984, an Iraqi military spokesman effectively acknowledged 
their use by issuing a chilling warning to Iran. ``The invaders should 
know that for every harmful insect, there is an insecticide capable of 
annihilating it . . . and Iraq possesses this annihilation 
insecticide.''
Chemicals Kill Kurds
    In late 1987, the Iraqi air force began using chemical agents 
against Kurdish resistance forces in northern Iraq that had formed a 
loose alliance with Iran, according to State Department reports. The 
attacks, which were part of a ``scorched earth'' strategy to eliminate 
rebel-controlled villages, provoked outrage on Capitol Hill and renewed 
demands for sanctions against Iraq. The State Department and White 
House were also outraged--but not to the point of doing anything that 
might seriously damage relations with Baghdad.
    ``The U.S.-Iraqi relationship is . . . important to our long-term 
political and economic objectives,'' Assistant Secretary of State 
Richard W. Murphy wrote in a September 1988 memorandum that addressed 
the chemical weapons question. ``We believe that economic sanctions 
will be useless or counterproductive to influence the Iraqis.''
    Bush administration spokesmen have cited Hussein's use of chemical 
weapons ``against his own people''--and particularly the March 1988 
attack on the Kurdish village of Halabjah--to bolster their argument 
that his regime presents a ``grave and gathering danger'' to the United 
States.
    The Iraqis continued to use chemical weapons against the Iranians 
until the end of the Iran-Iraq war. A U.S. air force intelligence 
officer, Rick Francona, reported finding widespread use of Iraqi nerve 
gas when he toured the Al Faw peninsula in southern Iraq in the summer 
of 1988, after its recapture by the Iraqi army. The battlefield was 
littered with atropine injectors used by panicky Iranian troops as an 
antidote against Iraqi nerve gas attacks.
    Far from declining, the supply of U.S. military intelligence to 
Iraq actually expanded in 1988, according to a 1999 book by Francona, 
``Ally to Adversary: an Eyewitness Account of Iraq's Fall from Grace.'' 
Informed sources said much of the battlefield intelligence was 
channeled to the Iraqis by the CIA office in Baghdad.
    Although U.S. export controls to Iraq were tightened up in the late 
1980s, there were still many loopholes. In December 1988, Dow Chemical 
sold $1.5 million of pesticides to Iraq, despite U.S. government 
concerns that they could be used as chemical warfare agents. An Export-
Import Bank official reported in a memorandum that he could find ``no 
reason'' to stop the sale, despite evidence that the pesticides were 
``highly toxic'' to humans and would cause death ``from asphyxiation.''
    The U.S. policy of cultivating Hussein as a moderate and reasonable 
Arab leader continued right up until he invaded Kuwait in August 1990, 
documents show. When the then-U.S. ambassador to Baghdad, April 
Glaspie, met with Hussein on July 25, 1990, a week before the Iraqi 
attack on Kuwait, she assured him that Bush ``wanted better and deeper 
relations,'' according to an Iraqi transcript of the conversation. 
``President Bush is an intelligent man,'' the ambassador told Hussein, 
referring to the father of the current president. ``He is not going to 
declare an economic war against Iraq.''
    ``Everybody was wrong in their assessment of Saddam,'' said Joe 
Wilson, Glaspie's former deputy at the U.S. embassy in Baghdad, and the 
last U.S. official to meet with Hussein. ``Everybody in the Arab world 
told us that the best way to deal with Saddam was to develop a set of 
economic and commercial relationships that would have the effect of 
moderating his behavior. History will demonstrate that this was a 
miscalculation.''

    Senator Boxer. And in my remaining time--and I am going to 
sit here for another round--I assume we can have another round?
    The Chairman. We will----
    Senator Boxer. Good.
    The Chairman [[continuing]. If the members wish to do so.
    Senator Boxer. Good. I want to read a couple of things. 
``The Administrations of Ronald Reagan and George Bush 
authorized the sale to Iraq of numerous items that had both 
military and civilian application, including poisonous 
chemicals and deadly biological viruses, such as anthrax and 
bubonic plague. According to former U.S. officials, the 
directive stated the U.S. would do, quote, `whatever was 
necessary and legal to prevent Iraq from losing the war with 
Iran.' ''
    It goes into the fact that Donald Rumsfeld was appointed as 
a special envoy to the Middle East in 1983, and it quotes, 
``When Rumsfeld finally met with Hussein on December 20, 1983, 
he told the Iraqi leader that Washington was ready for a 
resumption of full diplomatic relations, according to a State 
Department report of the conversation. Iraqi leaders later 
described themselves as extremely pleased with the Rumsfeld 
visit, which had, quote, `elevated U.S./Iraqi relations to a 
new level.' As part of its opening to Baghdad, the Reagan 
Administration removed Iraq from the State Department terrorism 
list in February 1982, despite heated objections from 
Congress.'' ``When United Nations weapons inspectors were 
allowed into Iraq after the 1991 gulf war, they compiled long 
lists of chemicals, missile components, and computers from 
American suppliers, including such household names as Union 
Carbide and Honeywell, which were being used for military 
purposes. A 1994 investigation by the Senate Banking Committee 
turned up dozens of biological agents shipped to Iraq during 
the mid-1980s under license from the Commerce Department, 
including various strains of anthrax subsequently identified by 
the Pentagon as a key component of the Iraqi biological warfare 
program. The Commerce Department also approved the export of 
insecticides to Iraq despite widespread suspicions that they 
were being used for chemical warfare.''
    I am--you know, reading this, I get chills at what we did 
and the monster that was made even more of a monster because of 
our actions. And I think there has to be a lesson here that we 
have to understand and be responsible for our own actions. And 
we sit here and talk about the horrors of these chemicals, many 
of which were made possible by the actions of our own 
government, when, for whatever reason, suddenly Saddam Hussein 
was not all that bad, you know, 20 years ago.
    So this line of questioning--I will finish now and just 
make the comment that Saddam must disarm. He got these weapons 
from a lot of places, and he is a terrible danger. But I would 
beg this administration to listen carefully to colleagues on 
both sides of the aisle when we say that as long as the 
inspectors are there and they say they are making progress--and 
absolutely it was a mixed report from Blix, no doubt about it--
we should give the process a chance to work, and then we will 
be able to develop a coalition like we had in the first gulf 
war if we do this right.
    Thank you.
    The Chairman. Thank you, Senator Boxer.
    We now come to a portion of the--yes, would you like to 
respond?
    Mr. Armitage. If Senator Boxer is going to be kind enough 
to stay around, so I will respond, but I think a couple of 
things you said--I am not going to argue; I just want to make a 
point. This is one very important statement you made.
    Thank you for your comments about my opening statement. It 
was deliberate--``We know where you live,'' as they say--
because I wanted to bring it home to you and other Members.
    And I saw and paid very close attention to your statement 
of the 27th of January about the Blix/ElBaradei report. We are 
often accused of being totally tone deaf in the administration. 
It is not the case. We look at these things, we think about 
them. And I saw in that, you said Saddam must disarm, and you 
also said the inspectors have to be given--or should be given 
more time.
    The frustration that we have on that is that it is not a 
matter of the inspectors. They are not, sort of, policemen. 
They are verifiers. And if we do not get the cooperation, then 
time is not going to be the answer. That is our view. There is 
a difference of opinion.
    But when you make the comment about ``the enemy of my enemy 
is my friend,'' I specifically--and I think in this very 
chamber in 1984--gave a testimony and, in it, said that being 
``the enemy of my enemy'' is not sufficient for a relationship 
with the United States. To be our--have a relationship with the 
United States that is lasting and worthwhile, you have to, to 
some extent, share our values.
    So I know what you are saying, and I was around in the 
1980s, on both sides of the Iraq and Iran question. But the 
question of ``the enemy of my enemy is my friend'' is not our 
policy and has not been for some time, and I just wanted to 
make that----
    Senator Boxer. Well, they should have listened to you in 
the 1980s. We might not be in such a situation----
    Mr. Armitage. Well, I was on both sides of the issue, like 
a lot of people. I am not--I was not--my skirts are not totally 
clean on that, either. But I want to say that the enemy of my 
enemy is not necessarily our friend. They have to share our 
values.
    Senator Boxer. That is for sure.
    The Chairman. Thank you.
    Senator Biden. I wish you would make the case to the U.N. 
like you speak. I wish you would make the case to the U.N. like 
you speak, and to the world.
    The Chairman. Senator Allen.
    Senator Allen. Thank you, Mr. Chairman. I want to commend 
you for your leadership. I look forward to working with you, as 
well as with Senator Biden, on this committee, and thank you 
for having undoubtedly one of the most important hearings on an 
important, pressing subject in a long time in the long history 
of this esteemed committee.
    I will not go through my whole statement. I really do want 
to hear the perspectives of Secretary Armitage and Ambassador 
Negroponte.
    I will just say that, in listening to this and following it 
for the last year, it is very clear--it is not just last year--
but it is very clear that Saddam Hussein has proven that he is 
a dangerous, aggressive dictator. We saw his reaction. We saw 
his reaction on September 11 when the World Trade Center and 
the Pentagon in northern Virginia were hit. What was his 
reaction? Celebration.
    We have also seen--and Senator Boxer and I have worked on 
it to make sure--this is before 9/11--to make sure that we 
understood what was going on in Israel and what they were 
facing. You wonder about him and terrorism? He offers bounties 
or a remuneration to families who send their young daughters or 
young sons off on suicide murders into Israel.
    It would seem to me that we keep having to re-prove the 
same case on stipulated facts, and they are not just facts from 
our intelligence. These are stipulated facts that the United 
Nations, the Security Council, has talked about previously. You 
go through all the volumes of various biological or chemical 
agents and these stockpiles. And it is clear that Saddam 
Hussein, from time to time, will change his tactics. At times, 
he will be belligerent and bellicose in his obstructionism. 
More recently, he has turned into more deceitful deception in 
his obstructionism. The fact remains, though, he still has 
these stockpiles of chemical and biological weapons.
    In addition, apparently it is understood by Dr. Blix and 
others that he has the missile capabilities that far exceed the 
range required by the United Nations--not the United States, 
but the United Nations. And there are other aspects of delivery 
systems of which we have concerns that I am not going to go 
into because they were brought up in top-secret meetings. And 
there is, of course, a concern that he could hand it off to a 
terrorist subcontractor who would just love to disrupt this 
country and kill thousands, if not millions, of Americans with 
these chemical or biological weapons. We are not even arguing 
over the question of nuclear capabilities.
    I would like to ask several questions here. And the reason 
I wanted to find out where we were is I did not want to ask 
questions of these two gentlemen that have already asked 
before. Invariably, Senator Hagel has asked the questions, I 
have found, in this committee.
    Now, Ambassador Negroponte, what has been the reaction of 
the other Members of the U.N. Security Council, as far as this 
report? How do their assessments of the Blix January 27 report 
differ, if at all, with your--I have read and followed our 
responses to it--what are their differences, if there are any? 
Because I think this is going to be very important as we move 
forward in the days and weeks to come.
    And for example, do they agree--do any of them dispute the 
fact--what seem to be stipulated facts that Saddam Hussein 
possesses these various amounts or quantities of biological and 
chemical agents that could be used as weapons?
    Ambassador Negroponte. Thank you very much, Senator. I 
think that, as a general proposition, most of the delegations 
believe that Iraq has not cooperated proactively with the 
inspectors. I think they agree that the questions that Dr. Blix 
has raised are serious ones that Iraq needs to answer for.
    I think where you will start to get a variety of 
perspectives from the different countries is with respect to 
whether what has happened thus far--that is to say, Iraq's 
incomplete and totally inadequate declaration in December and 
its failure to cooperate so far--is sufficient to constitute a 
material breach of Resolution 1441. And there, you start 
hearing a divergence of views.
    We have already said we consider it to be a material 
breach. The British Foreign Minister and the British delegate 
yesterday, at our meeting of the Council, said that they 
believe that Iraq is now in further material breach. And then a 
number of the other delegations have been arguing for more time 
for the inspections. But virtually all of them have said that 
Iraq has got to do more to cooperate with the inspectors. And 
so I think they have all been critical in that respect, but I 
would acknowledge that a number of them have argued for more 
time.
    Now, what their position will be as this diplomatic process 
unfolds, the meeting between the President and Prime Minister 
Blair at Camp David this weekend, Secretary Powell's briefing 
to the Council next week, and the diplomatic activity that is 
inevitably going to surround that, how their positions will 
evolve, I think, remains to be seen.
    Senator Allen. All right. So the question is, What do you 
do with the material breach. But they do agree with the 
underlying facts, insofar as the amount of these chemical--or 
that Saddam possesses chemical and biological----
    Ambassador Negroponte. Well, just to give you one example--
--
    Senator Allen [continuing]. Stockpiles?
    Ambassador Negroponte. Yes, sir. Just to give you one 
example, Senator, here is a report of last night's meeting of 
the Council. I am reading from the cabled report from our 
Mission. And the French delegate--and, after all, we know that 
France and ourselves have different--quite a few differences of 
perspective on this issue--and yet I am quoting now, the French 
delegate said, ``He noted, however, that the effectiveness of 
the inspectors would be enhanced if Iraq fully cooperated with 
the inspection teams. Iraq's record was''--and here is a 
quote--``was far from satisfactory,'' unquote. That is the 
French point of view on this question to the Security Council.
    Senator Allen. OK. When will Dr. Blix add into his report 
the listing of the proscribed activity being violated insofar 
as the missile range matter? Or is that in the report? I 
thought there was an insinuation that it would be.
    Ambassador Negroponte. There is an issue as to what to do 
about those missiles that have been tested beyond the 150 
kilometers and also the 360, I believe, rocket motors that have 
been imported illegally, which he has expressed serious concern 
about. And in reply to a question that I put to him in the 
Council yesterday, he said that he expected to come to a 
decision as to what to do about those proscribed items prior to 
February 14.
    Senator Allen. OK, thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Allen.
    It is a pleasure to welcome Senator Corzine, from New 
Jersey, to our committee, and I ask you for your first initial 
burst of questions.
    Senator Corzine. Thank you, Mr. Chairman and to the ranking 
member. It is an honor to serve with you all, and I am truly 
thrilled to be here, and I look forward to having an 
opportunity to delve into the depth of the issues that I think 
are so much deeply on people's minds.
    You know, I would just say that I do not think there is any 
debate, as a number of folks have said, that we have a real 
villain on our hands and a lot of--and a bad actor and that 
actions need to be taken. And the question has been and 
continues to be how and the timing. And I have some great 
concerns that we do not follow through in the direction that we 
are taking, which is to surround the bad guy with a lot of 
power, put inspectors on the ground, hopefully forcefully doing 
their job, whether it is disarming or verifying, as I think we 
have heard, or searching, and using the intelligence, which our 
country has--I mean, I am confused about the U-2 overflight, 
since we have satellites and enormous amounts of ability in our 
intelligence area to provide some--I think it should be shared 
so the inspecting process can be as complete as possible.
    But what I really want to ask is about the objectives, 
because the thing that confuses the people that I have to 
answer questions to is, What are we doing here? Is this about 
regime change? Is this about disarmament? Is it about U.N. 
efficacy? Is it about the imminent threat to the United States? 
Is it about proliferation? And how does this fit into--what 
kinds of precedents are we setting for American foreign policy 
as we go forward?
    There has been a lot of questioning. If it is about 
proliferation, what about shipments of arms that we have seen 
Iran send to Israel? What about missile shipments from North 
Korea that we intercept? Things that are tangible and 
understood by the American people.
    We hear one shoe size does not fit all, but there are grave 
inconsistencies with a lot of these various elements of what 
our objectives are, and I think we need to be clearer on this, 
and particularly when people hear us make the case that there 
is imminent threat to our homeland. And I do not understand the 
sort of questioning that Senator Feingold brought out with 
regard to proliferation, because, in fact, we may be 
encouraging proliferation if it is a last resort by such a 
rogue regime as Saddam Hussein has in place.
    So I would love to hear some clarity about objectives, but 
then translate it into, How are we going to use the example of 
what we have said here to apply to the balance of how we deal 
in the world, going forward, for our foreign policy.
    Mr. Armitage. Wow. Thank you, Senator.
    I am tempted to be irreverent and say the answer to the 
objective is yes to all of the above. And I guess, to some 
extent, there is a bit of each of it. But let me try to give it 
clarity. You will tell me if I make it or not.
    The previous administration and our President had a regime 
change policy, and it said something like--I do not have the 
exact quote with me, that ``sooner or later Saddam Hussein will 
use these weapons.'' When this administration came in, we also 
agreed that regime change in Iraq was the appropriate way to 
move forward. I think that 9/11 changed a lot, and it certainly 
raised our anxiety level to an extreme degree.
    The President, then, heeding advice that he got from, among 
others, members of this body, decided to go to the U.N. to try 
to get the international backing for a policy of disarmament, 
and that is our policy. The President said, if, in fact, truly 
and completely, that Iraq disarms, it will, in fact, be a 
changed regime. It is clear to us now, at least thus far, that 
there is no cooperation. And you will make your own judgment on 
whether you agree with that or not.
    So right now, until the President makes a decision to use 
force, this is a disarmament regime. That is what we are about 
and we are trying to engage the international community on 
that.
    On the question--the broader question of, ``How does this 
fit in to other nonproliferation regimes?'' I think it is 
exactly in consonance with what we are trying to do in Korea 
and what will be the subject of Tuesday's hearing.
    We are also trying to engage the international and the 
regional leaders in Korea in finding a solution to the vexing 
question of the North Koreans' possible restarting of their 
facilities. And so it seems to me completely consistent in both 
areas.
    While, without giving up our own ability and the necessary 
authorization for a President to make a decision for whatever 
he feels is necessary in self-defense, we are trying to work 
with the international community to lower the danger to all of 
us.
    Senator Corzine. In those other instances, then--North 
Korea being a hypothetical example--I presume that if we were 
to look at the precedent that we have with regard to Iraq, we 
would also then come to Congress to ask for a use-of-force 
resolution, go to the United Nations with a similar sort of 
request if there is not the kind of disarmament. Is that the 
lesson to be learned on how we are going to apply foreign 
policy lessons and examples that we are practicing here? Which 
I think is very worrisome to the American people.
    Mr. Armitage. Senator, I do not think we have learned a 
lesson yet out of this. If--the suggestion you make about 
coming back to the U.S. Congress for authorization in any 
situation is a very dicey one. We have had--and I have had 
several discussions with Members about that.
    But I want to be clear about one thing, that we understand 
the absolute necessity of reporting through the Members of 
Congress to the American public, and we understand who does 
what. And we understand--in terms of our responsibilities--and 
we understand that our Nation works best when we have the 
necessary tension between our executive and legislative branch. 
But, at the end of the day, we come to either a compromise or a 
decision, and we move forward.
    That is short of saying, ``Absolutely, Senator, we are 
coming back for authorization,'' because everyone up here knows 
I cannot say that, and it will be situationally dependent. But 
everyone up here also ought to know that everybody in this 
administration understands completely the need to be as closely 
aligned with the U.S. Congress, and the U.S. Senate, in this 
case, as possible. But I cannot give you the satisfaction you 
would like to say, ``And we'll be here for an authorization'' 
in one situation or another.
    The Chairman. Thank you very much.
    It is a pleasure to greet four new Republican members to 
our committee. Ad seriatim, they will now ask questions. First 
of all, Senator Voinovich, then Senator Alexander, then Senator 
Coleman. Senator Sununu was with us earlier and may reappear as 
his turn comes.
    Senator Voinovich.
    Senator Voinovich. Thank you, Mr. Chairman.
    I would like to just say to you I am honored to be a member 
of this committee at a time that I think is probably one of the 
most critical periods in our Nation's history, in terms of our 
international challenges with the Middle East, with Pakistan, 
India, North Korea, Iraq--the list goes on.
    Second, I would like to thank you, Mr. Chairman and the 
ranking member, for the courtesy that you have extended to me 
during the last several years in regard to my interest in 
southeast Europe and NATO expansion. You have been very, very 
good to me, and I am grateful to you.
    I would ask that the statement that I have prepared be made 
a part of the record.
    The Chairman. It will be done.
    [The prepared statement of Senator Voinovich follows:]

           Prepared Statement of Senator George V. Voinovich

    I would like to thank the Chairman, Senator Lugar, for convening 
this hearing today to discuss the status of U.N. weapons inspections in 
Iraq. As we continue to wage a global campaign against terrorism in a 
changed world post September 11th, it has become increasingly clear 
that the threat posed by Saddam Hussein cannot be ignored.
    It is not just Saddam Hussein's history as a neighborhood bully who 
has repeatedly defied the United Nations, committed egregious human 
rights violations against his own people, and supported terrorists that 
makes him such a threat to regional stability, but it is the nexus 
between the dangerous and unpredictable behavior of this despotic ruler 
and his possession of chemical, biological and, possibly, nuclear 
weapons that causes us such grave concern.
    We are talking about a man that has used chemical weapons against 
his own people, and would surely use these weapons or even more 
devastating means to satisfy his craving for regional power, if we give 
him the opportunity to do so.
    As President Bush warned in his address to our nation on Tuesday 
night, Saddam Hussein could create deadly havoc in the Middle East by 
using--or even threatening the use--of weapons of mass destruction. And 
he could do even more harm as we are forced to take into consideration 
what is almost unthinkable in the aftermath of the attacks against the 
World Trade Center and the Pentagon: passing on these weapons of mass 
destruction to terrorists who have demonstrated the willingness and the 
ability to use them. As the President said, ``We will do everything in 
our power to make sure that that day never comes.''
    I strongly support the President's decision to continue engaging 
with members of the international community, sending Secretary of State 
Colin Powell to the U.N. Security Council next Wednesday. As I remarked 
on the Senate floor last October, I felt it was ``. . . not only 
appropriate but essential that members of the United Nations come 
together to confront Saddam Hussein.'' Further, I applauded the 
President for ``challenging the United Nations to reaffirm its 
relevance by standing up to Iraq.''
    The efforts of our President and Secretary of State were 
successful, as the Security Council sent a strong sign of resolve to 
Saddam Hussein last fall when in it unanimously passed U.N. Resolution 
1441 on November 8, 2002. Acting in unison, fifteen countries were 
clear in their message, giving Iraq ``a final opportunity to comply 
with its disarmament obligations.'' The members of the Security Council 
called on the Iraqi regime to readmit weapons inspectors, to fully 
cooperate, and to fully disclose and account for deadly agents known to 
be in Saddam Hussein's arsenal at the end of the Persian Gulf War.
    The members of the Security Council were also clear in the event 
that Saddam Hussein should again choose to ignore the will of the 
United Nations, warning that the Iraqi regime ``will face serious 
consequences as a result of its continued violations of its 
obligations.''
    While it remains my most prayerful hope that Iraq will choose to 
comply with the United Nations and disarm, the findings presented 
before the Security Council by chief U.N. weapons inspectors on Monday 
tell all of us that the most crucial questions posed to the regime in 
Resolution 1441 remain unanswered. Deadly agents with the potential to 
inflict mass casualties--anthrax, sarin, mustard and VX nerve agents--
remain unaccounted for. The whereabouts of thousands of warheads 
designed to deliver chemical weapons--with the exception of 16 found 
during the last several weeks--remain unknown. Scientists have not been 
permitted to talk with U.N. inspectors. Documents with information on 
nuclear weapons programs have been hidden in people's homes. The list 
goes on.
    UN Resolution 1441 required a ``currently accurate, full, and 
complete declaration of all aspects of its programs to develop 
chemical, biological and nuclear weapons.'' It also required this 
report to include precise locations of these weapons and the locations 
of places where research is conducted. This has not been done. The 
American public should know that Saddam Hussein is in material breach 
right now.
    As his predecessors before him, President Bush must confront 
challenges to our national security and act to protect Americans and 
our friends and allies abroad. While it is my hope that diplomacy will 
prevail and Iraq will disarm, we must consider the course of action we 
will take in the event that it does not. As President Bush remarked in 
his State of the Union address earlier this week, ``We will consult. 
But let there be no misunderstanding: If Saddam Hussein does not fully 
disarm, for the safety of our people and for the peace of the world, we 
will lead a coalition to disarm him.''
    Our nation went to war to fight Hitler's Germany. We went to war 
when the Japanese attacked Pearl Harbor. We used military force to 
liberate Kuwait. At each point, we judged our national security 
interests to be at stake, and we acted accordingly. Our nation is again 
vulnerable, open to new kinds of threats with the potential to do harm 
that is far greater in scope than the devastation experienced at Pearl 
Harbor. Tragically, we learned this lesson on September 11, 2001. It is 
even more frightening to contemplate the extent of the damage on that 
day had the terrorists had at their disposal chemical, biological or 
nuclear weapons. Without a doubt, we cannot let Saddam Hussein continue 
to have weapons of mass destruction, posing a threat not only to us, 
but the world at large.
    This hearing is an important step in our efforts to assess the 
challenges before us and to determine action to confront them. I again 
thank the Chairman for holding this hearing to continue this dialogue. 
I would like to thank the witnesses, Secretary Armitage and Ambassador 
Negroponte, for taking time to talk with us today. I look forward to 
your testimony.

    Senator Voinovich. I would like to say that I was one of 
the early supporters of the resolution that gave the President 
the authority to do what was necessary to enforce the U.N. 
resolutions in Iraq. I recall, when it was first brought up for 
discussion, that I called the White House and said I was not 
satisfied with the information that I had regarding the 
situation in Iraq and several of my colleagues were present at 
a meeting with Condoleezza Rice and with George Tenet, where we 
got some good information. We then went over to the State 
Department, and got more information. And I was convinced, as a 
result of those meetings, that Saddam Hussein has weapons of 
mass destruction.
    I have never gotten so many letters and calls being against 
something as I did this resolution since I was in the Senate. 
And I indicated to the people that wrote to me that I had 
enough confidence in this administration that they would do 
what the resolution required to exploit their diplomatic 
options. You did that.
    I think it was extraordinary, Mr. Ambassador, that you were 
able to get a vote out of the Security Council for a very 
strong Resolution 1441. And I had the pleasure of spending some 
personal time with Secretary Powell when I was in Prague at the 
NATO summit. And again, I was convinced of his sincerity to do 
everything he possibly could do, no stone unturned, to try and 
work this out diplomatically. And you should be congratulated.
    We now have the inspectors' report back, and the real 
question is--as I think you said, Mr. Ambassador, ``The 
diplomatic window appears to be closing, and the time for 
decisionmaking is approaching.'' The real issue here is, Will 
Saddam Hussein accept disarmament?
    And there is this discussion about, you know, whether we 
should wait for 6 months or another year or whatever it is. And 
as you said, Mr. Armitage--12 months, 2 months, and a few days, 
is a very long time--what has been going on? He has been stiff-
arming us for a long, long time. And the questions is, Do we 
have any reason to believe that if we give him another 6 months 
of inspectors, and you multiply them four-fold, whether it will 
make any difference, in terms of getting at the real issue, and 
that is, is this man willing to disarm? Does he get it? Does he 
understand that he has got to come clean or leave? That is the 
real issue here.
    And we are getting to a crescendo now, and I would really 
like to know. Do you think it will make any difference if we 
give him 6 months or a year?
    Mr. Armitage. I do not see a sign. I do not see one single 
sign that he has gotten the message. I do not see one single 
sign of cooperation, Senator.
    Senator Voinovich. Mr. Ambassador.
    Ambassador Negroponte. The only point I would add, and even 
the inspectors, themselves, have said this--that even the 
modicum of cooperation that they have gotten with respect to 
process has been--they would attribute to the pressure that 
Iraq has felt as a result of 1441 and as a result of our 
military buildup. And they acknowledge that publicly. But I 
agree fully with Secretary Armitage that, thus far, there are 
no signs that he is prepared to cooperate.
    Mr. Armitage. If I may, Senator. And the shame of this is, 
we want this disarmament to take place. We want Mr. Blix and 
his colleagues to be successful, because, as was alluded to by 
some of your colleagues up here, we have got other dangerous 
situations, and we would like to have the international 
community be part of the solution. But I do not see a sign.
    Senator Voinovich. Well, the question I have got is this: 
Our allies ought to understand that Saddam Hussein has got the 
stuff. And yet they say we need more proof. Now, are they 
asking for it because they need to improve public relations 
with the people back in their country, or is it because they 
just do not want to face up to the responsibility that we may 
have to use force to get the job done?
    Mr. Armitage. I am not sure I know all the reasons why. I 
think they want to evade--some want to evade responsibility, 
some do not want to step up and lead. And I do not know how we 
got in this situation of having to have the, quote, ``smoking 
gun.'' There was no smoking-gun reference in 1441. It was 
accepted that he had evaded, obfuscated, and confused, the 
possession of these weapons for 12 years. So it was up to him 
to disarm. But somehow as we move forward, we have gotten in to 
the question of, ``You've got to make the case.'' And we have 
gotten averted here.
    Senator Voinovich. Are you confident that if we do have to 
use force, that we are going to have some of our international 
brothers and sisters with us?
    Mr. Armitage. I am, Senator. And without getting into the 
numbers, there are quite a few military liaison people in Tampa 
who are--liaison with CENTCOM on just that possibility.
    The Chairman. Thank you very much, Senator Voinovich.
    Senator Alexander.
    Senator Alexander. Thank you, Mr. Chairman. And first, it 
is a real privilege to serve on this committee with you as 
chairman and Joe as the ranking member and to look forward to 
working here in such a serious time for our country. So I look 
forward to this very much. Thank you.
    And I want to thank the Secretary and the Ambassador for 
being here today. I appreciate the time that you have spent 
with us, or the administration has.
    We have been here 3 weeks, those of us who are new. And we 
have had at least three meetings with Secretary Powell, 
including one this morning that was a bipartisan briefing of 
all the new Senators. And we have had another meeting with 
Secretary Powell and Secretary Rumsfeld. That was available to 
all the Senators. And then we had another meeting with 
Secretary Rumsfeld. And that is in the last 3 weeks. And I 
welcome that, and I thank you for it. And I do think it is 
appropriate.
    One of the advantages of being new is you get to hear what 
all the others have to say before they get to you. And so here 
is what I think I have heard. I hear a lot of comments----
    Senator Biden. You will get tired of that very quickly.
    Senator Alexander. Oh, no, I can learn a lot that way.
    But starting with Senator Biden, I think I heard a lot of 
common ground. I think I heard common ground about the fact 
that we are talking about enforcing a surrender document. I 
think I heard common ground in that we agree Saddam Hussein 
must disarm. I think I heard it--and when most members said, 
maybe all, that while we should be prepared to do it ourselves, 
we should work as hard as we possibly can to make sure we do 
not ever have to do that, that there are a hundred reasons not 
to go it alone in this situation, if possible.
    I heard it said by virtually everybody, this is a grave 
danger, and I particularly appreciate the vividness of your--
one teaspoon of anthrax brought the Senate--half the Senate 
offices--emptied them out and killed five people in a post 
office without even opening the envelope, I believe. And they 
have got enough anthrax in Iraq for 5 million teaspoons of 
anthrax.
    And I believe we all seem to agree that the support of the 
American people and their understanding is absolutely essential 
to anything that we do, especially any sort of military action, 
because we never want to have a military action unless we can 
see it all the way through to the end with the full support of 
the American people. So there is a lot of agreement here, it 
seems to me.
    I want to focus on a question of terminology. I think, to 
the extent we are losing the discussion in the court of world 
opinion, in the mountains of Tennessee, where some people are 
doubting it, or on the streets of Paris, it may be in the first 
sentence, when we talk about ``inspectors'' and 
``inspections,'' because I think those are misnomers, in terms 
of what we are talking about.
    When you say ``inspector,'' at least in this country, it 
engenders a vision of Inspector Columbo, some detective, 108 
detectives running around California looking for something that 
might be the size of this glass of water [indicating]. And the 
question is, Do we give them enough time to find that?
    That is not really what we are doing there. We are not 
looking for a suspect. I mean, Saddam Hussein is a felon. He is 
a convicted felon. I mean, he did this. There is no doubt about 
that. We did not say that; the United Nations said that, and 
they began to say it 12 years ago. So he is a felon. And these 
U.N. folks who are over there are not really inspectors; they 
are more like Saddam Hussein's parole officers or probation 
officers.
    Now, I may not have the terminology exactly right. I even 
was thinking about moonshiners a hundred years ago in the 
mountains of Tennessee, you know, what they would do--they 
would catch them--the revenuers would catch them, and then they 
would haul them before the judge, and he would basically say to 
them what we have said to--what the world has said to Saddam 
Hussein, ``You did it. You are convicted. You have done it 
before. You are a notorious criminal. Now your sentence is to 
tell us all about it, destroy it, prove it, or we will come do 
it for you.'' Now, that is basically what the world has said to 
Saddam Hussein. And it seems to me that too much of our 
discussion by the second sentence is into this business of 
inspectors and inspection, when we are talking more about 
convicted felons and parole officers.
    Now, maybe you could improve on my terminology, but I think 
that first sentence is an important part of what needs to 
happen in the next couple of weeks.
    Mr. Armitage. Senator Alexander, first of all, I--we were 
very grateful--I mentioned to the chairman, you and some of 
your colleagues, Senator Coleman, Senator Sununu--coming down 
this morning, spending some time with us. We are at a great 
disadvantage appearing before you, Senator Alexander. We are 
not sure whether to call you Secretary Alexander, Governor, or 
Senator.
    So it is a little trepidation for John and me to sit here 
in front of you.
    I would like to, sort of, add to your title. We ought to 
make you press spokesman, because you were much more vivid. You 
gave me credit for having a vivid description of anthrax, but 
you were much more vivid and, I think, in an accurate 
characterization of the way things ought to be.
    I was expressing a frustration that we have somehow got 
perverted, because all of a sudden it was on us to prove a case 
that the United Nations and the Security Council Resolution 
1441 said was on the shoulder of Saddam to prove that he was 
disarming. So had we used this more vivid terminology--and I 
think ``felon'' and ``parole officer'' is perfect--we maybe 
would not be in quite this jam. But I suspect you will see some 
of your comments being appropriated by others as we move 
forward to describe this, sir.
    Senator Alexander. I have one other question, if I may, Mr. 
Chairman, that relates to vividness, too.
    Like your teaspoon-of-anthrax comment as you began your 
testimony, the President said the other night that, from three 
Iraqi defectors, we know that Iraq, in the late 1990s, had 
several mobile biological weapons labs. These are designed, he 
said, to produce germ warfare agents, and can be moved from 
place to place to evade inspectors. Saddam Hussein has not 
disclosed these facilities. He has given no evidence that he 
has destroyed them. Now, that is a very vivid image to me. And 
I think it could be to most people in the world. I mean, mobile 
biological weapons labs moving around the desert.
    Now, you have also said there are 5 million teaspoons of 
anthrax. I mean, is that anthrax in those labs? Are they 
driving around escaping? I mean, that is a vivid image to me. 
Can you tell us any more about those mobile biological weapons 
labs?
    Mr. Armitage. This is one of the things, sir, that we will 
be speaking of in New York on Wednesday. But I just want to say 
something. We would be delighted if these labs were running 
around the desert. The problem is, they are parked, we believe, 
in either one of the many, many, many underground facilities or 
in someone's garage. And that points to the difficulty of the 
parole officers finding out whether he is disarming or not.
    I would be delighted if they were in the desert, because if 
they were in the desert, we could take care of business. But we 
do not believe that. We believe they are hidden in one of these 
many tunnels or underground facilities or garages.
    And if Saddam Hussein has destroyed them, then he ought to 
show us some--any smidgen of proof, but he has refused to do 
so.
    Senator Alexander. Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Alexander.
    Secretary Armitage, let me just mention, the next 
questioner is a fellow mayor.
    And so--while you are adding to the titles of all the good 
people, as, for instance, Senator Chafee was, in an earlier 
life.
    Senator Coleman.
    Senator Coleman. Thank you, Mr. Chairman. I would note we 
have three mayors and we had three former Governors, I hear.
    And Mr. Chairman, let me first note, if I might, being 
honored by being part of this committee. I would suspect that 
the timeliness of this hearing is probably a mark of the vigor 
and role of the chairman that this committee intends for the 
Foreign Relations Committee to play in these important, serious 
matters confronting us.
    The Chairman. Thank you.
    Senator Coleman. And so I thank you for the opportunity and 
thank you for your leadership.
    We have--as I have listened, as my distinguished colleague 
from Tennessee has listened, there has been discussion about 
history, discussion about the present, and obviously deep 
concern about the future. Would it be fair to say that living 
in this post-9/11 world, that the impact of 9/11 changed some 
of our thinking about what does the word ``threat'' mean, that 
the reality of anthrax deaths in the United States has 
transformed or changed the paradigm, we are on a different 
track, in terms of perhaps that we are more vulnerable, 
perhaps--and I just--two other observations--that the threats 
of the use of weapons of mass destruction by states or 
terrorists is of greater concern, and that the failure to 
account for what we know to be the presence of weapons of mass 
destruction--biological agents, delivery systems for these--is 
at a magnitude unprecedented for us?
    Mr. Armitage. Senator--mayor, it is absolutely fair to say 
that. We, after 9/11, all of us, came to the conclusion that no 
longer were we safe behind the continental limits imposed by 
our two great oceans. And it brought forward in our minds all 
of our thinking and fears about weapons of mass destruction, 
delivery systems, and the other items you mentioned, sir.
    Senator Coleman. To me, Mr. Secretary, it would seem that 
when we look at--when we reflect on this question of time, for 
12 years we let Saddam Hussein thumb his nose at the United 
Nations. But time is a much more serious factor right now, 
because we know that, in the blink of an eye, the potential for 
death and destruction right here is greater than it has ever 
been.
    I would note that. And I want to reiterate something the 
distinguished ranking member noted about keeping it simple, and 
I think Senator Alexander said that. It is so important. I 
cannot tell you that the folks in St. Paul or St. Cloud or, you 
know, the streets of Minnesota really, fully are with us right 
now. There was discussion--I have to ask this. Can you define 
``proliferation'' for me, in average terms?
    Mr. Armitage. I guess, in average terms, I would say it was 
an unregulated delivery of bad items to bad people for them to 
accomplish bad purposes.
    Senator Coleman. If I can followup from one of the 
questions that the distinguished Senator from Wisconsin asked, 
he raised the question--I guess I would ask the question, Does 
Iraq's potential to use weapons of mass destruction--their 
potential to distribute weapons of mass destruction to 
terrorists, rather, is that tied to--what is the relationship 
between that and whether they are the No. 1 or No. 3 or No. 6 
proliferator in the world?
    Mr. Armitage. I think it is the combination of unquestioned 
thirst for these weapons combined with his history, his bloody-
mindedness. Where, as we have said, someone has said, he has 
sacrificed more than a million of his youths in his attempt to 
invade Iran. He then tried to subjugate Kuwait. And he has used 
this against his own people. And then there is a whole catalog 
of things that he has done to his own people, not because the 
United States--it is not the United States that is saying he 
has done these things. Amnesty International has catalogued his 
rapes and torture, et cetera. And so it is the combination that 
makes him, for us, so loathsome.
    Senator Coleman. Two other points. One, and it gets to the 
issue of--and maybe it is the old lawyer in me; I am a former 
prosecutor--but burden of proof. I think we got hung up in 
discussion about smoking guns and looking for smoking guns, 
smoking guns in a State the size of California. The issue here 
is burden of proof. The burden of proof is on Saddam Hussein to 
say that what he had, he has no more; that what he has used 
before, he has the capacity to use no more. And whether it is 1 
month or 3 months or 6 months or 12 months, if he does not come 
forward right now and say, ``Here it is,'' then that is a 
problem.
    And what we are saying and what I am hearing is that we are 
not seeing any indications that--either to us, or our allies 
are saying that he is coming forward and meeting his burden of 
proof.
    The last comment, and it has to do with the issue of 
nuclear, which we had a lot of discussion about for a while. It 
was Dr. ElBaradei, in his report, I thought, seemed to discount 
that. And yet I would like to ask--there was a report noting 
that 3,000 documents relating to the laser enrichment of 
uranium were found in a private home, so I would suspect there 
are a lot of those and you would need a lot of inspectors to 
check out every private home. Could you help me understand the 
relationship of those documents, what we know, to Iraq's 
potential to develop the nuclear capacity?
    Ambassador Negroponte. Well, I think that those are 
documents that are still being analyzed. But I think, in terms 
of--it certainly shows that there are still scientists there 
who have these kinds of documents. And I think that it is a--
also an example--especially, I believe I mentioned in my 
testimony, that these documents were found on the basis of an 
intelligence tip. I think it is proof that the Iraqi regime is 
taking steps, in its program of denial and deception, to 
disperse documents of this kind to its private citizenry to 
make it harder to find. So I think it fits very much into the 
pattern of denial and deceit that the Government of Iraq is 
pursuing as a policy.
    Senator Coleman. And do we know whether these documents, 
Mr. Ambassador, were contained in the December 7, 2002, 
declaration from Iraq regarding its weapons of mass 
destruction?
    Ambassador Negroponte. I do not know the answer to that 
question, but I can certainly find out and submit it for the 
record.
    [A classified response was subsequently received.]
    Senator Coleman. Thank you.
    The Chairman. Thank you, Senator Coleman.
    Let me mention that Senator Hagel and Senator Voinovich 
have asked that their statements be made a part of the record. 
And without objection, that will be done.
    [The prepared statement of Senator Hagel follows:]

               Prepared Statement of Senator Chuck Hagel

    The reports that Drs. Blix and ElBaradei presented to the UN 
Security Council reveal that Saddam Hussein has not fulfilled his 
obligations to disarm, as he is required to do by UN Security Council 
Resolutions. His time is running out. While the inspectors have asked 
for more time to complete their tasks, that time will be of little 
value without the cooperation of Saddam Hussein's government.
    As we weigh our options for the next steps in Iraq, America needs 
the support of the Security Council and our allies around the world, 
especially if force is required to disarm Saddam's regime. We should 
not dismiss the concerns of our allies and others about American 
intentions in launching what will likely be a pre-emptive war against 
Iraq. Bridging the gap between America and our allies on the threat 
from Saddam Hussein should not be a bridge too far, given the nature 
and practices of Saddam's government. Beyond any military action we 
might take in Iraq, the scope of assuring a stable and hopefully 
democratic transition in a post-Saddam Iraq is a heavy burden that 
America should not, need not, and cannot take on essentially alone. 
What begins in Iraq will not end in Iraq. Iraq cannot be considered in 
a vacuum, or as an end game for peace in the Middle East. What we do in 
Iraq has implications for our efforts in the war on terrorism, the 
Middle East, Central and South Asia, and throughout the Muslim world.
    I support the President's decision to have Secretary Powell present 
U.S. evidence against Saddam Hussein before the UN Security Council on 
February 5. The burden remains on Saddam Hussein. But our hand is 
strengthened by making a strong and credible case to the world about 
what we know about the Government of Iraq's proscribed weapons 
programs; its concealment practices; and its links to terrorist groups. 
At this critical juncture, the stakes are too high for us to hold back.
    I look forward to the testimony of our witnesses today, to 
Secretary Powell's testimony before our committee next week, and to the 
February 11th hearing on The Future of Iraq.

    The Chairman. The committee will now commence a second 
round of questioning for those Senators who wish to 
participate.
    Let me start with a question raised by another Senator 
about the mobile vans. Aa I have commented to my colleague, 
Senator Biden, it seems to me a fairly short time ago the issue 
of the mobile vans was classified, or maybe heavily classified. 
It was not appearing on lists of the U.N. or others, for that 
matter. In any event, the mobile vans are now being discussed 
in the press, and they have been discussed here today. They are 
important, I think, for our understanding of the larger issue.
    I would like to know how much more you can fill in for us. 
Many Americans are not acquainted with biological weapons or 
materials or laboratories or anything associated with this. 
What has been alleged with regard to Saddam Hussein is that 
some of the developments with the biological materials have 
occurred in very small spaces and with relatively small 
equipment that had dual use, that could, in fact, be broken 
down, put in a mobile van and literally carted down the road a 
hundred miles.
    Now, if there were not an inspector there in the last 15 
minutes or so, confirming the presence of this activity would 
be impossible. That is the nature of chemical weapons in many 
ways. And as the Secretary knows, because we have discussed 
this in public hearings, my experiences in Russia have 
confirmed for me how rapidly you can move things, how very 
difficult it is, even if you are looking at it, to know what 
you are looking at. I am not as gifted as the UNMOVIC 
inspectors. But having looked at a lot of chemical and 
biological weapons in Russia, I can attest that without 
cooperative Russian experts, instructing me on what happened in 
various years, and why some apparatus that is now making 
perfume or fertilizer was, even a week ago, making anthrax, 
many clues would be impossible to comprehend.
    But I would say this is the nature of the problem with 
regard, at least, to biological and chemical weapons 
activities. And therefore, requiring inspectors to find this 
clearly goes beyond finding a needle in a haystack; it is 
impossible. It is possible to hide it every day, every bit of 
it, and literally to take it miles away where no one will see 
it again.
    So I think it is fair enough for our fellow citizens to 
say, ``Show us the beef,'' lay it out on the table, as Adlai 
Stevenson did with the Cuban Missile Crisis. But in these two 
instances, not only is this virtually impossible, but the whole 
character of the search changes--in the case of dual-use items, 
from those things that are benign to those things that are 
deadly.
    Now, the nuclear situation is a different one, as many have 
pointed out. In this case, the allegation is not that Saddam 
has a nuclear bomb or a warhead filled with nuclear material. 
He might. And therefore, the traces of those things that are 
telltale signs, including perhaps hundreds of pages of 
scientists' notes as to how you develop a program and who was 
involved in it and all of that could be very interesting, and 
all of that could be found, even if a bomb is not, thank 
goodness. And it is to avert the bomb ever being available that 
we are talking about these issues and asking--and demanding 
Iraq cease and desist the effort to create such a monster.
    But with regard to the mobile vans, can either of you 
indicate to the committee what information is available? And 
are you releasing material, have you done so, or can you 
illuminate this subject at all?
    Mr. Armitage. Thank you, Senator.
    On the direct question of the mobile vans, other than 
acknowledging it, and acknowledging, as I did earlier, that 
this is one of the things that Secretary Powell is working, as 
I said, feverishly right now to get at a sufficient level of 
declassification so that we can talk more openly and show to a 
wider public more graphically the existence of these. I cannot 
go beyond it.
    But I do want to push back a little bit, sir, on the notion 
of the Adlai Stevenson moment, because it gets to the question 
of who has got the burden of proof. What Secretary Powell is 
going to attempt to do in the United Nations, and he has said 
he was going to be showing some new intelligence and some new 
information that has not been seen before. But he is also going 
to try to fill in the blanks following up on what Mr. Blix has 
said when he talks about a lack of cooperation, ``Here's what 
we know about it,'' and lay it out in, hopefully, rather 
graphic terms and in ways that are extraordinarily credible for 
all to hear and that no one will be able to evade the absolute 
conclusion about Saddam Hussein's denial, deception, and his 
absolute lack of willingness to show any sign of a disarmament 
motive in his mind.
    The Chairman. I thank you.
    And Senator Biden.
    Senator Biden. Let me say that I am sure--and I think this 
has been a good exchange. And each of--not each; many of our 
colleagues said that--after the opening statements by the 
chairman and myself, that there is a lot we agree on; I mean, 
overwhelming agreement--which probably confuses the public at 
large when you have guys like me, and even occasionally the 
chairman and others, taking some issue with the administration 
on how they approach this subject.
    And I want to make it clear. I think the disagreements, to 
the extent they exist, are based on the risk assessment as it 
relates to timing. And to the extent there is disagreement, it 
relates to tactic, not strategy.
    I want to reiterate again, before I ask these next three 
questions, short questions, is what I think the goal is. I 
think the goal that we have is to separate Saddam Hussein from 
his weapons of mass destruction with the greatest possible 
support of the world that we can get, to reduce, in direct 
proportion, the risk we face in separating and, after 
separating, securing Iraq. That, to me, is the goal.
    And so where we have disagreements, and I do have some 
disagreements, and I will not embarrass anyone--either one of 
our witnesses. I know there are--have been significant 
disagreements within the administration on these questions.
    I would like to return to three points that have been 
raised by some of our colleagues. Senator Voinovich, who, by 
the way, has a keen interest in foreign policy--and I want to 
compliment him on his deep involvement and hands-on 
involvement, particularly as it relates to the Balkans and 
working with this committee when he was not on the committee--
he said the question is not, Will Saddam--he said the question 
is, Will Saddam respond if he's given more time?
    This is a tactical difference we have. I think the question 
is, If we give more time, will that markedly increase the 
support we get from the rest of the world, and weigh that 
against the risks?
    So the question, for me, is, Will the additional time given 
increase the risk beyond the support we will get by allowing 
more time? And so that is--I just want--I know we have a 
disagreement on that, but that is where I come from on this.
    So I sit down and I say, the value--not the legitimacy, not 
the justness, not the equities--this guy does not deserve 
another tenth of a second, but by giving him another 3 weeks, 3 
months, or 6 months and not moving until the next ``cold,'' 
quote/unquote, season in their--in the late fall, what is the 
risk of doing that relative to the amount of support we would 
pick up, making our overall job, which is going to be immense, 
in my view, easier? And that is a tough question.
    But I do not think the question is, If we give him more 
time, is he more likely to cooperate? The more time we give 
him, the less likely he is to cooperate, in my view. But the 
question is, Does his failure to cooperate increase the risk in 
a way that outweighs the risk of going with fewer people, less 
support when we go? That, to me, is the issue.
    Now, I realize that maintaining the deployment of a 
hundred-plus-thousand forces in the region is costly. I would 
just raise, for--as a question to be considered--it is a heck 
of a lot more costly to deploy those forces with fewer people 
helping us, and less commitment to mop up after it is over. 
Now, again, that is a tough call.
    Are we going to--am I going to second-guess the President? 
No. But I am going to front-end guess it. I am going to front-
end guess it. I come down on the side of suggesting that 
another several months is not something that in any way 
appreciably increases any risk.
    The second point that I want to make is that you point out, 
Mr. Secretary, Mr. Ambassador, what a bad guy Saddam is. And it 
is undisputable. But there is also another piece of history we 
have from the experts we have brought before this committee. 
Saddam Hussein has a long history, with good reason, of 
oppressing Islamicists, as well as his neighbors. The people he 
hates most are the clerics. They are the ones that hate him the 
most, because he is a secular leader.
    If you were just going to write the profile of Osama bin 
Laden and Saddam Hussein, Osama bin Laden would like to kill 
Saddam Hussein. Osama bin Laden hates Saddam Hussein. So the 
idea that there is a natural affinity here is contrary to 
history, recent history, and even not-so-recent history. That 
does not mean, in a crunch, he would not, in order to 
retaliate, adopt this slogan we have rejected that ``the enemy 
of my enemy is my friend.'' But that is the only circumstance 
under which there is any historical data to suggest he might be 
cooperative. That, I believe, is the consensus among most 
experts.
    The third point that I would like to make, and it was a 
comment made to me by a high-ranking official of a NATO country 
recently in Davos. I was making the smoking-gun argument as it 
not being relevant. I said, ``How do we get to that point?'' 
And this very high-ranking person, who both of you know, said--
and I am paraphrasing--I think this is a quote, but I will be 
precise and say I am paraphrasing--he said, Smoking gun was 
invoked by us in response to the hyperbole of a gunslinger, 
your President. Smoking gun was invoked by us in response to 
the hyperbole of your President--not my comment--a gunslinger.
    And I do not know how many times I heard from world leaders 
this past week, Who is the President to stand before us and 
petulantly look down and say, ``I'm growing impatient.'' You 
are a diplomat, Mr. Ambassador, and I do not want either one of 
you to comment, except to defend the President, because I like 
you too much. But if you used that language in the Security 
Council, even if everyone agreed with you, you would not get 
agreement. You would not get agreement.
    And so I am just suggesting that it may be time for us to 
understand that we have sort of concurrent objectives here. The 
concurrent objective is, take him down with the most help we 
possibly can get to maybe, maybe have a shot of putting 
together a more stable--with the help of the rest of the world, 
a more stable government that will be less destabilizing for a 
very important region of the world, which is when your work 
really begins.
    So I just really wanted to make those few points. I would 
invite response if you want to. It is not necessary. But as we 
go forward, no one should confuse my support for the overall 
objective that has been signed on by the President of the 
United States of America, but no one should assume that I will 
not have strong disagreements with the tactical approach the 
President uses to accomplish the end, just as, I would argue--
and I know for a fact, that there has been equally, equally 
energetic disagreement within the administration on tactics, as 
well. I am not odd man out on that regard.
    So at any rate, I just wanted to make that statement, and I 
hope that we can get--I have a couple of questions I would like 
to submit for the record, if I may--I will not take any more 
time--that relate specifically to the Kurds.
    We just got back from Kurdistan, as you know. You 
accommodated that trip. I would argue, as much as I love the 
Kurds--and I think Senator Hagel and I were the only two to 
ever address their ``parliament,'' quote/unquote--they have an 
overwhelming reason to make a connection between al-Qaeda and 
Saddam, and I found very little evidence of it. But they--their 
motivation for it is overwhelming. So we have to consider the 
source of some of this, as well.
    I yield the floor. I thank you very much, Mr. Chairman.
    The Chairman. I thank you, Senator Biden.
    Normally, I would turn to this side of the aisle, but 
Senator Nelson has not had a first round of questioning.
    Yes?
    Mr. Armitage. With your indulgence, sir, I am not going to 
respond at length, but I feel a need to respond a bit.
    When you were illuminating us on what you thought our 
shared objective was, I was writing it down, and it is to 
separate Saddam Hussein from his weapons of mass destruction 
with the maximum international support possible. Then I wrote 
``in the most timely fashion possible,'' and you have correctly 
identified that as one of the, perhaps, tension points.
    However, what is the President doing? He is meeting today 
with Prime Minister Berlusconi.
    Senator Biden. I agree.
    Mr. Armitage. What is he doing with Prime Minister Blair 
tomorrow?
    Now, the question of whether it is a week, 2 weeks, 3 
weeks, a month, or whatever, these are decisions that these 
world leaders will make. We also are desirous of getting the 
maximum international support possible. I do not think that is 
an insignificant amount of numbers that I was reading off to, I 
think, Senator Brownback.
    Senator Biden. And I would hope--with your permission, Mr. 
Chairman, I would ask to be submitted in the record an article 
from the Wall Street Journal today by the following leaders of 
the following countries--Spain, Portugal, Italy, U.K., Hungary, 
Poland, Denmark, and the Czech Republic--all of whom have 
signed on.
    All I am pointing out is, it is a call that ultimately the 
Chief Executive has to make. But I will not, as you would not 
expect, refrain from my suggestions as to what considerations 
should go into him making that call. That is the only point I 
wish to make.
    Mr. Armitage. The only other point, on your historical 
comments about Osama bin Laden and Saddam Hussein, are 
absolutely correct. After 9/11, a lot of things changed, 
including the need to be somewhere. There were some marriages 
of convenience I think that over time we will be able to show. 
And we have gotten a lot smarter about Osama bin Laden.
    And on the comment of differences in any administration, or 
this one, I think those are differences we are blessed with, 
because it is only from such differences that the Chief 
Executive can make the most informed discussion--or decision.
    And finally, on the question of the ``gunslinger'' and 
``smoking gun'' and all that----
    Senator Biden. It is not my comment.
    Mr. Armitage. Not at all, sir. Not at all. But you know, 
people were saying, prior to September, that the President 
would never go to the U.N., but he did. The same people that 
said, ``He'll never have the patience to see this through the 
mosh pit,'' if you will, ``of a Security Council discussion,'' 
and he saw it through. And having gotten the resolution, 
``He'll never have the patience to let the inspectors try to do 
their job and let Hans Blix report,'' all of which has been 
done. So I think there is a lot----
    Senator Biden. In large part thanks to your persuasion.
    Mr. Armitage. No, not at all; the President is in charge, 
and he is making these decisions, sir.
    Thank you.
    The Chairman. Your article will be submitted and, without 
objection, included.
    [The article referred to follows:]

             [From the Wall Street Journal, Jan. 30, 2003]

                  European Leaders In Support Of U.S.

By Jose Maria Aznar, Jose-Manuel Durao Barroso, Silvio Berlusconi, Tony 
        Blair, Vaclav Havel, Peter Medgyessy, Leszek Miller and Anders 
        Fogh Rasmussen

    The real bond between the U.S. and Europe is the values we share: 
democracy, individual freedom, human rights and the Rule of Law. These 
values crossed the Atlantic with those who sailed from Europe to help 
create the United States of America. Today they are under greater 
threat than ever.
    The attacks of Sept. 11 showed just how far terrorists--the enemies 
of our common values--are prepared to go to destroy them. Those 
outrages were an attack on all of us. In standing firm in defense of 
these principles, the governments and people of the U.S. and Europe 
have amply demonstrated the strength of their convictions. Today more 
than ever, the transatlantic bond is a guarantee of our freedom.
    We in Europe have a relationship with the U.S. which has stood the 
test of time. Thanks in large part to American bravery, generosity and 
farsightedness, Europe was set free from the two forms of tyranny that 
devastated our continent in the 20th century: Nazism and Communism. 
Thanks, too, to the continued cooperation between Europe and the U.S. 
we have managed to guarantee peace and freedom on our continent. The 
transatlantic relationship must not become a casualty of the current 
Iraqi regime's persistent attempts to threaten world security.
    In today's world, more than ever before, it is vital that we 
preserve that unity and cohesion. We know that success in the day-to-
day battle against terrorism and the proliferation of weapons of mass 
destruction demands unwavering determination and firm international 
cohesion on the part of all countries for whom freedom is precious.
    The Iraqi regime and its weapons of mass destruction represent a 
clear threat to world security. This danger has been explicitly 
recognized by the U.N. All of us are bound by Security Council 
Resolution 1441, which was adopted unanimously. We Europeans have 
reiterated our backing for Resolution 1441, our wish to pursue the U.N. 
route, and our support for the Security Council at the Prague NATO 
Summit and the Copenhagen European Council.
    In doing so, we sent a clear, firm and unequivocal message that we 
would rid the world of the danger posed by Saddam Hussein's weapons of 
mass destruction. We must remain united in insisting that his regime be 
disarmed. The solidarity, cohesion and determination of the 
international community are our best hope of achieving this peacefully. 
Our strength lies in unity.
    The combination of weapons of mass destruction and terrorism is a 
threat of incalculable consequences. It is one at which all of us 
should feel concerned. Resolution 1441 is Saddam Hussein's last chance 
to disarm using peaceful means. The opportunity to avoid greater 
confrontation rests with him. Sadly this week the U.N. weapons 
inspectors have confirmed that his long-established pattern of 
deception, denial and non-compliance with U.N. Security Council 
resolutions is continuing.
    Europe has no quarrel with the Iraqi people. Indeed, they are the 
first victims of Iraq's current brutal regime. Our goal is to safeguard 
world peace and security by ensuring that this regime gives up its 
weapons of mass destruction. Our governments have a common 
responsibility to face this threat. Failure to do so would be nothing 
less than negligent to our own citizens and to the wider world.
    The U.N. Charter charges the Security Council with the task of 
preserving international peace and security. To do so, the Security 
Council must maintain its credibility by ensuring full compliance with 
its resolution. We cannot allow a dictator to systematically violate 
those resolutions. If they are not complied with, the Security Council 
will lose its credibility and world peace will suffer as a result. We 
are confident that the Security Council will face up to its 
responsibilities.

    Messrs. Aznar, Durao Barroso, Berlusconi, Blair, Medgyessy, Miller 
and Fogh Rasmussen are, respectively, the Prime Ministers of Spain, 
Portugal, Italy, the UK, Hungary, Poland and Denmark Mr. Havel is the 
Czech President

    The Chairman. And Senator Nelson.
    Senator Nelson. Mr. Chairman, thank you.
    I want to pick up on something that Senator Biden said a 
couple of hours ago in which he talked about ``nation 
building.'' I went to Bosnia to have dinner, Thanksgiving 
dinner, with our troops, specifically for the reason, not only 
to give them the ``atta boys'' that they certainly deserve, but 
to understand what--folks thought that we were going to be in 
Bosnia for a year, and we are there now in the 7th year--nation 
building is going to be required in Afghanistan and in the 
aftermath of Iraq and wherever else we happen to have to 
confront terrorism where there is not a stable political and 
stable economic environment.
    And so I would just inject this thought, and that is why I 
wanted to come back to the committee. What I found in Bosnia, I 
was both pleased and, at the same time, a little concerned, 
because it is the National Guard that is performing the 
military duties--in this particular case, on Thanksgiving, it 
was a National Guard unit from Pennsylvania. And they are there 
for a 6-month tour of duty.
    Now, these are people that pick up from a civilian life, 
they leave their employer or their own place of business and go 
to defend the interests of the United States--in this 
particular case, Bosnia, very important, keeping those people 
from slaughtering each other as we try to implant some sense of 
rule of law, and hopefully it will be successful.
    Here is what concerned me, was the fact that as long as 
they were there for 6 months, they are doing the mission well. 
But if that 6 months suddenly got extended to a year, and then, 
they are ready to come home and suddenly they are diverted to 
Iraq instead of coming home, what we have got to do, as a 
matter of policy, is decide--can we rely--is it fair to rely on 
the Guard and the Reserves, who have the expectations of a 
limited time of active-duty service, or do we need, instead, to 
increase the active-duty military to take over this nation 
building that Senator Biden was talking about? And we are going 
to be confronted with this.
    Now, let me tell you, a year ago, the military chiefs asked 
for an increase of 60,000 active duty forces. That has since 
been erased from the agenda because the administration is 
saying, ``No, well, we don't need that.'' And what I want to 
raise to you all and invite any of your comments as we get 
around to this serious question of nation building in many 
nations, Do we not have to face the fact that we are going to 
have to do this with active duty and not with calling on the 
Guard and the Reserves? And particularly for the specialties 
that are needed, many of which are only found in the Guard and 
the Reserves today.
    I invite your comments.
    Mr. Armitage. Well, it is with great trepidation, because 
my reputation is already mud in the Pentagon so I will, sort 
of, try to weave my way through there.
    I saw Secretary Rumsfeld indicating his own dissatisfaction 
with the high OPTEMPO for the Reserves, the Guard, and, as you 
correctly, suggest, Senator, people who come on to do their 
duty and their job, but not forever, not to be away from their 
civilian employers, et cetera. And he is--I am sure he is 
looking at that, and he is expressing a great deal of 
dissatisfaction with it, and we will see how he wants to 
proceed.
    On the question of nation building, which the chairman is 
going to have a hearing on on Iraq--excuse me--well, on Iraq 
and Afghanistan--there are a lot of things we have to do 
differently. And after the pointed-edge-of-the-spear work is 
done if military action is called on, we have got to do a lot 
better and learn the lessons of Bosnia, whether it is to get 
retired police officers and others to fall in and do more of 
the job or some other way of doing business.
    Now, Secretary Rumsfeld went to Chile recently and had what 
I thought was an excellent suggestion, that you start, sort of, 
a--almost a carbonieri school in Chile for that hemisphere. I 
spoke with the Deputy Foreign Minister of Argentina about it 
yesterday, to actually train carbonieri, which are the people 
needed now in the Bosnia region. We have got the Italians in 
there quite heavily, the Spanish are in there, but they do not 
have many of those types of people. So there are a lot of 
things that we have to do differently, and the international 
community has to do differently, as we move forward.
    Nobody, I think, has anything but a deep gratitude for the 
sacrifice of the Guard and the Reserves.
    Senator Nelson. Mr. Ambassador, any comment?
    Ambassador Negroponte. No, thank you.
    Senator Nelson. Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Nelson.
    Senator Chafee.
    Senator Chafee. The hours are going on here, and I will be 
very brief.
    First of all, thank you for your generous use of your time 
in coming here. You have been very generous, and I appreciate 
it very much.
    And I would just comment that it seems that after the 
breakup of the Berlin Wall, the United States is finding itself 
at the top of the heap, and with that comes a lot of 
responsibility and a lot of risk, also.
    I asked the question recently in the office, ``Who is 
second to us militarily,'' and everybody had a different 
answer. But there really is no second. Someone said the U.K. 
or--who is second? There is almost--there is no second. And so 
with this position we have, so vastly superior, whether--
however you might judge it, in battleships or submarines or men 
and women, fighting forces, jets, bombers, whatever, however 
you might judge it, we are vastly, vastly superior.
    And I think the--our threat, as we look at the world, is 
going to come from rogue nations and from terrorists. And our 
best hope, as we look ahead decades from now, is to confront 
this threat under the umbrella of all the civilized countries 
working together.
    And there is a lot of justifiable criticism of the United 
Nations. But now, more than ever, I think we have to work 
through our good Ambassador to empower the United Nations and 
to listen to them more carefully. And we are going now into a 
new set of inspection rules. They are different from the old 
rules. They are much more strict. And they have not really been 
given the time to work, I do not think. And I think many of the 
other civilized countries are saying the same thing, let the 
new inspections, much, much stricter than the old inspection 
rules, work.
    And as we look ahead to the--for the future in the decades 
to come, our best hope from these various threats, wherever it 
might be around the world, many hot spots, is under the--
working together with our allies. And I think we have slowly--
with our somewhat arrogant position as top of the heap--
alienated some of our friends. And all the more reason for us 
to go back to the Security Council and to seek their approval 
as we go forward.
    But once again, thank you for your time.
    Ambassador Negroponte. Thank you, Senator.
    The Chairman. Thank you very much, Senator Chafee.
    Senator Boxer.
    Senator Boxer. Thank you so much, Mr. Chairman. Again, 
thanks to our witnesses.
    And I have found this to be extremely interesting, and I 
hope that you will take back some of our comments, whether you 
agree with them or not, and synthesize them for the Secretary. 
I think it would be really wonderful if you would do that.
    I want to pick up on Senator Biden's point about the 
difference as he sees it. I see it a little differently, but I 
share--one of the main differences is a question of timing. You 
admitted that. And some of us believe that to have the time to 
buildup the type of coalition we had in the gulf war would be 
well worth it.
    I would like to put in the record the coalition we had, it 
was 50 nations. They picked up $54 billion of the $61 billion 
of incremental costs. I would like to put into the record the 
coalition we had at that time.
    The Chairman. It will be put in the record.
    [The information referred to follows:]

final report to congress [excerpt from]

Conduct of the Persian Gulf War

Pursuant to Title V of the Persian Gulf Conflict Supplemental 
Authorization and Personnel Benefits Act of 1991 (Public Law 102-25)

April 1992--For Those Who Were There

                         initial world response
    The international coalition that opposed Saddam's wrongful invasion 
was put together almost as swiftly, largely through the President's 
decisive leadership that focused the international consensus against 
the aggression and galvanized the nations of the world to act promptly 
and forcefully. The United States played a leading role not only in 
opposing the invasion, but also in bringing together and maintaining 
this unprecedented effort.
    From the outset of the Gulf crisis, it was clear that American 
leadership was needed. The United States was willing to assume the 
leading role both politically and militarily, but did not want to be 
alone. America's allies and friends understood that. They joined the 
United States in the United Nations. They joined American forces in the 
Gulf with soldiers, planes, ships, and equipment. They provided 
financial assistance to front-line states and helped with the United 
States' incremental costs. What was accomplished in terms of 
responsibility sharing was unprecedented.
    Nearly 50 countries made a contribution. Among those, 38 countries 
deployed air, sea, or ground forces. Together, they committed more than 
200,000 troops, more than 60 warships, 750 aircraft, and 1,200 tanks. 
They came from all parts of the world, including Arab and Islamic 
countries. Their troops fought side by side with American forces. They 
faced danger and mourned casualties as did the United States. But they 
remained firmly committed to the Coalition.
    Many countries contributed financially. They gave billions in cash 
to the United States, and provided valuable in-kind assistance, 
including construction equipment, computers, heavy equipment 
transporters, chemical detection vehicles, food, fuel, water, airlift, 
and sealift. They also gave billions in economic aid to countries most 
affected by the crisis.
    Perhaps most remarkable was the amount of support provided by 
Coalition members to cover U.S. incremental costs for the war. The 
contributions of U.S. allies would rank, by a considerable margin, as 
the world's third largest defense budget, after that of the United 
States and the former Soviet Union. Few would have imagined this level 
of participation.
    U.S. allies provided $54 billion against the estimated $61 billion 
of incremental costs. Roughly two-thirds of these commitments were from 
the Gulf states directly threatened by Iraq, with the other one-third 
largely coming from Japan and Germany.

    Senator Boxer. And the importance of the point that Senator 
Biden made on it--I look at it, in addition to that, another 
difference that some of us have--not a majority, but I would 
say--I bet a majority of the American people--and that is that 
we are putting in the administration so much of our power and 
our influence and our talent to make the case for a military 
solution here, rather than take that talent and that persuasion 
and so on and put it behind a robust, very workable inspection 
regime. And I think that that is the nub of the problem of a 
lot of my constituents and, I think, a lot of the people in our 
own country, and, I dare say, a lot of people in the world.
    And I do not expect you to have this, but I have a list of 
what the inspectors achieved in the disarmament process in the 
last--right after the last war. And I am going to quickly run 
through it, Mr. Chairman. I think it is instructive.
    They destroyed the following, according to UNSCOM--48 
operational long-range missiles, 14 conventional missile 
warheads, six operational mobile launchers--and there will not 
be a test on this--28 operational fixed launch pads, 32 fixed 
launch pads under construction at the time, 30 missile chemical 
warheads, other missile support equipment and material, 
supervision of the destruction of a variety of assembled and 
non-assembled super-gun components; in the chemical area, 
38,537 filled and empty chemical munitions, 690 tons of 
chemical weapons agent, more than 3,000 tons of precursor 
chemicals, 426 pieces of chemical weapons production equipment, 
91 pieces of related analytical instruments; and, in the 
biological area, the entire al-Hakka, the main biological 
weapons production facility, and a variety of biological 
weapons production equipment and material.
    The reason I take the time to read it is, that is no small 
feat. That is more than was destroyed by our bombs. And we had 
a lot of bombs going out there. So knowing that, and knowing, 
as I believe Senator Chafee said, if I am not--if I misquoted 
you--that it is ever a stronger inspection regime now--I 
believe you said that--and that the whole world is watching, 
now more than ever, I would like to see us put more of our 
influence and power behind that. And I think if we were to do 
that--see, I think it is a winner for us, because then if Iraq 
puts up her back and Saddam says, ``Uh, no, I'm not 
cooperating. This is a hoax, this is a fraud, and all of 
that,'' the world will see it. And that is the way you take the 
high ground.
    So this is a difference that I see, personally. And as I 
look at the comments of Secretary Powell 3 weeks ago, quoted in 
the Washington Post, that the inspection regime was in its 
infancy, he said, ``The inspectors are really now starting to 
gain momentum''--3 weeks ago, Secretary Armitage, you said it--
in part because the United States had just begun to provide the 
intelligence. And that gets to Senator Sarbanes' points and 
others.
    And I am flabbergasted that Ambassador Negroponte does not 
really know how much we have given them of what we have. I 
think you should be told that. You are our guy on the firing 
line. You need to know, out of all the intelligence we have 
had, how much has been turned over.
    Now, we know Hans Blix says he is opening a new office, he 
is training additional inspectors. ElBaradei said continuing 
inspections would be a valuable investment in peace, because it 
could help us avoid a war. General Norman Schwarzkopf, who led 
the allies during the Persian Gulf War, has been quoted as 
saying, ``It's important for us to wait and see what the 
inspectors come up with,'' and hopefully they will come up with 
something conclusive.
    So, you know, I feel compelled to put this out there, 
because I think that the reason there is a split in American 
public opinion--and let me tell you, should we go to war, there 
will not be any split. There is no doubt in my mind. That is 
how we are. We are going to pull together. We are going to do 
everything to make it work with the least possible loss of 
life, both here and in innocent civilians. I am convinced of 
that. That is why when I heard of the possible first-use of 
nuclear weapons, I could not believe it, and I hope that that 
is not on the table.
    I want you to take back the word that, you know, you--we 
could do this really right. We could have the kind of coalition 
Senator Biden referred to. We can have the costs defrayed. And 
for the record, I hope you would give us how many dollars 
people have agreed to put forward.
    And there is a report that came to us after the gulf war 
from the Department of Defense saying how the contributions 
were so important in softening the economic blow of the war. 
And this is an important consideration.
    So I guess I have said my peace. I hope that it did not 
fall on deaf ears. I hope that we will be briefed by Colin 
Powell as to why he has changed his mind on this. Before, he 
wanted more inspections; now he says he has joined with others 
in saying, you know, ``Time's up.'' It seems like a very rapid 
change of heart to me. I am--I want to know why, and I hope you 
will convey our thoughts.
    And we are all one nation. We are praying for a good ending 
here, and I hope you will send the words back.
    Thank you.
    Mr. Armitage. Senator, thank you very much.
    The reason I indicated that I had seen your statement on 
the 27th of January was to try to make the point that you 
ended--you began and ended with, and that is, to carry the 
message back. Both as a matter of having the relationship we 
have with this committee and as our duty, we have to carry 
these back to the Secretary and beyond. So have no fear. 
Whether we agree or not, that is quite different, but the 
message gets carried, No. 1.
    No. 2, I am one of those who--I do not want to be graded on 
my biblical reference and my memory of the exact biblical 
citation, but I am one who grew up with the words of Isaiah, 
and I think it is 2:8, in my ears, and that was where the 
question is asked, ``Who shall go--who shall we send, and who 
will go for us?'' And the answer is, ``Here I am. Send me.''
    I think there is, for better or for worse, a certain amount 
of that about the United States. For a lot of reasons, we are 
who and what we are. And in a very real way, it is, ``Who will 
go for us?'' ``Here I am. Send me.'' It is usually referred to 
in the military context, but I think as a nation. Now, how we 
go is a serious question.
    And finally, on the question of how much good was 
accomplished by the inspectors, you are right, I cannot gainsay 
it. And it was at a time when the smell of cordite was still in 
the nostrils of the Iraqis, and their ears were still ringing 
from those bombs we expended. And in the 12 years since then, I 
think they have--some in the leadership have come to a 
different conclusion, that there are not any more teeth in the 
international community. So I think that is why we may have a 
difference of opinion about the timing--how much time to give.
    But I certainly would not dispute any of the comments or 
the accomplishments that you outlined.
    Senator Biden. Mr. Chairman.
    The Chairman. Senator Biden.
    Senator Biden. Would you indulge me for about three more 
minutes?
    The Chairman. Of course.
    Senator Biden. When we passed the resolution which you and 
I and others helped craft here, giving the President the 
authority, there was a requirement that the President submit a 
report. And the report was--granted, it was a month late, but 
we got the report--and it was supposed to lay out what other 
military assistance, what other economic assistance, et cetera, 
that we expect from other countries.
    This is--I am going to submit a couple of questions on 
that, if I may, Mr. Secretary, because I think it is a--it is 
not a complete report, and you may not be able to give a 
complete report yet.
    But what I would like to have described here is a little 
bit about the--what was required in the report is the steps we 
are taking to encourage others to contribute to this initial 
fund, and that is, afterwards, and a few other questions, which 
is following on from what Senator Boxer raised about the 
previous report. Under the law, under the resolution, we need 
that report.
    Second, we would also like to know, which will be the 
subject of another hearing, is what the game plan is, to the 
extent there is one, after and if--if there is a war and after 
the war.
    The third point I would like to make is that I--this may be 
a simple answer--I am revealing my ignorance here; maybe you 
know off the top of your head, Mr. Ambassador--but Hans Blix' 
report indicated that there were a number of illegal actions 
that were uncovered, including possession of those 122 chemical 
rockets, possession of laboratories, a laboratory and some 
mustard gas, development of liquid-fuel missiles, et cetera. Is 
he authorized, under 1441, to destroy--confiscate and destroy 
that material? And if he is, are these illegal things within 
the control now of UNSCOM? Can you tell us that?
    Ambassador Negroponte. He is authorized to destroy those 
materials under 1441 and preceding resolutions all the way back 
to 687, provided he makes a determination that they are--this 
is Blix' position--that they are related to WMD programs and 
they are not simply illegal arms imports. That even though they 
are illegal, they are not WMD. And he----
    Senator Biden. I see----
    Ambassador Negroponte [continuing]. And that is the 
determination he said he was going to be making within the next 
couple of weeks----
    Senator Biden. I see.
    Ambassador Negroponte [continuing]. With respect to those 
items.
    Senator Biden. Well, I would hope that, no matter what we 
do, we could get maybe some clarification or amendment to that, 
because the idea that we are unable to destroy what he is not 
legally able to do under previous resolutions, I think, is----
    Ambassador Negroponte [continuing]. We have been arguing 
that that is what----
    Senator Biden. Great.
    Ambassador Negroponte [continuing]. What should be done.
    Senator Biden. And the last point I will make is that I 
agree with you, Mr. Secretary about--you just talked about 
Chile. Bob Dole and I, 7 years ago, when we put in authorizing 
language and follow-on to Bosnia, proposed to, and suggested to 
the Defense Department how to develop that. It is clear to me, 
it is clear to me it is the only alternative to boots on the 
ground with warriors there.
    And the last point I say to my friend from Rhode Island. I 
appreciate his observation about our power, relative to the 
rest of the world. I may be mistaken, but I do not think I am. 
Our military budget is larger than the next 15 nations 
combined, from the second most powerful military to the 15th 
most powerful. You add up their--and I am not suggesting it 
should not be, but just to put it in perspective--add up every 
other nation, including all our NATO allies, all of them 
combined, China--you add them all up, 15, whatever they--the 
top 15 are, our budget is larger than all 15 combined, which I 
think argues for the fact that they have to take on more 
responsibility, not that we should cut our budget.
    But at any rate, I thank you, Mr. Chairman, and I thank the 
witnesses very much for their indulgence.
    The Chairman. Thank you, Senator Biden.
    Let me mention that Senator Sununu has submitted a 
statement for the record, and without objection, it will be 
included.
    [The prepared statement of Senator Sununu follows:]

              Prepared Statement of Senator John E. Sununu

    Mr. Chairman, I want to thank both you and Senator Biden for 
holding this important hearing today and to congratulate both of you 
for assuming your respective leadership positions on the committee. I 
would also like to acknowledge the rest of my colleagues and tell all 
of you how honored I am to be serving on this committee during these 
critical times. I look forward very much to working with each of you.
    I have just returned from a meeting hosted this morning by 
Secretary of State Colin Powell with the freshmen Senators. There, 
Secretary Powell, Deputy Secretary Armitage and several other senior 
State Department officials offered us their thoughts and the 
administration's objectives on an array of issues including the very 
pressing one that brings us here this morning.
    We are grateful to Deputy Secretary Armitage and Ambassador 
Negroponte for coming before us today to provide us with their 
assessment of the reports made earlier this week by the United Nations 
weapons inspection team, UNMOVIC, and the International Atomic Energy 
Agency to the United Nations Security Council. UNMOVIC and the IAEA 
were authorized by the Security Council to monitor and enforce Security 
Council Resolution 1441 and other numerous UN resolutions concerning 
Iraq that have been passed over the last 12 years and are still 
operable.
    In his State of the Union Address, the President catalogued the 
thousands of liters of anthrax and other biological and chemical 
weapons that were identified as existing in Iraq during the 1990's--
agents that Iraq has failed either to produce or to show evidence that 
they have been destroyed. And, Dr. Hans Blix, Executive Chairman of 
UNMOVIC, reported to the Security Council on Monday that there has not 
been substantive cooperation with the efforts of the inspectors to 
certify that Iraq has fully disclosed their weapons of mass destruction 
or can provide concrete evidence of their destruction.
    Contrary to the claims made by critics of the administration's 
policy, the real issue here is not whether the weapons inspectors have 
located any weapons of mass destruction but whether Saddam Hussein has 
provided an accurate accounting of Iraq's WMDs and whether he is 
committed to disarming. The burden does not lie with UNMOVIC and IAEA 
to locate WMDs and demonstrate that Saddam Hussein intends to use them 
to terrorize his neighbors. The UN Security Council has repeatedly--
over twelve years and now through 17 resolutions--concluded that Iraq 
is already in possession of WMDs or at least attempting to procure 
WMDs, and that Iraq's track record under Saddam Hussein's rule 
demonstrates that it is imperative that the threat posed by Iraq's WMDs 
must be eliminated.
    The burden of proof is directly on Saddam Hussein's shoulders: he 
must fully disclose his weapons and he must commit to destroying them. 
That is what the UN Security Council requires--nothing more, nothing 
less. UNMOVIC and IAEA inspectors were not sent to Iraq for the purpose 
of engaging in an open-ended search for weapons. Iraq was required 
under Resolution 1441 to disclose all of its weapons before December 8, 
2002, and the weapons inspectors were responsible for using the 
information provided by Iraq in the December 8th declaration to verify 
that Iraq's claims were truthful and complete and that the weapons 
would be taken from Iraq's possession and destroyed.
    Therefore, it is not surprising that perhaps the most damning 
aspect of Hans Blix's report is his assessment that there is no 
indication that Iraq has even begun to accept the idea of disarmament 
let alone provide cooperation of substance such as allowing independent 
interviews of Iraqi scientists or allowing requested surveillance 
flights.
    Contrast Iraq's behavior with that of South Africa or some of the 
former Soviet Republics which at one time possessed nuclear weapons. In 
his report to the Security Council on Monday, Dr. Blix described how 
South Africa ``welcomed inspection as a means of creating confidence in 
its disarmament.'' And the chairman is probably more knowledgeable than 
anyone in the room today about the dramatic and bold steps taken by all 
sides in securing disarmament of those former Soviet Republics who 
sought to rid themselves of nuclear weapons. This is the precedent Iraq 
should be expected to follow, and it is the one mandated under the 
resolutions the UN has passed since 1991.
    That is why the Security Council to date has been so forceful and 
insistent on compliance by Iraq with the commitments made at the end of 
the gulf war. Eliminating the threat that Iraq's weapons of mass 
destruction pose is a world problem--not just a problem for the United 
States. The Security Council has demonstrated that it understands this 
proposition, and if it is required to revisit this matter by means of 
an additional resolution on Iraq, I am confident that the President, 
along with his very effective diplomatic team, can convince the 
Security Council to continue to stand firm and demand Iraq's 
disarmament.
    I look forward to hearing Secretary Armitage's and Ambassador 
Negroponte's testimony, and I look forward to a candid discussion 
during the question period. Thanks again to both of you for coming here 
today. And thanks again to Chairman Lugar and Senator Biden for giving 
us all this opportunity to examine this urgent and sensitive matter.

    The Chairman. Now, let me just conclude by commenting that 
clearly many members of the committee have argued today that 
the obligation is not on the inspectors, but on the Iraqis. On 
the other hand, we have heard a great deal of testimony, and in 
the question-answer session from Senators today, that 
constituents are deeply interested in the whole inspection 
process--who the inspectors are, is the regime getting better, 
is it large enough, what have they achieved in the past, other 
questions of this sort.
    This may seem like a tangent that is not worth the 
exploration, but I think it is, and it is probably obvious to 
both of you that much more probably needs to be written 
officially about the record.
    Now, when that happens, I just have these two observations. 
Ralph Ekeus, a very distinguished inspector from UNSCOM in 
another regime, has pointed out that many of the successes 
Senator Boxer mentioned in the destruction of these weapons and 
materials of mass destruction came after the fortuitous 
departure of the son-in-law of Saddam Hussein to Jordan. Now, 
he really did know where things were. This was not just simply 
a scientist at a particular laboratory or other people we would 
like to interview. He had a pretty comprehensive view of the 
whole subject. And remarkably, he did detail to the inspectors 
of that day where a lot was, and they promptly regained entry 
and destroyed it, a magnificent amount. Now, even then, they 
did not know what percentage they had, or how much else was 
left. Clearly, a remarkable record, which, as Senator Boxer has 
said, is more than our bombs have achieved. But we did not know 
often, when we were bombing, where things were either.
    Back to the inspector problem. If you have direction, if 
another relative of the family leaves, conceivably there could 
be spectacular results within a short period of time. Now, 
absent that, I am told that 75 percent of the inspecting team 
are people who have had no experience in Iraq before. That is 
unfortunate. Further, many of them did not arrive for several 
weeks.
    Even given the gravity of all that was involved in the U.N. 
resolution, the fact is that the U.N. inspection community did 
not act particularly swiftly or aggressively in the views of 
many who are spending a lot of time looking at inspectors and 
examining the inspection.
    Many more inspectors are there now. They are getting their 
ground legs. They go out each day to eight or nine places, as 
directed, and do baseline work. This is what the inspectors 
call it, ``baseline''--same thing they have done before, last 
time, time before--just to check to see if anything has 
changed. But these are hardly breakthrough situations and 
unlikely to be, without, in fact, somebody telling us where the 
mobile van went and where it is today.
    I note this tediously because I think you must go through 
it tediously. There is somehow a myth out in the country that 
inspection, per se, even over many weeks and months under these 
circumstances, might disarm Iraq. Up to the moment, there is 
not any evidence, in my judgment, that that could slightly be 
the case, even remotely and in a century. However, if Saddam 
Hussein--and using Chairman Biden's terminology--really sees 
what the issue is, this disarmament process, that he is 
surrounded, we are intent, the President has the will to go 
with a coalition of the willing, maybe Saddam will change his 
mind. Maybe he will not. But that is the critical factor. Or 
some member of his family might change his or her mind.
    Any of the above would be extremely useful, and we pray 
that some breakthrough will occur for the benefit of all us, as 
well as the world.
    But we thank both of you very much for devoting this time. 
We are still in the same calendar day that we began. And you 
have been very patient and stalwart, and we thank you, and we 
look forward to seeing you again, Secretary Armitage, very 
soon.
    The committee is adjourned.
    [Whereupon, at 1:25 p.m., the committee adjourned, subject 
to the call of the Chair.]
                              ----------                              


              Additional Material Submitted for the Record

                                ------                                


     THE SECURITY COUNCIL, 27 JANUARY 2003: AN UPDATE ON INSPECTION

              executive chairman of unmovic, dr. hans blix
The governing Security Council resolutions
    The resolution adopted by the Security Council on Iraq in November 
last year asks UNMOVIC and the IAEA to ``update'' the Council 60 days 
after the resumption of inspections. This is today. The updating, it 
seems, forms part of an assessment by the Council and its Members of 
the results, so far, of the inspections and of their role as a means to 
achieve verifiable disarmament in Iraq.
    As this is an open meeting of the Council, it may be appropriate 
briefly to provide some background for a better understanding of where 
we stand today. With your permission, I shall do so.
    I begin by recalling that inspections as a part of a disarmament 
process in Iraq started in 1991, immediately after the Gulf War. They 
went on for eight years until December 1998, when inspectors were 
withdrawn. Thereafter, for nearly four years there were no inspections. 
They were resumed only at the end of November last year.
    While the fundamental aim of inspections in Iraq has always been to 
verify disarmament, the successive resolutions adopted by the Council 
over the years have varied somewhat in emphasis and approach.
    In 1991, resolution 687 (1991), adopted unanimously as a part of 
the cease-fire after the Gulf War, had five major elements. The three 
first related to disarmament. They called for

  <bullet> declarations by Iraq of its programmes of weapons of mass 
        destruction and long range missiles;

  <bullet> verification of the declarations through UNSCOM and the 
        IAEA;

  <bullet> supervision by these organizations of the destruction or the 
        elimination of proscribed items and programmes.

After the completion of the disarmament

  <bullet> the Council would have authority to proceed to a lifting of 
        the sanctions (economic restrictions); and

  <bullet> the inspecting organizations could move to long-term ongoing 
        monitoring and verification.

    Resolution 687 (1991), like the subsequent resolutions I shall 
refer to, required cooperation by Iraq but such was often withheld or 
given grudgingly. Unlike South Africa, which decided on its own to 
eliminate its nuclear weapons and welcomed inspection as a means of 
creating confidence in its disarmament, Iraq appears not to have come 
to a genuine acceptance--not even today--of the disarmament, which was 
demanded of it and which it needs to carry out to win the confidence of 
the world and to live in peace.
    As we know, the twin operation ``declare and verify'', which was 
prescribed in resolution 687 (1991), too often turned into a game of 
``hide and seek''. Rather than just verifying declarations and 
supporting evidence, the two inspecting organizations found themselves 
engaged in efforts to map the weapons programmes and to search for 
evidence through inspections, interviews, seminars, inquiries with 
suppliers and intelligence organizations. As a result, the disarmament 
phase was not completed in the short time expectecd. Sanctions remained 
and took a severe toll until Irag accepted the Oil for Food Programme 
and the gradual development of that programme mitigated the effects of 
the sanctions.
    The implementation of resolution 687 (1991) nevertheless brought 
about considerable disarmament results. It has been recognized that 
more weapons of mass destruction were destroyed under this resolution 
than were destroyed during the Gulf War; large quantities of chemical 
weapons were destroyed under UNSCOM supervision before 1994. While Iraq 
claims--with little evidence--that it destroyed all biological weapons 
unilaterally in 1991, it is certain that UNSCOM destroyed large 
biological weapons production facilities in 1996. The large nuclear 
infrastructure was destroyed and the fissionable material was removed 
from Iraq by the IAEA.
    One of three important questions before us today is how much might 
remain undeclared and intact from before 1991; and, possibly, 
thereafter; the second question is what, if anything, was illegally 
produced or procured after 1998, when the inspectors left; and the 
third question is how it can be prevented that any weapons of mass 
destruction be produced or procured in the future.
    In December 1999--after one year without inspections in Iraq--
resolution 1284 (1999) was adopted by the Council with 4 abstentions. 
Supplementing the basic resolutions of 1991 and following years, it 
provided Iraq with a somewhat less ambitious approach: in return for 
``cooperation in all respects'' for a specified period of time, 
including progress in the resolution of ``key remaining disannament 
tasks'', it opened the possibility, not for the lifting, but the 
suspension of sanctions.
    For nearly three years, Iraq refused to accept any inspections by 
UNMOVIC. It was only after appeals by the Secretary-General and Arab 
States and pressure by the United States and other Member States, that 
Iraq declared on 16 September last year that it would again accept 
inspections without conditions.
    Resolution 1441 (2002) was adopted on 8 November last year and 
emphatically reaffirmed the demand on Iraq to cooperate. It required 
this cooperation to be immediate, unconditional and active. The 
resolution contained many provisions, which we welcome as enhancing and 
strengthening the inspection regime. The unanimity by which it was 
adopted sent a powerful signal that the Council was of one mind in 
creating a last opportunity for peaceful disarmament in Iraq through 
inspection.
    UNMOVIC shares the sense of urgency felt by the Council to use 
inspection as a path to attain, within a reasonable time, verifiable 
disarmament of Iraq. Under the resolutions I have cited, it would be 
followed by monitoring for such time as the Council feels would be 
required. The resolutions also point to a zone free of weapons of mass 
destruction as the ultimate goal.
    As a subsidiary body of the Council, UNMOVIC is fully aware of and 
appreciates the close attention, which the Council devotes to the 
inspections in Iraq. While today's ``updating'' is foreseen in 
resolution 1441 (2002), the Council can and does call for additional 
briefings whenever it wishes. One was held on 19 January and a futher 
such briefing is tentatively set for 14 February.
    I turn now to the key requirement of cooperation and Iraq's 
response to it. Cooperation might be said to relate to both substance 
and process. It would appear from our experience so far that Iraq has 
decided in principle to provide cooperation on process, notably access. 
A similar decision is indispensable to provide cooperation on substance 
in order to bring the disarmament task to completion through the 
peaceful process of inspection and to bring the monitoring task on a 
firm course. An initial minor step would be to adopt the long-overdue 
legislation required by the resolutions.
    I shall deal first with cooperation on process.
Cooperation on process
    It has regard to the procedures, mechanisms, infrastructure and 
practical arrangements to pursue inspections and seek verifiable 
disarmament. While inspection is not built on the premise of confidence 
but may lead to confidence if it is successful, there must nevertheless 
be a measure of mutual confidence from the very beginning in running 
the operation of inspection.
    Iraq has on the whole cooperated rather well so far with UNMOVIC in 
this field. The most important point to make is that access has been 
provided to all sites we have wanted to inspect and with one exception 
it has been prompt. We have further had great help in building up the 
infrastucture of our office in Baghdad and the field office in Mosul. 
Arrangements and services for our plane and our helicopters have been 
good. The environment has been workable.
    Our inspections have included universities, military bases, 
presidential sites aqd private residences. Inspections have also taken 
place on Fridays, the Muslim day of rest, on Christmas day and New 
Years day. These inspections have been conducted in the same manner as 
all other inspections. We seek to be both effective and correct.
    In this updating I am bound, however, to register some problems. 
Firstly, relating to two kinds of air operations.
    While we now have the technical capability to send a U-2 plane 
placed at our disposal for aeriai imagery and for surveillance during 
inspections and have informed Iraq that we planned to do so, Iraq has 
refused to guarantee its safety, unless a number of conditions are 
fulfilled. As these conditions went beyond what is stipulated in 
resolution 1441 (2002) and what was practiced by UNSCOM and Iraq in the 
past, we note that Iraq is not so far complying with our request. I 
hope this attitude will change.
    Another air operation problem--which was solved during our recent 
talks in Baghdad--concerned the use of helicopters flying into the no-
fly zones. Iraq had insisted on sending helicopters of their own to 
accompany ours. This would have raised a safety problem. The matter was 
solved by an offer on our part to take the accompanying Iraq minders in 
our helicopters to the sites, an arrangement that had been practiced by 
UNSCOM in the past.
    I am obliged to note some recent disturbing incidents and 
harassment. For instance, for some time farfetched allegations have 
been made publicly that questions posed by inspectors were of 
intelligence character. While I might not defend every question that 
inspectors might have asked, Iraq knows that they do not serve 
intelligence purposes and Iraq should not say so.
    On a number of occasions, demonstrations have taken place in front 
of our offlces and at inspection sites.
    The other day, a sightseeing excursion by five inspectors to a 
mosque was followed by an unwarranted public outburst. The inspectors 
went without any UN insignia and were welcomed in the kind manner that 
is characteristic of the normal Iraqi attitude to foreigners. They took 
off their shoes and were taken around. They asked perfectly innocent 
questions and parted with the invitation to come again.
    Shortly thereafter, we receive protests from the Iraqi authorities 
about an unannounced inspection and about questions not relevant to 
weapons of mass destruction. Indeed, they were not. Demonstrations and 
outbursts of this kind are unlikely to occur in Iraq without initiative 
or encouagement from the authorities. We must ask ourselves what the 
motives may be for these events. They do not facilitate an already 
difficult job, in which we try to be effective, professional and, at 
the same time, correct. Where our Iraqi counterparts have some 
complaint they can take it up in a calmer and less unpleasant mariner.
Cooperation on substance
    The substantive ooperation required relates above all to the 
obligation of Iraq to declare all programmes of weapons of mass 
destruction and either to present items and activities for elimination 
or else to provide evidence supporting the conclusion that nothing 
proscribed remains.
    Paragraph 9 of resolution 1441 (2002) states that this cooperation 
shall be ``active''. It is not enough to open doors. Inspection is not 
a game of ``catch as catch can''. Rather, as I noted, it is a process 
of verification for the purpose of creating confidence. It is not built 
upon the premise of trust. Rather, it is designed to lead to trust, if 
there is both openness to the inspectors and action to present them 
with items to destroy or credible evidence about the absence of any 
such items.
The declaration of 7 December
    On 7 December 2002, Iraq submitted a declaration of some 12,000 
pages in response to paragraph 3 of resolution l441 (2002) and within 
the time stipulated by the Security Council. In the flelds of missiles 
and biotechnology the declaration contains a good deal of new material 
and information covering the period from 1998 and onward. This is 
welcome.
    One might have expected that in preparing the Declaration, Iraq 
would have tried to respond to, clarify and submit supporting evidence 
regarding the many open disarmament issues, which the Iraqi side should 
be familiar with from the UNSCOM document S/1999/94 of January 1999 and 
the so-called Amorim Report of March 1999 (S/1999/356). These are-
questions which UNMOVIC, governments and independent commentators have 
often cited.
    While UNMOVIC has been preparing its own list of current 
``unresolved disarmament issues'' and ``key remaining disarmament 
tasks'' in response to requirements in resolution 1284 (1999), we find 
the issues listed in the two reports as unresolved, professionally 
justified. These reports do not contend that weapons of mass 
destruction remain in Iraq, but nor do they exclude that possibility. 
They point to lack of evidence and inconsistencies, which raise 
question marks, which must be straightened out, if weapons dossiers are 
to be closed and confidence is to arise.
    They deserve to be taken seriously by Iraq rather than being 
brushed aside as evil machinations of UNSCOM. Regrettably, the 12,000 
page declaration, most of which is a reprint of earlier documents, does 
not seem to contain any new evidence that would eliminate the questions 
or reduce their number. Even Iraq's letter sent in response to our 
recent discussions in Baghdad to the President of the Security Council 
on 24 January does not lead us to the resolution of the issues.
    I shall only give some examples of issues and questions that need 
to be answered and I turn first to the sector of chemical weapons.
Chemical weapons
    The nerve agent VX is one of the most toxic ever developed.
    Iraq has declared that it only produced VX on a pilot scale, just a 
few tonnes and that the quality was poor and the product unstable. 
Consequently, it was said, that the agent was never weaponised. Iraq 
said that the small quantity of agent remaining after the Gulf War was 
unilaterally destroyed in the summer of 1991.
    UNMOVIC, however, has information that conflicts with this account. 
There are indications that Iraq had worked on the problem of purity and 
stabilization and that more had been achieved than has been declared. 
Indeed, even one of the documents provided by Iraq indicates that the 
purity of the agent, at least in laboratory production, was higher than 
declared.
    There are also indications that the agent was weaponised. In 
addition, there are questions to be answered concerning the fate of the 
VX precursor chemicals, which Iraq states were lost during bombing in 
the Gulf War or were unilaterally destroyed by Iraq.
    I would now like to turn to the so-called ``Air Force document'' 
that I have discussed with the Council before. This document was 
originally found by an UNSCOM inspector in a safe in Iraqi Air Force 
Headquarters in 1998 and taken from her by Iraqi minders. It gives an 
account of the expenditure of bombs, including chemical bombs, by Iraq 
in the Iraq-Iran War. I am encouraged by the fact that Iraq has now 
provided this document to UNMOVIC.
    The document indicates that 13,000 chemical bombs were dropped by 
the Iraqi Air Force between 1983 and 1988, while Iraq has declared that 
19,500 bombs were consumed during this period. Thus, there is a 
discrepancy of 6,500 bombs. The amount of chemical agent in these bombs 
would be in the order of about 1,000 tonnes. In the absence of evidence 
to the contrary, we must assume that these quantities are now 
unaccounted for.
    The discovery of a number of 122 mm chemical rocket warheads in a 
bunker at a storage depot 170 km southwest of Baghdad was much 
publicized. This was a relatively new bunker and therefore the rockets 
must have been moved there in the past few years, at a time when Iraq 
should not have had such munitions.
    The investigation of these rockets is still proceeding. Iraq states 
that they were overlooked from 1991 from a batch of some 2,000 that 
were stored there during the Gulf War. That could be the case. They 
could also be the tip of a submerged iceberg. The discovery of a few 
rockets does not resolve but rather points to the issue of several 
thousands of chemical rockets that are unaccounted for.
    The finding of the rockets shows that Iraq needs to make more 
effort to ensure that its declaration is cunently accurate. During my 
recent discussions in Baghdad, Iraq declared that it would make new 
efforts in this regard and had set up a committee of investigation. 
Since then it has reported that it has found a further 4 chemical 
rockets at a storage depot in Al Taji.
    I might further mention that inspectors have found at another site 
a laboratory quantity of thiodiglycol, a mustard gas precursor.
    Whilst I am addressing chemical issues, I should mention a matter, 
which I reported on 19 December 2002, concerning equipment at a 
civilian chemical plant at Al Fallujah. Iraq has declared that it had 
repaired chemical processing equipment previously destroyed under 
UNSCOM supervision, and had installed at Fallujah for the production of 
chlorine and phenols. We have inspected this equipment and are 
conducting a detailed technical evaluation of it. On completion, we 
will decide whether this and other equipment that has been recovered by 
Iraq should be destroyed.
Biological weapons
    I have mentioned the issue of anthrax to the Council on previous 
occasions and I come back to it as it is an important one.
    Iraq has declared that it produced about 8,500 litres of this 
biological warfare agent, which it states it unilaterally destroyed in 
the summer of 1991. Iraq has provided little evidence for this 
production, and no convincing evidence for its destruction.
    There are strong indications that Iraq produced more anthrax than 
it declared, and that at least some of this was retained after the 
declared destruction date. It might still exist. Either it should be 
found and be destroyed under UNMOVIC supervision or else convincing 
evidence should be produced to show that it was, indeed, destroyed in 
1991.
    As I reported to the Council on 19 December last year, Iraq did not 
declare a significant quantity, some 650 kg, of bacterial growth media, 
which was acknowledged as imported in Iraq's submission to the Amorim 
panel in February l999. As part of its 7 December 2002 declaration, 
Iraq resubmitted the Amorim panel document, but the table showing this 
particular import of media was not included. The absence of this table 
would appear to be deliberate as the pages of the resubmitted document 
were renumbered.
    In the letter of 24 January to the President of the Council, Iraq's 
Foreign Minister stated that ``all imported quantities of growth media 
were declared''. This is not evidence. I note that the quantity of 
media involved would suffice to produce, for example, about 5,000 
litres of concentrated anthrax.
Missiles
    I turn now to the missile sector. There remain significant 
questions as to whether Iraq retained SCUD-type missiles after the Gulf 
War. Iraq declared the consumption of a number of SCUD missiles as 
targets in the development of an anti-ballistic missile defence system 
during the 1980s. Yet no technical information has been produced about 
that programme or data on the consumption of the missiles.
    There has been a range of developments in the missile field during 
the past four years presented by Iraq as non-proscribed activities. We 
are trying to gather a clear understanding of them through inspections 
and on-site discussions.
    Two projects in particular stand out. They are the development of a 
liquid-fuelled missile named the Al Samoud 2, and a solid propellant 
missile, called the Al Fatah. Both missiles have been tested to a range 
in excess of the permitted range of 150 km, with the Al Samoud 2 being 
tested to a maximum of 183 km and the Al Fatah to 161 km. Some of both 
types of missiles have already been provided to the Iraqi Armed Forces 
even though it is stated that they are still undergoing development.
    The Al Samoud's diameter was increased from an earlier version to 
the present 760 mm. This modification was made despite a 1994 letter 
from the Executive Chairman of UNSCOM directing Iraq to limit its 
missile diameters to less than 600 mm. Furthermore, a November 1997 
letter from the Executive Chairman of UNSCOM to Iraq prohibited the use 
of engines from certain surface-to-air missiles for the use in 
ballistic missiles.
    During my recent meeting in Baghdad, we were briefed on these two 
programmes. We were told that the final range for both systems would be 
less than the permitted maximum range of 150 km.
    These missiles might very well represent prima facie cases of 
proscribed systems. The test ranges in excess of 150 km are 
significant, but some further technical considerations need to be made, 
before we reach a conclusion on this issue. In the mean time, we have 
asked Iraq to cease flight tests of both missiles.
    In addition, Iraq has refurbished its missile production 
infrastucture. In particular, Iraq reconstituted a number of casting 
chambers, which had previously been destoyed under UNSCOM supervision. 
They had been used in the production of solid-fueled missiles. Whatever 
missile system these chambers are intended for, they could produce 
motors for missiles capable of ranges significantly greater than 150 
km.
    Also associated with these missiles and related developments is the 
import, which has been taking place during the last few years, of a 
number of items despite the sanctions, including as late as December 
2002. Foremost amongst these is the import of 380 rocket engines for 
the Al Samoud 2.
    Iraq also declared the recent import of chemicals used in 
propellants, test instrumentation and, guidance and control systems. 
These items may well be for proscribed purposes. That is yet to be 
determined. What is clear is that they were illegally brought into 
Iraq, that is, Iraq or some company in Iraq, circumvented the 
restrictions imposed by various resolutions.
    Mr. President,
    I have touched upon some of the disarmament issues that remain open 
and that need to be answered if dossiers are to be closed and 
confidence is to arise. Which are the means at the disposal of Iraq to 
answer these questions? I have pointed to some during my presentation 
of the issues. Let me be a little more systematic. Our Iraqi 
counterparts are fond of saying that there are no proscribed items and 
if no evidence is presented to the contrary they should have the 
benefit of the doubt, be presumed innocent. UNMOVIC, for its part, is 
not presuming that there are proscribed items and activities in Iraq, 
but nor is it--or I think anyone else after the inspections between 
1991 and 1998--presuming the opposite, that no such items and 
activities exist in Iraq. Presumptions do not solve the problem. 
Evidence and full transparency may help. Let me be specific.
Find the items and activities
    Information provided by Member States tells us about the movement 
and concealment of missiles and chemical weapons and mobile units for 
biological weapons production. We shall certainly follow up any 
credible leads given to us and report what we might find as well as any 
denial of access.
    So far we have reported on the recent find of a small number of 
empty 122 mm warheads for chemical weapons. Iraq declared that it 
appointed a commission of inquiry to look for more. Fine. Why not 
extend the search to other items? Declare what may be found and destroy 
it under our supervision?
Find documents
    When we have urged our Iraqi counterparts to present more evidence, 
we have all too often met the response that there are no more 
documents. All existing relevant documents have been presented, we are 
told. All documents relating to the biological weapons programmne were 
destroyed together with the weapons.
    However, Iraq has all the archives of the Government and its 
various departments, institutions and mechanisms. It should have 
budgetary documents, requests for funds and reports on how they have 
been used. It should also have letters of credits and bills of lading, 
reports on production and losses of material.
    In response to a recent UNMOVIC request for a number of specific 
documents, the only new documents Iraq provided was a ledger of 193 
pages which Iraq stated included all imports from 1983 to 1990 by the 
Technical and Scientific Importation Division, the importing authority 
for the biological weapons programme. Potentially, it might help to 
clear some open issues.
    The recent inspection finding in the private home of a scientist of 
a box of some 3,000 pages of documents, much of it relating to the 
laser enrichment of uranium support a concern that has long existed 
that documents might be distributed to the homes of private 
individuals. This interpretation is refuted by the Iraqi side, which 
claims that research staff sometimes may bring home papers from their 
work places. On our side, we cannot help but think that the case might 
not be isolated and that such placements of documents is deliberate to 
make discovery difficult and to seek to shield documents by placing 
them in private homes.
    Any further sign of the concealment of documents would be serious. 
The Iraqi side committed itself at our recent talks to encourage 
persons to accept access also to private sites. There can be no 
sanctuaries for proscribed items, activities or documents. A denial of 
prompt access to any site would be a very serious matter.
Find persons to give credible information: a list of personnel
    When Iraq claims that tangible evidence in the form of documents is 
not available, it ought at least to find individuals, engineers, 
scientists and managers to testify about their experience. Large 
weapons programmes are moved and managed by people. Interviews with 
individuals who may have worked in programmes in the past may fill 
blank spots in our knowledge and understanding. It could also be useful 
to learn that they are now employed in peaceful sectors. These were the 
reasons why UNMOVIC asked for a list of such persons, in accordance 
with resolution 1441.
    Some 400 names for all biological and chemical weapons programmes 
as well as their missile programmes were provided by the Iraqi side. 
This can be compared to over 3500 names of people associated with those 
past weapons programmes that UNSCOM either interviewed in the 1990s or 
knew from documents and other sources. At my recent meeting in Baghdad, 
the Iraqi side committed itself to supplementing the list and some 80 
additional names have been provided.
Allow information through credible interviews
    In the past, much valuable information came from interviews. There 
were also cases in which the interviewee was clearly intimidated by the 
presence of and interruption by Iraqi officials. This was the 
background of resolution 1441's provision for a right for UNMOVIC and 
the IAFA to hold private interviews ``in the mode or location'' of our 
choice, in Baghdad or even abroad.
    To date, 11 individuals were asked for interviews in Baghdad. The 
replies have invariably been that the individual will only speak at 
Iraq's monitoring directorate or, at any rate, in the presence of an 
Iraqi official. This could be due to a wish on the part of the invited 
to have evidence that they have not said anything that the authorities 
did not wish them to say. At our recent talks in Baghdad, the Iraqi 
side committed itself to encourage persons to accept interviews ``in 
private'', that is to say alone with us. Despite this, the pattern has 
not changed. However, we hope that with further encouragement from the 
authorities, knowledgeable individuals will accept private interviews, 
in Baghdad or abroad.
UNMOVIC's capability
    Mr. President, I must not conclude this ``update'' without some 
notes on the growing capability of UNMOVIC.
    In the past two months: UNMOVIC has built-up its capabilities in 
Iraq from nothing to 260 staff members from 60 countries. This includes 
approximately 100 UNMOVIC inspectors, 60 air operations staff, as well 
as security personnel, communications, translation and interpretation 
staff, medical support, and other services at our Baghdad office and 
Mosul field offce. All serve the United Nations and report to no one 
else. Furthermore, our roster of inspectors will continue to grow as 
our training programme continues--even at this moment we have a 
training course in session in Vienna. At the end of that course, we 
shall have a roster of about 350 qualified experts from which to draw 
inspectors.
    A team supplied by the Swiss Government is refurbishing our offices 
in Baghdad, which had been empty for four years. The Government of New 
Zealand has contributed both a medical team and a communications team. 
The German Government will contribute unmanned aerial vehicles for 
surveillance and a group of specialists to operate them for us within 
Iraq. All these contributions have been of assistance in quickly 
starting up our inspections and enhancing our capabilities. So has help 
from the UN in New York and from sister organizations in Baghdad.
    In the past two months during which we have built-up our presence 
in Iraq, we have conducted about 300 inspections to more than 230 
different sites. Of these, more than 20 were sites that had not been 
inspected before. By the end of December, UNMOVIC began using 
helicopters both for the transport of inspectors and for actual 
inspection work. We now have eight helicopters. They have already 
proved invaluable in helping to ``freeze'' large sites by observing the 
movement of traffic in and around the area.
    Setting up a field office in Mosul has facilitated rapid 
inspections of sites in northern Iraq. We plan to establish soon a 
second field office in the Basra area, where we have already inspected 
a number of sites.
    Mr. President,
    We have now an inspection apparatus that permits us to send 
multiple inspection teams every day all over Iraq, by road or by air. 
Let me end by simply noting that that capability which has been built-
up in a short time and which is now operating, is at the disposal of 
the Security Council.

                                   - 

</pre></body></html>
